No.
In the Supreme Court of the United States

JOSE JESUS CRUZ, Petitioner,

v.
UNITED STATES OF AMERICA, Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX
Appendix A, Memorandum Opinion and Order of the Tenth Circuit Court of
Appeals (October 9, 2020) ………………………………………... Appx. A 1
Appendix B, Memorandum Opinion and Order of the United States District
Court, District of New Mexico (February 9, 2019) ……...……. Appx. B 1

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

October 9, 2020

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

No. 19-2127

JOSE JESUS CRUZ,
Defendant - Appellant.
_________________________________
Appeal from the United States District Court
for the District of New Mexico
(D.C. No. 1:18-CR-01105-JB-1)
_________________________________
Carey C. Bhalla, Albuquerque, New Mexico, appearing for Appellant.
Tiffany L. Waters, Assistant United States Attorney (John C. Anderson, United States
Attorney, with her on the briefs), Office of the United States Attorney for the District of
New Mexico, Albuquerque, New Mexico, appearing for Appellee.
_________________________________
Before BRISCOE, MURPHY, and MATHESON, Circuit Judges.
_________________________________
BRISCOE, Circuit Judge.
_________________________________
Defendant-Appellant Jose Jesus Cruz entered a conditional guilty plea to
possession of heroin with intent to distribute and to possession of a firearm during a
drug trafficking crime. Mr. Cruz appeals the district court’s denial of his motion to
suppress evidence, arguing that evidence should have been excluded because it was
Appx. A - 01

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 2

the result of an unlawful search and seizure. Exercising jurisdiction under 28 U.S.C.
§ 1291, we affirm.
I
Mr. Cruz was charged in a four-count superseding indictment: Count 1, being
a felon in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1); Count 2,
possession of fifty grams or more of methamphetamine with intent to distribute, in
violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(A); Count 3, possession of heroin
with intent to distribute, in violation of 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(C);
Count 4, using and carrying a firearm during and in furtherance of a drug trafficking
crime, in violation of 18 U.S.C. § 924(c)(1)(A)(i). ROA, Vol. I at 46–47. Mr. Cruz
moved to suppress evidence police recovered during a search of Mr. Cruz’s residence
and vehicle, arguing that police officers made a warrantless entry into his home
unsupported by probable cause and that no exigent circumstances justified the entry.
Id. at 11–24.
At the hearing on the motion to suppress, Detective Gerald Koppman of the
Bernalillo County Sheriff’s Department testified to the following: In the fall of 2016,
Detective Koppman learned that a person named “Chino,” who was subsequently
identified as Mr. Cruz, was trafficking narcotics. Id., Vol. III at 13. Mr. Cruz was on
federal probation at the time, and Detective Koppman arranged to meet with him to
obtain information about another drug trafficker who was a target of Detective
Koppman’s investigation. Id. at 13–14. Mr. Cruz admitted to trafficking and selling
drugs. Id. at 14. Detective Koppman concluded any contact with Mr. Cruz after the
2

Appx. A - 02

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 3

target was apprehended. Id. at 15. Approximately a year later, in early August 2017,
a confidential informant (CI) told Detective Koppman about a person named “Chino”
who was selling large quantities of narcotics. Id. at 16. Detective Koppman showed
the CI a photograph of Mr. Cruz, whom the CI identified as “Chino.” Id. The CI
stated that he 1 had met Mr. Cruz outside of Mr. Cruz’s residence at Lansing and
Airway to purchase methamphetamine. Id. at 16–17. The CI also provided a phone
number for Mr. Cruz. Id., Vol. I at 28. The CI believed Mr. Cruz was obtaining
narcotics through a trafficker from Arizona who moved hundreds of pounds of
narcotics through Albuquerque monthly. Id., Vol. III at 20.
On September 5, 2017, Detective Koppman executed a search warrant on
another suspect and found a large quantity of methamphetamine. Id. at 16, 46. The
suspect agreed to cooperate with Detective Koppman as a Confidential Source (CS).
The CS named “Chino” as his supplier, and when shown a photograph of Mr. Cruz,
the CS said that was the person he knew as “Chino.” Id. at 16. The CS stated that he
regularly conducted narcotic transactions with Mr. Cruz at the intersection of Lansing
and Airway. Id. at 16–17. The CS also showed Detective Koppman text messages
on his phone from Mr. Cruz, discussing the amount of methamphetamine that the CS
was ordering from Mr. Cruz and describing the methamphetamine. Id., Vol. I at 29.
The CS provided three different phone numbers used by Mr. Cruz, including one that
matched the number provided by the CI. Id. Both the CS and Detective Koppman

1

The record is not clear as to the gender of the CI, and the pronoun “he” is
used throughout the opinion for ease of reference.
3

Appx. A - 03

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 4

believed Mr. Cruz did not keep drugs at his home because, given his probation status,
it was subject to search at any time. Id., Vol. III at 17, 27, 37.
Detective Koppman asked the CS to call Mr. Cruz and request that Mr. Cruz
bring a few ounces of methamphetamine to the CS. Id. at 17, 22, 26. Detective
Koppman listened as the CS ordered several ounces of methamphetamine from Mr.
Cruz. Id. at 17, 26. Mr. Cruz agreed to provide the methamphetamine after he
returned from work and told the CS he would call him later. Id. at 17.
Detective Koppman, however, did not plan to conduct a controlled buy. His
objective was to conduct an investigative detention with Mr. Cruz and convince Mr.
Cruz to “flip” on a bigger target. Id. at 29–30. Detective Koppman did not want to
arrest Mr. Cruz if he was willing to flip, and he did not intend to search Mr. Cruz’s
home because he did not believe Mr. Cruz would store drugs there. Id. at 30–31, 47.
Detective Koppman and other officers went to Mr. Cruz’s residence to conduct
surveillance while waiting for the arranged drug deal between Mr. Cruz and the CS.
Id. at 17–18. Shortly after Detective Koppman arrived at the residence, the CS called
Detective Koppman and told him that Mr. Cruz instructed the CS to meet in front of
the residence in fifteen minutes. Id. at 22, 24. Approximately fifteen minutes later,
Detective Koppman observed Mr. Cruz come out of his residence, open his gate, and
walk out onto the street. Id. at 24. According to Detective Koppman, Mr. Cruz
began looking around as if he were waiting for someone, consistent with behavior
expected of someone about to engage in a narcotics transaction. Id. at 24–25.

4

Appx. A - 04

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 5

At this point, Detective Koppman began to walk up to Mr. Cruz to speak with
him. Id. at 25. But when Mr. Cruz saw the law enforcement officers, he ran back
onto his property. Id. Detective Koppman instructed Mr. Cruz to stop and get on the
ground, but Mr. Cruz kept running. Id. at 47.
Detective Koppman believed, based on his experience, that Mr. Cruz was
going to destroy evidence. Id. at 26. He explained, “If [narcotics traffickers are]
running away from us, it’s usually because they have evidence that they don’t want to
be found with, and they want to try to get rid of it. Usually flushing it. Flushing it or
throwing it over a fence, throwing it on a roof. I’ve seen it all.” Id.
After Mr. Cruz ran, officers chased him as he ran, and then followed him as he
entered his home. Id. at 32. They saw Mr. Cruz come out of his bathroom and took
him into custody. Id. at 32–33. Mr. Cruz’s arm was wet up to the elbow, and
officers could see what appeared to be a bag of methamphetamine in the toilet. Id.
The officers detained Mr. Cruz, but they did not search anywhere else in the home at
that time. Id. at 33–34, 36.
After detaining Mr. Cruz, the officers read him his Miranda warnings and sat
him on the couch. Id. at 30, 34. They offered him the option of consenting to a
search, or having the officers obtain a search warrant. Mr. Cruz cooperated and
provided the officers with consent to search “whatever [the officers] want[ed] to
search.” Id. (quotations omitted).
Pursuant to this consent, officers searched Mr. Cruz’s residence. Id. The bag
recovered from the toilet contained ten grams of methamphetamine. Id., Vol. I at 30.
5

Appx. A - 05

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 6

Officers found two firearms in the living room; one firearm in the bedroom;
approximately fifteen ounces of methamphetamine in the trunk of a vehicle; and
twenty grams of methamphetamine, twenty-three grams of heroin, and a firearm in a
purse in his car. Id. at 30–32. On Mr. Cruz’s person, officers found bags in his
pocket containing sixteen grams of methamphetamine and eight grams of heroin. Id.,
at 30.
The district court denied Mr. Cruz’s motion to suppress, concluding that the
warrantless entry into his home was supported by probable cause and justified by
exigent circumstances—specifically, the destruction of evidence and the hot pursuit
of a suspect. Id. at 140–41, 144. Mr. Cruz subsequently entered a conditional plea to
Counts 3 and 4 of the superseding indictment. Id. at 145–55. The district court
sentenced Mr. Cruz to a total of 360 months’ imprisonment. Id. at 156–63. Mr. Cruz
has timely appealed and only challenges the district court’s denial of his motion to
suppress.
II
When reviewing a denial of a defendant’s motion to suppress, we view the
evidence in the light most favorable to the government. United States v. Smith, 531
F.3d 1261, 1265 (10th Cir. 2008). We review the court’s factual findings for clear
error. Id. However, we review de novo the ultimate question of reasonableness
under the Fourth Amendment. Id. The existence of exigent circumstances is a mixed
question of law and fact. United States v. Anderson, 154 F.3d 1225, 1233 (10th Cir.
1998). “Although we accept underlying fact findings unless they are clearly
6

Appx. A - 06

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 7

erroneous, the determination of whether those facts satisfy the legal test of exigency
is subject to de novo review.” Id. (quotations omitted).
Under the Fourth Amendment and applicable case law, warrantless searches
and seizures are presumptively unreasonable. Brigham City v. Stuart, 547 U.S. 398,
403 (2006); United States v. Najar, 451 F.3d 710, 713 (10th Cir. 2010). Warrantless
searches inside the home are particularly suspect, and the Supreme Court has
recognized that even with probable cause, police officers may not enter a dwelling to
make an arrest absent consent or exigent circumstances. Brigham City, 547 U.S. at
403. Under the exclusionary rule, the government may not introduce evidence
obtained in violation of the Fourth Amendment. United States v. Esquivel-Rios, 786
F.3d 1299, 1306 (10th Cir. 2015).
When analyzing warrantless arrests that begin outside the home and end with
police chasing a suspect into his residence, we ask whether police had probable cause
to make the arrest in the first place and then whether there were exigent
circumstances to justify the officers’ intrusion into the home. See United States v.
Martin, 613 F.3d 1295, 1303 (10th Cir. 2010) (“Having determined that officers had
probable cause to effect an arrest . . . the question remains whether exigent
circumstances existed to justify doing so in [defendant’s home.]”). To uphold Mr.
Cruz’s warrantless arrest, we must determine whether the police officers had
probable cause to arrest him and whether there were exigent circumstances to justify
his arrest within his house. The district court concluded that there was probable
cause for Mr. Cruz’s warrantless arrest, and that two exigent circumstances justified
7

Appx. A - 07

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 8

the warrantless entry into his residence: (1) the destruction of evidence and (2) the
hot pursuit of a suspect. ROA, Vol. I at 140.
III
A. Probable Cause
Mr. Cruz argues that the district court erred in finding that there was probable
cause for his arrest. Aplt. Br. at 12. To determine whether there was probable cause
for Mr. Cruz’s arrest, we look to see “whether at that moment the facts and
circumstances within [the officer’s] knowledge and of which they had reasonably
trustworthy information were sufficient to warrant a prudent [officer] in believing
that the [defendant] had committed or was committing an offense.” United States v.
Snow, 82 F.3d 935, 942 (10th Cir. 1996) (last alteration added) (quoting Beck v.
Ohio, 379 U.S. 89, 91 (1964)). “Probable cause must be evaluated in light of
circumstances as they would have appeared to a prudent, cautious, trained police
officer,” United States v. Morgan, 936 F.2d 1561, 1568 (10th Cir. 1991), and
“[p]robable cause determinations are properly made using a totality-of-thecircumstances analysis,” id. at 1569. “[P]robable cause requires only a probability or
substantial chance of criminal activity, not an actual showing of such activity.”
Illinois v. Gates, 462 U.S. 213, 243 n.13 (1983).
Moreover, where, as here, probable cause is based on information received
from a confidential informant and a confidential source, “the court makes a probable
cause determination based on the totality of the circumstances, including the
informant’s veracity, reliability, and basis of knowledge.” United States v. Hendrix,
8

Appx. A - 08

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 9

664 F.3d 1334, 1338 (10th Cir. 2011). Information received from these sources
which provides “highly specific or personal details from which one could reasonably
infer that the informant had firsthand knowledge about the claimed criminal activity”
is more likely to support probable cause. United States v. Quezada-Enriquez, 567
F.3d 1228, 1233 (10th Cir. 2009). Further, information from any source (whether a
mere tipster, a confidential source, or a confidential informant) is more reliable if it is
confirmed, and thereby corroborated, by officers’ independent observations.
Hendrix, 554 F.3d at 1338.
Here, considering all that the officers knew when they approached Mr. Cruz
outside his home, they had probable cause to arrest him at that time. The officers
knew that Mr. Cruz had trafficked drugs in the past, based on his own admission to
Detective Koppman in 2016. See United States v. Artez, 389 F.3d 1106, 1114 (10th
Cir. 2004) (“[C]riminal history, combined with other factors, can support a finding of
reasonable suspicion or probable cause.”). In addition, Detective Koppman received
highly specific information from both a CI and CS that Mr. Cruz was presently
trafficking narcotics. The CI provided details supporting his claim of firsthand
knowledge of Mr. Cruz’s drug dealing, including a description of the location of Mr.
Cruz’s home; providing a phone number for Mr. Cruz; and identifying him in a
photograph. See United States v. Tuter, 240 F.3d 1292, 1298 (10th Cir. 2001)
(observing that “highly specific or personal details” can support the reasonable
inference that a source has firsthand knowledge). Moreover, the information from
the CI was corroborated by the CS. The CS identified a photograph of Mr. Cruz;
9

Appx. A - 09

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 10

provided one of Mr. Cruz’s phone numbers that matched that provided by the CI; and
showed Detective Koppman text message exchanges with Mr. Cruz describing the
methamphetamine and the amount the CS was ordering from Mr. Cruz. See Artez,
389 F.3d at 1114 (noting that information received “from a second informant can also
help corroborate information from a confidential informant”). Officers also
confirmed the information from both the CI and CS through independent observation
by asking the CS to set up a drug buy with Mr. Cruz while officers listened. The CS
called Detective Koppman and told him that Mr. Cruz had asked to meet the CS at
the intersection in front of Mr. Cruz’s house in fifteen minutes. At the agreed-upon
time, Mr. Cruz walked out onto the street and began looking around as if waiting to
meet someone, behavior Detective Koppman believed was consistent with a drug
transaction. It is also relevant that Mr. Cruz fled upon seeing the officers. See
United States v. Polly, 630 F.3d 991, 999 (10th Cir. 2011) (noting flight from police
can be considered, among other factors, in probable cause analysis). In sum,
considering the officers’ knowledge of Mr. Cruz’s criminal history; detailed,
corroborated information from a CI and CS that Mr. Cruz was selling drugs; and Mr.
Cruz’s behavior at the prearranged drug buy, Detective Koppman had probable cause
to arrest Mr. Cruz when he approached Mr. Cruz outside of his home.
Nevertheless, Mr. Cruz argues that there was no probable cause for his arrest
unless and until a controlled buy was completed, see Aplt. Br. at 12, and that the
information obtained from the CI and CS was not reliable, see id. at 14. These
arguments are unpersuasive. As noted, “probable cause requires only a probability or
10

Appx. A - 10

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 11

substantial chance of criminal activity, not an actual showing of such activity.”
Gates, 462 U.S. at 243 n.13 (emphasis added). Mr. Cruz relies on Aquino to support
his argument, but that case does not stand for the proposition that probable cause
arises only if there is a completed controlled buy. United States v. Aquino, 836 F.2d
1268 (10th Cir. 1988). In Aquino, the police did not have evidence linking the
defendant to drug trafficking until a controlled buy was completed. Id. at 1272–73.
Here, however, there was significant evidence linking Mr. Cruz to drug trafficking
even in the absence of a completed controlled buy, including detailed, corroborated
information from a CI and CS; text messages between the CS and Mr. Cruz setting up
drug transactions; a phone call between the CS and Mr. Cruz arranging for the sale of
methamphetamine; and Mr. Cruz appearing for the transaction at the time and place
arranged by the CS. Aquino only underscores the fact that probable cause
determinations are made using a totality of the circumstances approach. Under the
totality of the circumstances presented here, probable cause is more than supported.
Mr. Cruz’s arguments regarding the reliability of the CI and CS are also
without merit. Mr. Cruz states that the CI only provided “vague references to prior
drug deals.” Aplt. Br. at 15. But the information provided by the CI was quite
specific, including the address of Mr. Cruz’s residence and his phone number. And
contrary to Mr. Cruz’s assertion, the CI’s information was not stale. While it was
provided one month before Mr. Cruz’s arrest, the information provided suggested
that Mr. Cruz’s drug trafficking was ongoing. See ROA, Vol. III at 19 (Detective
Koppman testifying that the CS identified Mr. Cruz as “the subject that sells me
11

Appx. A - 11

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 12

narcotics”) (emphasis added, quotations omitted). “When the circumstances suggest
ongoing criminal activity, the passage of time recedes in importance.” See United
States v. Cantu, 405 F.3d 1173, 1177 (10th Cir. 2005).
Mr. Cruz also points out that the CS had to ask Mr. Cruz for directions to his
home and that Mr. Cruz came outside before the CS had parked as instructed. See
Aplt. Br. at 16. While true, these arguments do not wholly undercut the CS’s
veracity. The officers corroborated what the CS told them as they watched Mr. Cruz
leave his house at the appointed time, head to the street, and look for someone. As
the government points out, “[w]hen there is sufficient independent corroboration of
an informant’s information, there is no need to establish the veracity of the
informant.” United States v. Danhauer, 229 F.3d 1002, 1006 (10th Cir. 2000).
Finally, it is irrelevant that the specific amount of methamphetamine in the controlled
buy was not established before the arrest. See Aplt. Br. at 16. Again, probable cause
requires only a probability or substantial chance of criminal activity, not an actual
showing of such activity. 2 Here, there was abundant evidence to support probable
cause for Mr. Cruz’s arrest.

2

Mr. Cruz also contends that Detective Koppman admitted to a lack of
probable cause for his arrest. See Aplt. Br. at 14. The record, however, only shows
that Detective Koppman stated that prior to surveilling Mr. Cruz at his residence,
officers lacked probable cause to search his home. See ROA, Vol. III at 37–38.
Whether there was probable cause to arrest Mr. Cruz and whether there was probable
cause to search his home for drugs are two separate inquiries, and here, officers did
not search Mr. Cruz’s home until they obtained his consent to do so. See United
States v. Rowland, 145 F.3d 1194, 1204 (10th Cir. 1998) (“Probable cause to search a
person’s residence does not arise based solely upon probable cause that the person is
guilty of a crime.”). Regardless, in addition to having probable cause to arrest Mr.
12

Appx. A - 12

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 13

B. Exigent Circumstances
Having concluded there was probable cause to support Mr. Cruz’s arrest, we
must next ask whether there were exigent circumstances which would justify the
officers’ entry into Mr. Cruz’s dwelling without a warrant. The district court ruled
that this entry was supported by two exigent circumstances—destruction of evidence
and hot pursuit.
1. Destruction of Evidence
We employ a four-part test to determine whether the likelihood of destruction
of evidence justified the officers’ warrantless entry. The test requires that an
officer’s entry be: “(1) pursuant to clear evidence of probable cause, (2) available
only for serious crimes and in circumstances where the destruction of the evidence is
likely, (3) limited in scope to the minimum intrusion necessary to prevent the
destruction of evidence, and (4) supported by clearly defined indicators of exigency
that are not subject to police manipulation or abuse.” Aquino, 836 F.2d at 1272. The
district court found that each of the four prongs were met. ROA, Vol. I at 140. Mr.
Cruz does not dispute that drug trafficking is a serious crime or that the officers’
entry was limited in scope to the minimum intrusion necessary to prevent the
destruction of evidence. See Aplt. Br. at 12–20.
i. There was clear evidence of probable cause.

Cruz in his home, the officers had probable cause to believe that Mr. Cruz had
transported drugs into his home after witnessing his flight.
13

Appx. A - 13

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 14

As discussed above, officers had ample evidence of probable cause to arrest
Mr. Cruz for drug trafficking when he was still outside of his home. When Mr. Cruz
ran indoors from the location of a planned drug sale, police officers had reason to
believe that he possessed drugs and was fleeing with them.
ii. Destruction of evidence was likely.
Because Mr. Cruz’s arrest was supported by clear evidence of probable cause,
we now turn to the second prong of the Aquino test, which has two parts: (1) the
destruction of evidence must be likely and (2) the crime must be serious. Mr. Cruz
only disputes the former.
In determining whether the destruction of evidence was likely, “we are guided
by the realities of the situation presented by the record” and “evaluate the
circumstances as they would have appeared to prudent, cautious, and trained
officers.” United States v. Wicks, 995 F.2d 964, 970 (10th Cir. 1993) (citing United
States v. Cuaron, 700 F.2d 582, 586 (10th Cir. 1983)); see also United States v.
Creighton, 639 F.3d 1281, 1288 (10th Cir. 2011).
Mr. Cruz contends that “there was no indication of loss or destruction of
evidence when [Mr.] Cruz exited his home or stood outside.” Aplt. Br. at 20. More
specifically, he argues that officers did not observe a drug buy before following Mr.
Cruz into his home and did not see any other signs consistent with the destruction of
evidence. Id.
Under the circumstances presented, however, Detective Koppman’s belief that
Mr. Cruz would try to destroy evidence was justified. While a drug buy was not
14

Appx. A - 14

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 15

completed, officers reasonably believed that Mr. Cruz went out to the street to
engage in a prearranged drug transaction; he appeared at the agreed-upon time and
place and appeared to be looking for someone. Therefore, although the officers did
not see the controlled substance, it was logical for the officers to believe that Mr.
Cruz had the controlled substance on his person in anticipation of the drug deal. And
it was reasonable for officers to believe that Mr. Cruz was going to destroy that
evidence—a small quantity of drugs—when he fled into his home upon seeing the
officers, where there was ample opportunity for the destruction. See Aquino, 836
F.2d at 1273 (holding that the destruction of evidence was likely even though the
officers did not see or hear the destruction because there was “evidence that the
source of the cocaine was growing suspicious [of police activity]”). As Detective
Koppman explained at the suppression hearing, he believed that Mr. Cruz was going
to destroy evidence when he fled because “[t]hat’s what narcotics traffickers do.”
ROA, Vol. III at 26. Detective Koppman relied on his training and experience,
testifying that “[i]f [narcotics traffickers are] running away from us, it’s usually
because they have evidence that they don’t want to be found with, and they want to
try to get rid of it. Usually flushing it. Flushing it or throwing it over a fence,
throwing it on a roof. I’ve seen it all.” Id. The foregoing reasonably created an
exigency under the totality of circumstances, despite the fact that the officers did not
hear or see the evidence being destroyed. See Aquino, 836 F.2d at 1273.
iii. Officers’ entry was limited in scope to the minimum intrusion necessary to
prevent the destruction of evidence.
15

Appx. A - 15

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 16

Mr. Cruz does not dispute that the officers’ entry was limited in scope to the
minimum intrusion necessary to prevent destruction of the evidence. He has
therefore waived this argument. See United States v. Beckstead, 500 F.3d 1154,
1162–63 (10th Cir. 2007) (finding that defendant waived an argument by failing to
include the argument in opening brief).
Regardless, the officers’ entry here was limited in scope to the minimum
intrusion necessary to prevent the destruction of evidence. Officers went into the
bathroom of the residence—where Mr. Cruz was located—and they did not search
anywhere else in the house until they obtained Mr. Cruz’s consent to do so. See
ROA, Vol. III at 32–36.
iv. Officers’ warrantless entry was supported by clearly defined indicators of
exigency not subject to police manipulation or abuse.
As for the fourth prong, police manipulation is present only when officers
“engag[e] or threaten[ ] to engage in conduct that violates the Fourth Amendment.”
Hendrix, 664 F.3d at 1339–40 (quoting Kentucky v. King, 563 U.S. 452, 462 (2011))
(alterations added).
Although acknowledging the Supreme Court’s holding in King, Mr. Cruz relies
on pre-King cases to argue that the police created the exigency here by setting up a
controlled buy but failing to obtain a warrant. See Aplt. Br. at 22–23. King
forecloses Mr. Cruz’s argument. King answered the following question: “Under what
circumstances do police impermissibly create an exigency?” 563 U.S. at 471. In
doing so, it rejected the rule that police are prohibited from relying on an exigency
16

Appx. A - 16

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 17

where “it was reasonably foreseeable that the investigative tactics employed by the
police would create the exigent circumstances.” Id. at 464–65 (internal quotation
marks omitted) (reasoning that it would create difficulties for law enforcement
officers who must make quick decisions in the field). Rather, King held that the
police only impermissibly create an exigency when they engage or threaten to engage
in conduct that violates the Fourth Amendment. Id. at 462.
Here, the officers did not create the exigency by engaging or threatening to
engage in conduct that violates the Fourth Amendment. As discussed above, the
officers had probable cause for Mr. Cruz’s arrest before he entered his home, and Mr.
Cruz created the exigency of their having to enter his home when he fled from the
officers. See id. at 470 (explaining that individuals who “elect to attempt to destroy
evidence have only themselves to blame for the warrantless exigent circumstances
search that may ensue”). Moreover, we have concluded that similar investigative
tactics do not violate the Fourth Amendment. For instance, in Hendrix, we concluded
that a warrantless entry into a defendant’s motel room was justified where officers
went “directly to the motel room at night without first seeking a warrant or further
corroboration of the informant’s tip, [gave] a false name, and continually demand[ed]
entry after initially being refused.” 664 F.3d at 1339. As in Hendrix, Mr. Cruz has
not argued that the officers “threatened to enter the [residence] without permission
unless admitted.” Id. at 1340. For these reasons, the fourth prong is satisfied. The
officers’ warrantless entry was therefore justified under the destruction of evidence
exception to the warrant requirement.
17

Appx. A - 17

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 18

2. Hot Pursuit
The government argues—and the district court found—that the hot pursuit
exception to the warrant requirement also justified the officers’ entry into Mr. Cruz’s
home. Aple. Br. at 27; ROA, Vol. I at 140–42. On appeal, Mr. Cruz contends that
this exception is inapplicable because the “police were not in the process of
conducting a legitimate warrantless arrest [or] in the process of making an arrest at
all.” Aplt. Br. at 21.
One category of exigent circumstances is “an ongoing hot pursuit of a fleeing
suspect.” United States v. Martin, 613 F.3d 1295, 1299 (10th Cir. 2010). Under this
doctrine, “police who attempt to arrest [a] felon outside [her] home may pursue her if
she takes refuge inside.” Aquino, 836 F.2d at 1271 (citing United States v. Santana,
427 U.S. 38, 42–43 (1976)). In other words, “a suspect may not defeat an arrest
which has been set in motion in a public place.” Santana, 427 U.S. at 43. “[H]ot
pursuit means some sort of a chase, but it need not be an extended hue and cry in and
about (the) public streets.” Id. at 42–43 (internal quotation marks omitted). Hot
pursuit occurs when an officer is in “immediate or continuous pursuit” of a suspect
from the scene of a crime. Welsh v. Wisconsin, 466 U.S. 740, 753 (1984).
As discussed above, Mr. Cruz’s contention that there was no probable cause
for his arrest is without merit. At issue, then, is Mr. Cruz’s contention that the
officers were not in the process of making an arrest. See Manzanares v. Higdon, 575
F.3d 1135, 1147 (10th Cir. 2009) (noting that both probable cause and either a
warrant or exigent circumstances are required “to seize an individual in his home”).
18

Appx. A - 18

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

Page: 19

The record demonstrates that the officers were in “immediately or continuous
pursuit” of Mr. Cruz from a public street into his home after he fled, in an effort to
apprehend him. Welsh, 466 U.S. at 753. Detective Koppman testified that Mr. Cruz
walked “out to the street,” ROA, Vol. III at 24, then ran from the officers into his
home, id. at 47. “When he ran,” the officers tried to apprehend him, “[giving] him
specific instructions to stop running, to get on the ground.” Id.; see United States v.
Alarcon-Gonzalez, 73 F.3d 289, 292 (10th Cir. 1996) (“An order to freeze
communicates that suspects are not free to leave and is sufficient to effect a
seizure.”). Mr. Cruz did not stop, however. Instead, Detective Koppman testified
that Mr. Cruz went “in the door [to his residence],” ROA, Vol. III at 32, and that the
officers chased him immediately, see id. (“[W]e went in the door right after him.”).
See also id. at 36 (Detective Koppman stating that the chase occurred in a “matter of
seconds”). Detective Koppman testified that as soon as the officers “[saw] him
coming out of the bathroom . . . he was ordered to the ground and taken in custody.”
Id. at 32.
Mr. Cruz is correct that the officers initially did not want to arrest him, but the
record demonstrates that their plans changed after he ran. At that point, officers
attempted to seize him by asking him to stop and get on the ground, then arrested him
immediately after chasing him into his home. Thus, Mr. Cruz’s argument that “an
arrest was not already in motion” when the officers went into the residence is not
supported by the record. Aplt. Br. at 22. Accordingly, the hot pursuit exception, in
addition to the destruction of evidence exception, justified the officers’ warrantless
19

Appx. A - 19

Appellate Case: 19-2127

Document: 010110420865

Date Filed: 10/09/2020

entry into Mr. Cruz’s home. There was thus no taint to Mr. Cruz’s consent to
officers’ search of his home, and the evidence should not be suppressed.
IV
For the foregoing reasons, we AFFIRM the district court’s denial of Mr.
Cruz’s motion to suppress.

20

Appx. A - 20

Page: 20

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 1 of 97

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
UNITED STATES OF AMERICA,
Plaintiff,
vs.

No. CR 18-1105 JB

JOSE JESUS CRUZ,
Defendant.
MEMORANDUM OPINION AND ORDER
THIS MATTER comes before the Court on the Defendant Jose Jesus Cruz’s Motion to
Suppress Evidence and Statements, filed October 22, 2018 (Doc. 25)(“Motion”). The Court held
an evidentiary hearing on January 25, 2019. See Clerk’s Minutes at 1, filed January 25, 2019
(Doc. 41). The primary issues are: (i) whether Bernalillo County1 Sheriff’s Office (“BCSO”)
deputies had probable cause that Defendant Jose Jesus Cruz was engaged in drug trafficking in
September, 2017, based on the knowledge that Cruz trafficked drugs while on federal probation in
2016; on the August, 2017, statement of a confidential informant (“CI”) that Cruz was trafficking
drugs; on a September, 2017, statement from a confidential source (“CS”) that the CS obtained
methamphetamine from Cruz; on a telephone conversation between Cruz and the CS in which they
planned a drug transaction outside Cruz’ residence; on Cruz’ appearance at the drug transaction’s
location; and on Cruz’ running from the BCSO deputies at the transaction’s location and into his
residence; (ii) whether, based on the same facts, BCSO deputies had probable cause that Cruz
possessed drugs; (iii) whether drug trafficking is a “serious crime” for purposes of a warrantless

1

Bernalillo County is in the State of New Mexico.

Appx. B - 001

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 2 of 97

entry into a home for the destruction-of-evidence exception to the warrant requirement;
(iv) whether methamphetamine possession is a “serious crime” for purposes of a warrantless entry
into a home for the destruction-of-evidence exception to the warrant requirement; (v) whether
destruction of evidence was likely when Cruz ran from the BCSO deputies at the transaction’s
location and into his residence; (vi) whether Cruz’ running from the BCSO deputies and into his
residence indicated an exigency that the BCSO deputies did not manipulate or abuse; (vii) whether
the BCSO deputies were in hot pursuit of Cruz; and (viii) if the BCSO deputies entered Cruz’
residence unlawfully, whether the unlawful entry tainted Cruz’ consent to the BCSO deputies’
search of his home and vehicles. The Court concludes that: (i) based on the facts recited above,
the BCSO deputies had probable cause that Cruz was engaged in drug trafficking, or, at least, that
Cruz was attempting to traffic drugs; (ii) based on the same facts, the BCSO deputies had probable
cause that Cruz possessed drugs, specifically methamphetamine; (iii) drug trafficking is a “serious
crime” for the purpose of a warrantless entry into a home under the destruction-of-evidence
exception to the warrant requirement; (iv) methamphetamine possession is a “serious crime” for
the purpose of a warrantless entry into a home under the destruction-of-evidence exception to the
warrant requirement; (v) destruction of evidence was likely when Cruz ran from the BCSO
deputies and into his residence; (vi) Cruz’ running from the BCSO deputies and into his residence
indicated an exigency that the BCSO deputies did not manipulate or abuse; (vii) the BCSO
deputies were in hot pursuit of Cruz; and (viii) because the BCSO deputies lawfully entered Cruz’
residence, no unlawful entry tainted Cruz’ consent to search and the exclusionary rule does not
apply. Accordingly, the Court will not suppress the evidence obtained pursuant to the search and
denies the Motion.

-2Appx. B - 002

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 3 of 97

FACTUAL BACKGROUND
Rule 12(d) of the Federal Rules of Criminal Procedure requires the Court to state its
essential findings on the record when deciding a motion that involves factual issues. See Fed. R.
Crim. P. 12(d) (“When factual issues are involved in deciding a motion, the court must state its
essential findings on the record.”). The findings of fact in this Memorandum Opinion and Order
shall serve as the Court’s essential findings for rule 12(d) purposes. The Court makes these
findings under the authority of rule 104(a) of the Federal Rules of Evidence, which requires a judge
to decide preliminary questions relating to the admissibility of evidence, including the legality of
a search or seizure. See United States v. Merritt, 695 F.2d 1263, 1269-70 (10th Cir. 1982). In
deciding such preliminary questions, the other rules of evidence, except those with respect to
privileges, do not bind the Court. See Fed. R. Evid. 104(a) (“The court must decide any
preliminary question about whether a witness is qualified, a privilege exists, or evidence is
admissible. In so doing, the court is not bound by evidence rules, except those on privilege.”).
Thus, the Court may consider hearsay in ruling on a motion to suppress. See United States v.
Lopez-Carillo, 536 F. App’x 762, 768-69 (10th Cir. 2013)(unpublished)2(“[T]he Supreme Court

2

United States v. Lopez-Carillo is an unpublished opinion, but the Court can rely on an
unpublished opinion for the United States Court of Appeals for the Tenth Circuit to the extent its
reasoned analysis is persuasive in the case before it. See 10th Cir. R. 32.1(A) (“Unpublished
opinions are not precedential, but may be cited for their persuasive value.”). The Tenth Circuit
has stated: “In this Circuit, unpublished orders are not binding precedent, . . . and . . . citation to
unpublished opinions is not favored. However, if an unpublished opinion . . . has persuasive value
with respect to a material issue in a case and would assist the court in its disposition, we allow a
citation to that decision.” United States v. Austin, 426 F.3d 1266, 1274 (10th Cir. 2005). The
Court concludes that United States v. Lopez-Carillo, United States v. Reed, 195 F. App’x 815
(10th Cir. 2006)(unpublished), United States v. Mongold, 528 F. App’x 944 (10th Cir. 2013),
United States v. Famiglietta, 164 F. App’x 695 (10th Cir. 2006)(unpublished), United States v.
Canas, 462 F. App’x 836 (10th Cir. 2012)(unpublished), United States v. Ramirez-Fragozo, 490

-3Appx. B - 003

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 4 of 97

has made it clear hearsay is admissible in suppression hearings. . . . As a result, the restriction in
the Confrontation Clause against admission of testimonial statements . . . is not implicated here.
(citing United States v. Matlock, 415 U.S. 164, 172-77 (1974); United States v. Sanchez, 555 F.3d
910, 922 (10th Cir. 2009); United States v. Miramonted, 365 F.3d 902, 904 (10th Cir. 2004)).
1.

Gerald (“Jerry”) Koppman is a BCSO detective and a member of the Bureau of

Alcohol, Tobacco, Firearms, and Explosives (“ATF”) Task Force. See Draft Transcript of Hearing
at 4:7-9 (taken January 25, 2019)(Koppman)(“Tr.”).3
2.

As a member of the ATF Task Force, Koppman investigates serious crimes,

including “felons carrying guns, drug traffickers that also use guns[, and] violent subjects,” and
“serve[s] as backup for local authorities when they’re handling high level cases.” Tr. at 4:12-19
(Koppman, Stanford).
3.

Around 2016, Koppman learned of a “fairly large scale narcotics trafficker that they

called Chino.” Tr. at 4:25-5:1 (Koppman). See Detective Supplemental Report at 2, filed October
22, 2018 (Doc. 25-1).
4.

Koppman later learned that “Chino” was Cruz and that Cruz was on federal

probation. See United States’ Response to Defendant’s Motion to Suppress ¶ 1, at 1, filed
November 13, 2018 (Doc. 31)(“Response”); Tr. at 5:1-4 (Koppman).

F. App’x 125 (10th Cir. 2012)(unpublished), Garrison v. City of Cushing, 5 F.3d 545, 1993 WL
332284 (10th Cir. 1993)(unpublished table opinion), and United States v. Jackson, 139 F. App’x
83 (10th Cir. 2005)(unpublished), have persuasive value with respect to material issues, and will
assist the Court in its disposition of this Memorandum Opinion and Order.
3

The Court’s citations to the transcript of the hearing refer to the court reporter’s original,
unedited version. Any final transcript may contain slightly different page and/or line numbers.

-4Appx. B - 004

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 5 of 97

5.

Through the United States Probation Office, Koppman organized a meeting with

Cruz, and, at the meeting, Cruz admitted to trafficking drugs and agreed to cooperate with
Koppman’s then-ongoing investigation. See Response ¶ 1, at 1-2; Tr. at 5:6-16 (Koppman).
6.

Cruz revealed to Koppman a “violent narcotics trafficker[’s]” residence. Tr. at

5:24-25 (Koppman). See id. at 5:20-6:10 (Stanford, Koppman).
7.

After that investigation, Koppman did not use Cruz as a cooperator again or “sign

him up” as “an official informant.” Tr. at 5:18-7:7 (Stanford, Koppman).
8.

“On or around August 4, 2017,” the CI informed Koppman “that an

individual . . . identified as ‘Chino’ was distributing considerable amounts of methamphetamine
and heroin.” Response ¶ 2, at 2. See Response ¶1, at 1; Tr. at 7:12-15 (Koppman); Detective
Supplemental Report at 2.
9.

In Koppman’s Detective Supplemental Report, Koppman labeled the CI a

“confidential informant,” because the BCSO recorded the CI as an “informant.” Tr. at 10:1-3
(Koppman).
10.

The CI described Chino’s cars and the intersection near Chino’s residence, and

Koppman recognized the cars and the residence as Cruz’ cars and residence, and the CI identified
that “Chino” was Cruz in an image that Koppman showed the CI. Response ¶ 2, at 2. See
Response ¶1, at 1; Tr. at 7:15-17 (Koppman); Detective Supplemental Report at 2.
11.

The CI also informed Koppman about a subject with “a large amount of

methamphetamine,” Tr. at 7:19-20 (Koppman), who “had recently traded guns for drugs” with
“Chino,” Response ¶ 3, at 3. See Response ¶1, at 1; Detective Supplemental Report at 2.

-5Appx. B - 005

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 6 of 97

12.

Koppman obtained a search warrant in relation to this subject, and, on September

5, 2017, Koppman contacted the subject when BCSO deputies executed the search warrant. See
Response ¶1, at 1; Tr. at 34:23-35:3 (Bhalla, Koppman); id. at 36:7-11 (Bhalla, Koppman);
Detective Supplemental Report at 2.
13.

The subject became the CS. See Response ¶ 3, at 2.

14.

Koppman identified the CS as a “confidential source,” because the CS began

sharing information “immediately” when the BCSO deputies executed the search warrant. Tr. at
10:3-6 (Koppman).
15.

The CS identified a picture of Cruz, and told Koppman that Cruz supplied the CS’

narcotics and “regularly sells methamphetamine.” Tr. at 7:18-23 (Koppman). See Response ¶ 4,
at 2; Tr. at 10:20-23 (Koppman); Detective Supplemental Report at 2-3.
16.

Koppman verified the CS’s knowledge “by quizzing the CS about other known

drug traffickers, and other information to which Koppman already knew the answers.” Response
¶ 5, at 2.
17.

The CS divulged to Koppman text messages between Cruz and the CS in which the

two individuals discussed recent “drug transactions.” Response ¶ 5, at 2-3. See Tr. at 10:13-20
(Koppman); Detective Supplemental Report at 3.
18.

The CS told Koppman that Cruz and the CS traded drugs at the intersection of

Lansing and Airway, which Koppman recognized as the intersection near Cruz’ residence. See
Tr. at 8:3-7 (Koppman).
19.

The CS informed Koppman that, “at times,” the CS stored Cruz’

methamphetamine, because Cruz “was on federal probation.” Tr. at 8:17-18 (Koppman).

-6Appx. B - 006

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 7 of 97

20.

Koppman “concluded the CS was being truthful.” Response ¶ 5, at 3.

21.

“On September 5, 2017, Koppman asked CS to call and request a purchase of

methamphetamine from Defendant.” Response ¶ 6, at 3. See Tr. at 20:25-21:6 (Stanford,
Koppman); Detective Supplemental Report at 3
22.

The CS ordered several ounces of methamphetamine.

See Tr. at 13:12-13

(Koppman); id. at 17:9-12 (Stanford, Koppman).
23.

Cruz agreed to make the drug sale to the CS after Cruz left work. See Response

¶ 6, at 3; Tr. at 8:13-14 (Koppman); Detective Supplemental Report at 3.
24.

Several ounces of methamphetamine is “a trafficking amount,” Tr. at 17:15

(Koppman), that is “dangerous to the public,” Tr. at 17:17-18 (Stanford). See id. at 17:17-19
(Stanford, Koppman).
25.

Koppman and other BCSO deputies listened to the call between Cruz and the CS.

See Response ¶ 6, at 3; Tr. at 8:12-13 (Koppman); Detective Supplemental Report at 3.
26.

Koppman asked the CS to make the call, because Koppman sought to verify the

stories about Cruz’ drug trafficking. See Tr. at 20:25-21:6 (Stanford, Koppman).
27.

Koppman did not plan for a drug buy to occur. See Tr. at 21:10-12 (Stanford,

Koppman).
28.

Koppman and the other BCSO deputies “then drove to conduct surveillance on

Defendant’s house” and directed the CS to call them “if/when Defendant called the CS regarding
the drug deal.” Response ¶ 7, at 3. See Detective Supplemental Report at 3.
29.

Koppman did not believe that Cruz would be storing narcotics at his house. See

Response ¶ 7, at 3; Tr. at 8:19-9:3 (Koppman).

-7Appx. B - 007

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 8 of 97

30.

Koppman did not plan to enter Cruz’ house. See Tr. at 17:24-18:6 (Stanford,

Koppman).
31.

Koppman hoped to surveil Cruz’ house to identify from where Cruz would retrieve

the drugs or from whom Cruz would receive the drugs before the sale. See Tr. at 9:3-8 (Koppman);
id. at 13:19-14:2 (Koppman).
32.

Koppman intended to convince Cruz to cooperate with the BCSO deputies in

investigating a “higher target.” Tr. at 11:14-12:4 (Koppman). See Response ¶ 7, at 3.
33.

It is “a common investigative tactic” to intercept suspects at drug sales and convince

them to cooperate with officers. Tr. at 18:16 (Stanford). See Tr. at 18:16-22 (Stanford, Koppman).
34.

Koppman expected that Cruz would be “respectable” and cooperative. Tr. at 12:17

(Koppman). See id. at 12:15-23 (Koppman).
35.

Koppman and the other BCSO deputies did not plan to arrest Cruz, because they

did not want to expose him “as a cooperator.” Tr. at 22:1 (Stanford). See id. at 21:13-22:2
(Stanford, Koppman).
36.

If Cruz had narcotics on him, Koppman expected to take the narcotics but still

obtain Cruz’ cooperation. See Tr. at 22:6-9 (Stanford, Koppman).
37.

While the BCSO deputies were surveilling Cruz’ residence, the CS conveyed that

Cruz had told the CS to meet at the intersection outside the residence in fifteen minutes for the
drug transaction. See Response ¶ 8, at 3; Tr. at 13:6-9 (Koppman); id. at 15:10-11 (Koppman).
38.

Cruz gave the CS directions to his house, and told the CS to “park outside of the

residence and he would come out.” Detective Supplemental Report at 3.

-8Appx. B - 008

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 9 of 97

39.

Around fifteen minutes later, Koppman and the other BCSO deputies observed

Cruz leave his home and walk to the intersection while looking around for someone. See Response
¶ 8, at 3; Tr. at 15:14-17 (Koppman).
40.

Koppman expected such behavior from someone about to engage in a drug

transaction. See Response ¶ 9, at 3-4; Tr. at 15:22-25 (Stanford, Koppman).
41.

Cruz was carrying nothing at the time. See Tr. at 29:2-17 (Bhalla, Koppman);

Detective Supplemental Report at 3.
42.

Koppman believed that Cruz might have drugs on him. See Tr. at 37:22-38:1

(Stanford, Koppman).
43.

Koppman and the other BCSO deputies, who all wore official BCSO clothing,

approached Cruz and “announced their presence,” identifying themselves as police. Response
¶ 10, at 4. See Detective Supplemental Report at 3.
44.

Cruz ran from Koppman and the other BCSO deputies, and ran into his residence.

See Response ¶ 10, at 4; Tr. at 16:20 (Koppman); Detective Supplemental Report at 3-4.
45.

Koppman’s plans to communicate with Cruz “in a low-key” manner changed when

Cruz ran from him and the other BCSO deputies. Tr. at 38:18-19 (Koppman).
46.

Koppman and the other BCSO deputies yelled at Cruz to stop. See Tr. at 37:10-16

(Bhalla, Koppman); Detective Supplemental Report at 4.
47.

Cruz ignored Koppman’s and the other BCSO deputies’ orders. See Response ¶ 10,

at 4.

-9Appx. B - 009

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 10 of 97

48.

When Cruz ran from the BCSO deputies at the location for the drug sale, the BCSO

deputies had probable cause that Cruz was engaged in drug trafficking, or, at least, that Cruz was
attempting to traffic drugs.
49.

The BCSO deputies also had probable cause that Cruz possessed drugs, specifically

methamphetamine.
50.

Koppman and the other BCSO deputies assumed that Cruz ran to destroy evidence.

See Response ¶ 10, at 4; Tr. at 16:25-17:8 (Stanford, Koppman).
51.

Cruz was likely to destroy evidence when he ran from the BCSO deputies and into

his residence.
52.

Koppman and the other BCSO deputies followed Cruz and entered Cruz’ residence

close behind him.

See Response ¶ 10, at 4; Tr. at 22:25-23-1 (Koppman); id. at 27:8-10

(Koppman).
53.

The BCSO deputies were in hot pursuit of Cruz.

54.

Drug trafficking is a “serious crime” for the purposes of a warrantless entry into a

home under the destruction-of-evidence exception to the warrant requirement.
55.

Methamphetamine possession is also a “serious crime” for the purposes of a

warrantless entry into a home under the destruction-of-evidence exception to the warrant
requirement.
56.

Cruz’ running from the BCSO deputies and into his residence indicated that an

exigency existed.
57.

The BCSO deputies did not manipulate or abuse the exigency.

- 10 Appx. B - 010

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 11 of 97

58.

On the BCSO deputies’ entering the house, Cruz was exiting the bathroom with his

“arms wet up to the elbows.” Tr. at 23:2-4 (Koppman). See Response ¶ 10, at 4; Detective
Supplemental Report at 3-4.
59.

The BCSO deputies took Cruz into custody. See Tr. at 23:3 (Koppman).

60.

Cruz was wearing a handgun holster and informed Koppman that he “normally

carried a firearm in the holster.” Response ¶ 10, at 4.
61.

Koppman asked Cruz if he had narcotics on his person, and Cruz stated that he had

them in his pants. See Detective Supplemental Report at 4.
62.

Cruz had “a plastic bag containing approximately 16 grams of methamphetamine

and approximately 8 grams of heroin in [his] front pants pocket.” Response ¶ 10, at 4. See
Detective Supplemental Report at 3.
63.

As the CS agreed to purchase methamphetamine from Cruz, see Tr. at 13:12-13

(Koppman); id. at 17:9-12 (Stanford, Koppman), and Koppman and the other BCSO deputies knew
about only that agreement when approaching Cruz, see Response ¶ 6, at 3; Tr. at 8:12-13
(Koppman); Detective Supplemental Report at 3, the BCSO deputies had no reason to think that
Cruz would have heroin on him.
64.

Cruz flushed a maximum of three ounces of methamphetamine “down the toilet as

deputies were entering the house.” Response ¶ 10, at 4. See Detective Supplemental Report at 4.
65.

“A bag of . . . methamphetamine” was in the toilet. Tr. at 23:6-7 (Koppman).

66.

The BCSO deputies did not enter any other parts of the house without consent or

do more than look in the toilet to locate the methamphetamine. See Tr. at 24:18-25 (Stanford,
Koppman).

- 11 Appx. B - 011

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 12 of 97

67.

Cruz “gave signed consent” to the BCSO deputies to search his home and vehicles.

Response ¶ 10, at 4. See Tr. at 25:2-6 (Koppman); Detective Supplemental Report at 4.
68.

Cruz had a Derringer .22 caliber handgun and a Taurus .22 caliber handgun in the

living room; a SCCY 9 millimeter handgun in the bedroom; a 9 millimeter handgun in a Honda
vehicle; fifteen ounces of methamphetamine in a vehicle’s trunk; twenty grams of
methamphetamine, which belonged to another individual, in a black purse; and, also in the black
purse, twenty grams of heroin and a Kimber 9 millimeter handgun, both of which belonged to
Cruz. See Response ¶ 11, at 5; Tr. at 25:14-22 (Koppman).
69.

All the firearms that the BCSO deputies recovered functioned. See Response ¶ 12,

at 5; Detective Supplemental Report at 5.
70.

Cruz “often trades narcotics to individuals in exchange for firearms.” Response

¶ 11, at 5.
71.

Because the BCSO deputies lawfully entered Cruz’ residence, no unlawful entry

tainted the BCSO deputies’ search and the exclusionary rule does not apply to exclude the evidence
obtained pursuant to the entry.
PROCEDURAL BACKGROUND
On April 10, 2018, a federal Grand Jury indicted Cruz on four counts: (i) being a felon in
possession of a firearm in violation of 18 U.S.C. 922(g)(1); (ii) possessing with the intent to
distribute more than fifty grams of methamphetamine in violation of 21 U.S.C. §§ 841(a)(1) and
(b)(1)(B); (iii) possessing with the intent to distribute heroin in violation of 21 U.S.C. §§841(a)(1)
and (b)(1)(C); and (iv) carrying a firearm in relation to a drug trafficking crime in violation of
18 U.S.C. 924(c). See Indictment at 1-2, filed April 10, 2018 (Doc. 1). Cruz filed the Motion on

- 12 Appx. B - 012

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 13 of 97

October 22, 2018. See Motion at 14. In his Motion, Cruz asks that the Court “suppress all evidence
recovered during the search of Mr. Cruz’s vehicle and residence and all statements made by
Mr. Cruz.” Motion at 1.
1.

The Motion.

According to Cruz, the United States cannot use evidence obtained in violation of an
individual’s constitutional rights or “evidence that was obtained as a but-for result of the illegal
search unless the evidence is so far removed from the constitutional violation that the ‘taint’ of the
violation no longer clings to it.” Motion at 5 (quoting Wong Sun v. United States, 371 U.S. 471,
484 (1963), and citing United States v. Calandra, 414 U.S. 338, 347 (1974); United States v.
Romero, 743 F. Supp. 2d 1281, 1313 (D.N.M. 2010)(Browning, J.), aff’d 749 F.3d 900 (10th Cir.
2014)). Cruz contends that, because the BCSO deputies unlawfully entered his home, evidence
obtained pursuant to the subsequent search is inadmissible. See Motion at 13.
First, according to Cruz, warrantless entries into homes are prohibited without “probable
cause and exigent circumstances,” Response at 4 (citing Payton v. New York, 445 U.S. 573, 583590 (1980)), and Plaintiff United States of America “bears the burden of establishing that exigent
circumstances made the warrantless entry necessary,” Motion at 4 (citing United States v. Cuaron,
700 F.2d 582, 586 (10th Cir. 1983)). Cruz explains that “destruction of evidence can qualify as an
exigent circumstance in some cases,” and, in those cases, the United States Court of Appeals for
the Tenth Circuit applies a four-factor test; the search must be:
1. Pursuant to clear evidence of probable cause. [sic]
2. Available only for serious crimes and in circumstances where destruction of
evidence is likely

- 13 Appx. B - 013

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 14 of 97

3. Limited in scope to the minimum intrusion necessary to prevent the destruction
of evidence; [sic]
4. Supported by clearly defined indicators of exigency that are not the subject to
police manipulation or abuse.
Motion at 5 (citing United States v. Rey, 663 F. Supp. 2d 1086, 1109 (D.N.M.
2009)(Browning, J.)).
According to Cruz, the BCSO deputies did not have probable cause to arrest him when
they “arrived on scene.” Motion at 7. Cruz argues that, “when the controlled buy[4] is not
completed in suspected drug trafficking cases, and no other criminal activity is observed, probable
cause cannot exist absent some other independent corroboration of illegal activity.” Motion at 8
(citing United States v. Aquino, 836 F.2d 1268 (10th Cir. 1988)). Cruz describes that, in United
States v. Aquino, the Tenth Circuit “emphasized” that law enforcement did not have probable
cause “to believe that illegal drugs were within the defendant’s dwelling” before a controlled buy
occurred. Motion at 8 (citing United States v. Aquino, 836 F.2d at 1272-73). Cruz contends that,
similarly, in his case, “no controlled buy ever occurred,” and that law enforcement had no probable
cause to arrest him or to enter his home. Motion at 9. Cruz anticipates that the United States might
rely on the CI’s and the CS’ testimony to bolster its argument for probable cause, and argues that

4

A controlled buy is when, at the direction of a governmental agency, an
individual purchases drugs . . . from someone who sells drugs. The individual who
makes the purchase may be a law enforcement officer, but more frequently it is an
individual who has recently been arrested or charged with a crime. The buy is
called “controlled” because the purchaser is under law enforcement’s control and
monitoring during the buy.
The Straight Dope on Controlled Buys, Nicholson, Gansner & Otis,
https://www.nglawyers.com/blog/2014/06/the-straight-dope-on-controlled-buys.shtml
visited Jan. 31, 2019).

- 14 Appx. B - 014

S.C.,
(last

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 15 of 97

the CI’s and the CS’ information is not reliable. See Motion at 9 (citing United States v. Mathis,
357 F.3d 1200, 1205 (10th Cir. 2004)). Cruz avers that the CI made “only vague references” to
Cruz’ drug-dealing, and provided “no dates, amounts or other indications the [sic] demonstrated
that Cruz was engaged in ongoing illegal drug activity,” and that these statements alone could not
establish probably cause. Motion at 9-10 (citing United States v. Brown, 828 F.3d 375, 383 (6th
Cir. 2016)). Further, according to Cruz, the CI spoke to Koppman “almost one month” before
Cruz’ arrest, and so such information was stale. Motion at 10 (United States v. Shomo, 786 F.2d
981, 983 (10th Cir. 1986)). Cruz then contends that the CS “had a motive to implicate someone
else,” because the BCSO deputies had just discovered the CS with “a large amount of
methamphetamine.” Motion at 10. Cruz notes that Koppman did not record any specifics that the
CS provided about Cruz or the amount of methamphetamine that the CS alleged Cruz to have. See
Motion at 10.
Cruz next argues that the United States cannot show that “any exigent circumstances
justified [the BCSO deputies’] warrantless entry” into Cruz’ home. Motion at 11. Cruz avers that
“[t]here was no indication of loss or destruction of evidence when Cruz exited his home or stood
outside,” and that “nothing at all happened when Cruz stepped outside his home.” Motion at 1112. Cruz contends that, if any exigency existed, the BCSO deputies created it. See Motion at 13.
According to Cruz, unlawful law enforcement conduct includes participating in controlled drug
buys in individual’s residences, “with the intent of making an arrest,” and without “a warrant.”
Motion at 12 (citing United States v. Cresta, 825 F.2d 538, 553 (1st Cir. 1987); United States v.
Scheffer, 463 F.2d 567, 575 (5th Cir. 1972)). Cruz cites a New Hampshire case, in which the New
Hampshire Supreme Court “held that where police officers chose to pursue a course of actions

- 15 Appx. B - 015

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 16 of 97

which they knew would require an emergency entrances [sic] into a persona’s [sic] home, without
first obtaining a warrant, the government could not rely on” the exigency. Motion at 12 (citing
State v. Santana, 586 A.2d 77, 83 (1991)). According to Cruz, the BCSO deputies had the CS
arrange the drug transaction with Cruz “knowing that the buy would occur at Cruz’s house” but
did not get a warrant. Motion at 13.
2.

The Response.

The United States responds. See Response. The United States briefly indicates that,
because the BCSO deputies engaged in no illegality, Wong Sun v. United States and its line do not
apply. Response at 12. The United States contends first that the BCSO deputies had probable
cause. See Response at 6-8. The United States depicts probable cause as a “totality of the
circumstances” analysis. Response at 6 (quoting United States v. Gordon, 173 F.3d 761, 766 (10th
Cir. 2007)). The United States disputes that United States v. Aquino controls here, because,
according to the United States, in United States v. Aquino, no facts suggested that Aquino might
have drugs in his home. See Response at 7. The United States lists that, unlike in United States
v. Aquino, in this case, the BCSO deputies knew that Cruz had previously trafficked drugs; had
heard from the CI and the CS that Cruz was trafficking drugs; saw text messages confirming the
CS’ accounts; and heard Cruz confirm with the CS that he would engage in a drug transaction.
See Response at 7. The United States explains that law enforcement “did not know whether
Defendant kept his drugs at his house or somewhere else,” but, according to the United States,
Cruz told the CS to meet at Cruz’ residence. Response at 7-8. The United States argues that the
BCSO deputies saw Cruz leave his residence around the time specified for the transaction and run
away after the BCSO deputies identified themselves. See Response at 8. The United States

- 16 Appx. B - 016

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 17 of 97

explains that the BCSO deputies then reasonably believed that Cruz “had drugs in his possession.”
Response at 8.
The United States further contends that exigent circumstances existed. See Response at 812. According to the United States, Cruz created an exigency when he fled the BCSO deputies.
See Response at 6. The United States first opines that this case resembles United States v. Santana,
427 U.S. 38 (1976), wherein the Supreme Court upheld “hot pursuit” as an exigency. Response at
8-9. The United States contends that, as in United States v. Santana, here, Cruz ran into his home
after the BCSO deputies identified themselves. See Response at 9.
Further, the United States contends that Cruz’ possible destruction of evidence created an
exigency. See Response at 10. The United States avers that the BCSO deputies had probable
cause; believed Cruz to possess drugs and a gun, “which are serious crimes”; and limited their
entry into Cruz’ residence to the area near the bathroom where they detained Cruz, and to the area
to which he subsequently consented to have searched. Response at 10. The United States denies
that the BCSO deputies created an exigency. See Response at 11. The United States quotes the
Supreme Court’s holding from Kentucky v. King, 563 U.S. 452 (2011): “Where, as here, the police
did not create the exigency by engaging or threatening to engage in conduct that violates the Fourth
Amendment [to the Constitution of the United States], warrantless entry to prevent the destruction
of evidence is reasonable and thus allowed.” Response at 11 (quoting Kentucky v. King, 563 U.S.
at 462). The United States asserts that law enforcement officers do not unlawfully create
exigencies when they announce their presence and “cause a drug suspect to destroy evidence,”
which is what the United States avers occurred here. Response at 11. The United States also cites
Kentucky v. King for the proposition that police need not “seek a warrant after probable cause is

- 17 Appx. B - 017

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 18 of 97

established before entering a dwelling to prevent destruction of evidence.” Response at 11. The
United States contends that, prior to Cruz’ running, the BCSO deputies knew neither that Cruz
“possessed drugs” nor that “he would run,” until Cruz ran. Response at 12.
3.

The Reply.

Cruz replies in Defendant Jose Cruz’s Reply to the Government’s Response (Doc. 31) to
His Motion to Suppress Evidence (Doc. 25), filed December 27, 2018 (Doc. 39)(“Reply”). Cruz
first argues that warrantless entries into homes deserve special scrutiny. See Reply at 1-2 (citing
United States v. Martinez, 696 F. Supp. 2d 1216 (D.N.M. 2010)(Browning, J.)). Cruz also
contends that, if the BCSO deputies had probable cause, they could have obtained a warrant to
search Cruz’ residence. See Reply at 2. Cruz complains that the BCSO deputies obtained a
warrant in their investigation of the CS, but, although the BCSO deputies knew of Cruz’ drug
trafficking, the BCSO deputies obtained no warrant against him. See Reply at 3-4. Cruz argues
that the BCSO deputies’ “ultimate goal” is irrelevant. Reply at 4 (quoting Response ¶ 7, at 3).
Cruz avers that the BCSO deputies’ motivation was to “set up a bust,” at which the officers would
arrest Cruz or force him to cooperate. See Reply at 4. Cruz distinguishes United States v. Santana,
by noting that, in that case, unlike here, the officers observed a drug buy before following the
defendant into the home. See Reply at 4-5. Cruz also differentiates Kentucky v. King from these
facts and argues that, in Kentucky v. King, again unlike here, the law enforcement smelled
marijuana and heard “noises consistent with destruction of evidence” before entering the home.
Reply at 5.

- 18 Appx. B - 018

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 19 of 97

4.

The Hearing.

The Court and Cruz began the hearing by discussing if and when the Tenth Circuit requires
probable cause for warrantless entry in exigent circumstances. See Tr. at 39:20-41:25 (Court,
Bhalla). Cruz clarified that the Tenth Circuit does not require probable cause when someone’s
safety or life are in danger; according to Cruz, at those times, law enforcement needs only
reasonable grounds to enter a home. See Tr. at 40:7-24. Cruz explained that the first element for
the test for the destruction-of-evidence exception, which Cruz recites in the Motion, requires
probable cause. See Tr. at 40:25-41:25 (Bhalla).
Accordingly, Cruz argued first that the BCSO deputies had no probable cause, because,
according to Cruz, they had no evidence that Cruz stored drugs in his home, Cruz carried nothing
when he left his home, and they observed no drug transaction. See Tr. at 42:1-22 (Bhalla). The
Court stated that it understood that the BCSO deputies obtained probable cause when Cruz ran
from the BCSO deputies. See Tr. at 42:23-43:4 (Court). Cruz argued that cases clarify that, alone,
fleeing the police does not establish probable cause. See Tr. at 43:5-11 (Bhalla). The Court
responded that the BCSO deputies had more than Cruz’ fleeing, because the BCSO deputies had
Cruz’ previous drug trafficking, and the CI’s and the CS’ statements. See Tr. at 43:12-20 (Court).
Cruz emphasized that such evidence does not establish probable cause to enter an individual’s
home. See Tr. at 43:21-24 (Bhalla). The Court returned the conversation to Cruz’ running and
asserted that it did not see the issue as probable cause to enter Cruz’ home. See Tr. at 43:25-44:4
(Court). Cruz cited several cases about probable cause, beginning with United States v. Mongold,
528 F. App’x 944, 949 (10th Cir. 2013)(unpublished), wherein the Tenth Circuit stated that a drug
trafficking tip should be corroborated with evidence such as a controlled buy, or surveillance

- 19 Appx. B - 019

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 20 of 97

revealing many people going to and leaving from a residence. See Tr. at 44:13-45:1 (Bhalla).
Cruz stated that, in United States v. Cook, No. CR 15-3224 WJ, 2016 WL 9488763 (D.N.M.
2016)(Johnson, J.), the Honorable William P. Johnson, Chief United States District Judge for the
District of New Mexico, concluded that probable cause existed after law enforcement observed a
controlled buy and that, in United States v. Aranda-Diaz, No. CR 12-2686 JB, 2013 WL 4446801
(D.N.M. 2012)(Browning, J.), the Court stated that a controlled buy corroborated a tip to establish
probable cause. See Tr. at 45:2-12 (Bhalla). Cruz also repeated that, in United States v. Aquino,
the Tenth Circuit emphasized that law enforcement had no probable cause before a controlled drug
buy occurred, but Cruz conceded that no confidential informant provided information in that case.
See Tr. at 45:12-23 (Bhalla). Cruz reiterated that establishing probable cause requires a controlled
buy, surveillance, or other investigative action. See Tr. at 45:25-46:5 (Bhalla). Cruz argued that
the United States cannot “bootstrap” the 2016 conversation with Cruz into a probable cause
argument, because, in 2017, the BCSO deputies did not know that Cruz was engaged in drug
trafficking. See Tr. at 46:5-9 (Bhalla). The Court returned to the CI’s and the CS’ roles, and
asserted that, if law enforcement receives a tip, the Court must consider the source’s veracity and
reliability. See Tr. at 54:23-55:6 (Court). Cruz stated that Koppman did not verify the CS’
information. See Tr. at 55:7-20 (Bhalla).
Cruz continued, arguing that the second element of the test for the destruction-of-evidence
exception -- that the crime be a serious crime “in circumstances where destruction is likely” -- is
not satisfied. Tr. at 46:19 (Bhalla). According to Cruz, United States v. Mongold discusses that
drug possession alone -- without evidence of drug trafficking -- does not qualify as a serious crime.
See Tr. at 46:20-47:9 (Bhalla). Cruz contends that, here, the BCSO deputies had “no evidence that

- 20 Appx. B - 020

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 21 of 97

Mr. Cruz was actually trafficking . . . . All they had at most is some belief that Mr. Cruz had drugs
on his person.” Tr. at 47:10-13 (Bhalla).
Cruz transitioned to discussing whether he was likely to destroy evidence. See Tr. at 47:2223 (Bhalla). Cruz cited Thomas v. Vaughn, No. 2:93-CV-925 PGC, 2006 WL 2375657 (D. Utah
Aug. 11, 2016)(Cassell, J.), in which “the Court held [that] the mere possibility that . . . evidence
could be destroyed is insufficient to create an [exigency.] You’ve got to have evidence that the
destruction is really happening.” Tr. at 48:5-8 (Bhalla). Cruz also cites Ludlow v. State, 314 N.E.
2d 750 (Ind. 1974), in which the Indiana Supreme Court discusses that the destruction-of-evidence
exception applies when law enforcement must act quickly to prevent actual destruction. See Tr.
at 48:9-15 (Bhalla). Cruz summarizes that, in destruction-of-evidence cases, law enforcement
officers usually hear or see signs that individuals are destroying evidence, and that the BCSO
deputies did not make such observations at his residence. See Tr. at 48:15-22 (Bhalla).
Cruz conceded that he did not need to discuss the third element in the test -- whether the
intrusion was limited. See Tr. at 48:22-49:3 (Bhalla). Cruz turned to the fourth factor -- whether
the exception was “supported by clearly defined indicators of exigency that are not subject to
police manipulation or abuse,” United States v. Aquino, 836 F.2d at 1272 -- and argued that, in
State v. Santana, 586 A.2d 77 (N.H. 1991), the New Hampshire Supreme Court concluded that,
where police have probable cause and time to obtain a warrant, law enforcement should obtain a
warrant, see Tr. at 49:17-50:5 (Bhalla). Cruz argues that Koppman and the other BCSO deputies
took the non-warrant route, although Koppman knew that the drug transaction would occur outside
Cruz’ residence. See Tr. at 49:17-50:13 (Bhalla). The Court questioned whether the exigency was
not that Cruz had drugs on his body and ran into his home to dispose of the drugs. See Tr. at

- 21 Appx. B - 021

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 22 of 97

50:14-22 (Court). Cruz responded that, in situations like his, when law enforcement officers know
that a drug transaction will occur outside a suspect’s residence, the law enforcement officers should
know that the suspect might run into the residence, as he did. See Tr. at 50:23-51:3 (Bhalla). Cruz
emphasized that courts should oversee law enforcement in such scenarios, because the Fourth
Amendment promises respect for the home. See Tr. at 51:3-9 (Bhalla). The Court pressed that, in
controlled drug buys, law enforcement officers rarely get warrants, see Tr. at 51:23-52:1 (Court),
and Cruz responded that, “no, they go get the warrant after. Because watching the controlled buy
gives them . . . probable cause to then go apply for a warrant,” Tr. at 52:2-5 (Bhalla). Cruz argued
that, even with his running, the BCSO deputies did not have probable cause. See Tr. at 53:9-18
(Court, Bhalla). Cruz asserted that the Fourth Amendment so protects homes that, if law
enforcement officers do not have probable cause, they should wait for a crime to occur if they
cannot get a warrant before the crime occurs. See Tr. at 53:16-54:2 (Court, Bhalla). Cruz cited
United States v. Radka, 904 F.2d 357 (6th Cir. 1990); United States v. Richards, 994 F.2d 244 (5th
Cir. 1993); United States v. Scheffer, 463 F.2d 567 (5th Cir. 1972), Buchanan ex re. Estate of
Buchanan v. Maine, 417 F. Supp. 2d 45 (D. Me. 2006)(Woodcock, J.), in which the courts stated
that, where officers have time and/or control a drug buy, the officers should obtain warrants. See
Tr. at 55:20-56:24 (Bhalla). Cruz argues that the United States relies on Kentucky v. King, but, in
that case, unlike here, the detectives observed a controlled buy outside a home and heard sounds
indicating the destruction of evidence within the home. See Tr. at 57:6-58:5 (Bhalla). Cruz also
emphasized the protection that the Supreme Court has guaranteed for the home. See Tr. at 58:961:18 (Bhalla)(citing United States v. Jones, 565 U.S. 400 (2012); Florida v. Jardines, 569 U.S. 1
(2013)).

- 22 Appx. B - 022

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 23 of 97

First, the United States responded that caselaw does not require a controlled buy or a crime
to have occurred to establish probable cause. See Tr. at 61:25-62:6 (Stanford). The Court clarified
that the United States argued that the BCSO deputies did not have probable cause immediately
when Cruz left his home. See Tr. at 62:7-11 (Court). The United States agreed that the running
established probable cause. See Tr. at 62:18-20 (Stanford). The United States argued that, here,
where Koppman knew that Cruz had previously trafficked drugs; the CI and the CS informed
Koppman that Cruz was selling drugs again; Koppman checked the CI’s and the CS’ information;
the CS set up a drug deal with Cruz; and Koppman observed Cruz walking toward the drug deal
in a manner similar to the manner of people engaged in drug transactions, Koppman could
“conduct an investigative detention.” Tr. at 62:24-63:19 (Stanford). The Court clarified that the
parties were not debating an investigative detention. See Tr. at 63:23-24 (Court). The United
States confirmed the Court’s assessment and agreed that probable cause developed when Cruz ran
from the BCSO deputies. See Tr. at 64:2-17 (Court, Stanford). The Court suggested, and the
United States concurred, that Cruz’ running indicated that Cruz had drugs on his body, which he
intended to destroy, and that this action established probable cause. See Tr. at 64:22-65:7 (Court,
Stanford).
The United States next argued, regarding the exigency test’s second element, that Kentucky
v. King gives “guidance” and contended that, because the CS ordered methamphetamine in an
amount dangerous for the streets, a serious crime occurred. See Tr. at 65:12-66:2 (Stanford).
Turning to the third factor, the United States then explained that the BCSO deputies followed Cruz
to the bathroom and minimally intruded into Cruz’ residence without his consent. See Tr. at 66:1319 (Stanford). Last, the United States contended, regarding the fourth prong -- that the police not

- 23 Appx. B - 023

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 24 of 97

have created the exigency -- that the Supreme Court stated in Kentucky v. King that police do not
create an exigency if they do not engage in or threaten conduct violating the Fourth Amendment.
See Tr. at 66:19-67:12 (Stanford). The United States contended that Koppman explained that the
BCSO deputies did nothing to violate the Fourth Amendment and that Cruz ran when the BCSO
deputies identified themselves. See Tr. at 67:14-68:13 (Stanford). The United States emphasized
that Koppman verified the CS’ information and that the BCSO deputies did not need to know
whether the destruction of evidence was extremely imminent. See Tr. at 68:14-69:2 (Stanford).
Cruz reiterated again that the BCSO deputies did not have probable cause, and that the
BCSO deputies admitted that the CI’s and the CS’ information did not establish probable cause.
See Tr. at 49:25-70:10 (Bhalla). According to Cruz, if the BCSO deputies had probable cause,
they would have obtained a warrant. See Tr. at 70:11-15 (Bhalla). Cruz also repeated that,
although the parties focused on probable cause, the United States still must satisfy the other factors
and that the exigency analysis fails. See Tr. at 70:15-25 (Bhalla). The Court asked Cruz what
additional evidence he believed was required to establish that an exigency existed, because the
Court understood the situation as someone running into a residence to destroy drugs. See Tr. at
71:1-7 (Court). Cruz asserted that, in other cases, law enforcement officers observed or heard
signs of doors and people running around to destroy evidence. See Tr. at 11-16 (Bhalla). The
Court asked whether the BCSO deputies had to wait until they heard the flushing, which would
mean that Cruz had destroyed the evidence. See Tr. at 72:3-5 (Court). Cruz argued that sometimes
the law enforcement officers observed signs of destruction, but in all the cases, the law
enforcement officers knew that the defendant had evidence to destroy, because they had witnessed
a drug transaction. See Tr. at 72:7-10 (Bhalla). Cruz also emphasized that the Court needed to

- 24 Appx. B - 024

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 25 of 97

consider whether possessing drugs -- rather than trafficking drugs -- is a “serious crime.” Tr. at
73:15 (Bhalla). See id. at 73:10-15 (Bhalla). Cruz argued that the law-enforcement-abuse question
is objective and that, in a situation like the one in which the BCSO deputies arrested him, law
enforcement officers do not act reasonably if they do not have a warrant. See Tr. at 73:15-74:9
(Bhalla).
The Court indicated its inclination to deny the motion. See Tr. at 74:19-20 (Court). The
Court summarized that Koppman and the other BCSO deputies had information to establish
probable cause and that running into the house seemed to satisfy the test for an exigency based on
the destruction of evidence. See Tr. at 74:19-75:4 (Court). The Court indicated that once an
individual flushes evidence down the toilet, the evidence is gone. See Tr. at 75:3-5 (Court). The
Court indicated that it would need to consider the seriousness of the crime but that it would file an
opinion on the Motion. See Tr. at 75:5-7 (Court). This is the Memorandum Opinion and Order
that the Court promised.
RELEVANT FOURTH AMENDMENT LAW
The Fourth Amendment protects “[t]he right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches and seizures.” U.S. Const. amend. IV.
Fourth Amendment rights are enforceable against state actors through the Fourteenth
Amendment’s Due Process Clause. See Mapp v. Ohio, 367 U.S. 643, 655 (1961)(“Since the
Fourth Amendment’s right of privacy has been declared enforceable against the States through the
Due Process Clause of the Fourteenth, it is enforceable against them by the same sanction of
exclusion as used against the Federal Government.”); United States v. Rodriguez-Rodriguez, 550
F.3d 1223, 1225 n.1 (10th Cir. 2008)(“[T]he Fourth Amendment applies against state law

- 25 Appx. B - 025

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 26 of 97

enforcement officials as incorporated through the Due Process Clause of the Fourteenth
Amendment.”). “Not all searches require a warrant. The hallmark of the Fourth Amendment is
reasonableness.”

United States v. Harmon, 785 F. Supp. 2d 1146, 1157 (D.N.M.

2011)(Browning, J.). See United States v. McHugh, 639 F.3d 1250, 1260 (10th Cir. 2011)(“[T]he
ultimate touchstone of the Fourth Amendment is ‘reasonableness.’” (internal quotation marks
omitted)(quoting Brigham the City v. Stuart, 547 U.S. 398, 403 (1978))). Cf. United States v.
Sharpe, 470 U.S. 675, 691 (1985)(Marshall, J., concurring)(underlining that investigatory stops
“do . . . not constitute the sort of arrest that the Constitution requires be made upon probable cause”
because of their lower degree of intrusiveness); United States v. Brignoni-Ponce, 422 U.S. 873,
881-82 (1975)(discussing the importance of allowing officers with reasonable suspicion of
criminal activity to conduct a brief investigative stop); Terry v. Ohio, 392 U.S. 1 (1968)(allowing
officers who have “reason to believe” a person is armed and dangerous to stop the person, and to
conduct a brief protective search for weapons). The Supreme Court has stated that “searches
conducted outside the judicial process, without prior approval by judge or magistrate, are per se
unreasonable under the Fourth Amendment -- subject only to a few specifically established and
well-delineated exceptions.” Katz v. United States, 389 U.S. 347, 357 (1967)(footnote omitted).
1.

The Fourth Amendment “Standing” Analysis.

“The Tenth Circuit has referred to the test whether a particular search implicates a
defendant’s Fourth Amendment interests -- whether the search violates the defendant’s reasonable
privacy expectation -- as one of ‘standing.’” Ysasi v. Brown, 3 F. Supp. 3d 1088, 1125 (D.N.M.
2014)(Browning, J.)(citing United States v. Creighton, 639 F.3d 1281, 1286 (10th Cir. 2011)(“The
Defendant has the burden of establishing . . . standing, or, in other words, a subjective expectation

- 26 Appx. B - 026

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 27 of 97

of privacy in the [place searched] that society is prepared to recognize as reasonable.”); United
States v. Poe, 556 F.3d 1113, 1121 (10th Cir. 2009)(“[A] defendant raising a Fourth Amendment
challenge must first demonstrate that he has standing to object to the search.”); United States v.
Shareef, 100 F.3d 1491, 1499 (10th Cir. 1996)(“A Defendant has standing to challenge a search
only if he or she has a reasonable expectation of privacy in the area being searched.”)).
Accordingly, the Court, following the Tenth Circuit’s lead, has also referred to this reasonableexpectation-of-privacy test as one of standing. See, e.g., United States v. Harmon, 785 F. Supp. 2d
at 1157 (“Standing requires the defendant to show ‘that he had a subjective expectation of privacy
in the premises searched and that society is prepared to recognize that expectation as reasonable.’”
(quoting United States v. Poe, 556 F.3d at 1121)). The Supreme Court’s decisions suggest,
however, that the “standing” test has now expressly been incorporated into the substantive Fourth
Amendment search analysis. See United States v. Sweeney, No. 14-CR-0020, 2014 WL 2514926,
at *2 (E.D. Wis. June 4, 2014)(Adelman, J.)(“Once referred to as ‘standing,’ this requirement is
actually part of substantive Fourth Amendment law.”).
In Rakas v. Illinois, 439 U.S. 128 (1978), the Supreme Court disapproved of labeling the
inquiry whether a search implicates a defendant’s personal Fourth Amendment interests “as one
of standing, rather than simply recognizing it as one involving the substantive question of whether
or not the proponent of the motion to suppress had his own Fourth Amendment rights infringed by
the search and seizure which he seeks to challenge.” 439 U.S. at 133. Dispensing with this label,
the Supreme Court noted:
Had we accepted petitioners’ request to allow persons other than those
whose own Fourth Amendment rights were violated by a challenged search and
seizure to suppress evidence obtained in the course of such police activity, it would
be appropriate to retain [the Jones v. United States, 362 U.S. 257 (1960),] use of

- 27 Appx. B - 027

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 28 of 97

standing in Fourth Amendment analysis. Under petitioners’ target theory, a court
could determine that a defendant had standing to invoke the exclusionary rule
without having to inquire into the substantive question of whether the challenged
search or seizure violated the Fourth Amendment rights of that particular defendant.
However, having rejected petitioners’ target theory and reaffirmed the principle that
the “rights assured by the Fourth Amendment are personal rights, [which] . . . may
be enforced by exclusion of evidence only at the instance of one whose own
protection was infringed by the search and seizure,” Simmons v. United States, 390
U.S. [377, 389 (1968)], the question necessarily arises whether it serves any useful
analytical purpose to consider this principle a matter of standing, distinct from the
merits of a defendant’s Fourth Amendment claim. We can think of no decided
cases of this Court that would have come out differently had we concluded, as we
do now, that the type of standing requirement discussed in Jones and reaffirmed
today is more properly subsumed under substantive Fourth Amendment doctrine.
Rigorous application of the principle that the rights secured by this Amendment are
personal, in place of a notion of “standing,” will produce no additional situations in
which evidence must be excluded. The inquiry under either approach is the same.
But we think the better analysis forthrightly focuses on the extent of a particular
defendant’s rights under the Fourth Amendment, rather than on any theoretically
separate, but invariably intertwined concept of standing. The Court in Jones also
may have been aware that there was a certain artificiality in analyzing this question
in terms of standing because in at least three separate places in its opinion the Court
placed that term within quotation marks.
Rakas v. Illinois, 439 U.S. at 138-39 (footnote omitted)(second alteration in original). The
Supreme Court emphasized:
[N]othing we say here casts the least doubt on cases which recognize . . . as a
general proposition, the issue of standing [generally.] . . . But this Court’s long
history of insistence that Fourth Amendment rights are personal in nature has
already answered many of these traditional standing inquiries, and we think that
definition of those rights is more properly placed within the purview of substantive
Fourth Amendment law than within that of standing.
Rakas v. Illinois, 439 U.S. at 139-40 (citations omitted). In Minnesota v. Carter, 525 U.S. 83
(1998), the Supreme Court recognized that Rakas v. Illinois put an end to the practice of conducting
a Fourth Amendment standing analysis separate from the substantive Fourth Amendment search
analysis:

- 28 Appx. B - 028

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 29 of 97

The Minnesota courts analyzed whether respondents had a legitimate
expectation of privacy under the rubric of “standing” doctrine, an analysis that this
Court expressly rejected 20 years ago in Rakas . . . . Central to our analysis [in
Rakas v. Illinois] was the idea that in determining whether a defendant is able to
show the violation of his (and not someone else’s) Fourth Amendment rights, the
“definition of those rights is more properly placed within the purview of substantive
Fourth Amendment law than within that of standing.” [Rakas v. Illinois, 439 U.S.
at 140.]
Minnesota v. Carter, 525 U.S. at 87-88 (citations omitted). The Supreme Court has, thus, noted
that the analysis under either approach -- the substantive Fourth Amendment doctrine that the
rights that the Amendment secures are personal versus the separate notion of “standing” -- is the
same. Rakas v. Illinois, 439 U.S. at 139.
2.

Whether a Fourth Amendment Search Occurred.

A court cannot suppress evidence unless the search was a search for the Fourth
Amendment’s purposes. See Mapp v. Ohio, 367 U.S. at 654-55 (holding that “evidence obtained
by searches and seizures in violation of the Constitution is” inadmissible). A Fourth Amendment
search occurs either where the government, to obtain information, trespasses on a person’s
property or where the government violates a person’s subjective expectation of privacy that society
recognizes as reasonable to collect information. See United States v. Jones, 565 U.S. at 404-08.
“[T]he Katz reasonable-expectation-of-privacy test has been added to, not substituted for, the
common-law trespassory test.” United States v. Jones, 565 U.S. at 409 (emphasis in original).
a.

The Trespass-Based Analysis.

In Florida v. Jardines, the Supreme Court explained that the Fourth Amendment
“establishes a simple baseline, one that for much of our history formed the exclusive basis for its
protections: When ‘the Government obtains information by physically intruding’ on persons,
houses, papers, or effects, ‘a “search” within the original meaning of the Fourth Amendment’ has

- 29 Appx. B - 029

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 30 of 97

‘undoubtedly occurred.’” Florida v. Jardines, 569 U.S. at 5 (quoting United States v. Jones, 565
U.S. at 406 n.3). “[A]n actual trespass,” however, “is neither necessary nor sufficient to establish
a constitutional violation.” United States v. Jones, 565 U.S. at 408 n.5 (emphasis omitted)(quoting
United States v. Karo, 468 U.S. 705, 713 (1984)). In determining whether a search has occurred,
“[t]respass alone does not qualify, but there must be conjoined with that . . . an attempt to find
something or to obtain information.” United States v. Jones, 565 U.S. at 408 n.5. The Supreme
Court has also noted that “[p]hysically invasive inspection is simply more intrusive than purely
visual inspection.” Bond v. United States, 529 U.S. 334, 337 (2000). Moreover, the Supreme
Court, in Florida v. Jardines, suggested that the trespass-based analysis applies only where the
trespass occurs in one of the four places or things listed in the Fourth Amendment:
The Fourth Amendment “indicates with some precision the places and
things encompassed by its protections”: persons, houses, papers, and effects. The
Fourth Amendment does not, therefore, prevent all investigations conducted on
private property; for example, an officer may (subject to Katz) gather information
in what we have called “open fields” -- even if those fields are privately owned -because such fields are not enumerated in the Amendment’s text.
But when it comes to the Fourth Amendment, the home is first among
equals.
Florida v. Jardines, 569 U.S. at 6 (citations omitted).5

5

The Honorable Elena Kagan, Associate Justice for the Supreme Court, filed a separate
concurring opinion, in which the Honorable Ruth Ginsburg, Associate Justice for the Supreme
Court, and the Honorable Sonia Sotomayor, Associate Justice for the Supreme Court, joined,
adding “further thoughts, suggesting that a focus on Jardines’ privacy interests would make ‘an
easy cas[e] easy’ twice over,” but “join[ing] the Court’s opinion in full.” 569 U.S. at 16 (Kagan, J.,
concurring)(first alteration in original). “The Court today treats this case under a property rubric;
I write separately to note that I could just as happily have decided it by looking to Jardines’ privacy
interests.” 569 U.S. at 13 (Kagan, J., concurring). Justice Kagan analogized the government’s
conduct in using a drug sniffing dog on Jardines’ porch to a stranger coming to the front door, who
“doesn’t knock or say hello,” but instead, peers through the windows “into your home’s furthest

- 30 Appx. B - 030

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 31 of 97

In United States v. Alabi, 943 F. Supp. 2d 1201 (D.N.M. 2013)(Browning, J.), aff’d, 597
F. App’x 991 (10th Cir. 2015), the Court analyzed whether the Secret Service’s digital scan of
electronic information in the defendants’ credit and debit cards’ magnetic strips was a Fourth
Amendment search under a trespass-based analysis, concluding that it was not, because the Secret
Service properly possessed the credit and debit cards, and the additional act of scanning the cards
to read the virtual data contained on the strips did not involve a physical intrusion or physical

corners” with “super-high-powered binoculars,” and, “[i]n just a couple of minutes, his uncommon
behavior allows him to learn details of your life you disclose to no one.” 569 U.S. at 12 (Kagan, J.,
concurring). This conduct, she posited, is a trespass which exceeds any implied license and is also
an invasion of reasonable expectations of privacy; she argued that, like her analogy, the facts in
Florida v. Jardines likewise involved a trespass and a violation of privacy expectations:
That case is this case in every way that matters. Here, police officers came
to Joelis Jardines’ door with a super-sensitive instrument, which they deployed to
detect things inside that they could not perceive unassisted. The equipment they
used was animal, not mineral. But contra the dissent, see [569 U.S. at 16-17]
(opinion of Alito, J.)(noting the ubiquity of dogs in American households), that is
of no significance in determining whether a search occurred.
569 U.S. at 12 (Kagan, J., concurring). According to Justice Kagan, had she written the majority
opinion based on the Katz v. United States reasonable-expectations-of-privacy search test,
[a] decision along those lines would have looked . . . well, much like this one. It
would have talked about “‘the right of a man to retreat into his own home and there
be free from unreasonable governmental intrusion.’” [Florida v. Jardines, 569 U.S.
at 6] (quoting Silverman v. United States, 365 U.S. 505, 511 . . . (1961)). It would
have insisted on maintaining the “practical value” of that right by preventing police
officers from standing in an adjacent space and “trawl[ing] for evidence with
impunity.” [Florida v. Jardines, 569 U.S.] at 1414. It would have explained that
“‘privacy expectations are most heightened’” in the home and the surrounding area.
[Florida v. Jardines, 569 U.S. at 7] (quoting California v. the Ciraolo, 476 U.S. [at]
213 . . .). And it would have determined that police officers invade those shared
expectations when they use trained canine assistants to reveal within the confines
of a home what they could not otherwise have found there. See [Florida v. Jardines,
569 U.S. at 8-9], and n.2-3.
Florida v. Jardines, 569 U.S. at 13 (Kagan, J., concurring).

- 31 Appx. B - 031

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 32 of 97

penetration of space. See 943 F. Supp. 2d at 1264-65. The Court noted that, “[e]ven if the Supreme
Court were to extend the trespass-based analysis for Fourth Amendment searches to virtual
invasions, the Secret Service’s conduct scanning the thirty-one credit and debit cards still would
not amount to a Fourth Amendment search,” because the magnetic strip, as opposed to the credit
or debit card separately, is not a constitutionally protected area. 943 F. Supp. 2d at 1267-68.
When a law enforcement officer sees only the exterior of a credit or debit card,
however, given that the financial institution which issues the card places the same
information on the magnetic strip as embossed on the card’s exterior, the only
instances in which the information inside the credit or debit card is not information
already seen by and known to the officer is when the information has been
reencoded for unlawful purposes. In these instances, not only does the person
asserting his or her Fourth Amendment right not own or otherwise lawfully possess
the information contained inside the card on the magnetic strip, but the person has
stolen the information with the intent to use that information to steal further from
the person whose information is on the magnetic strip. Protecting this area from
law enforcement search and seizure would thus not further the Fourth
Amendment’s express purpose of protecting “[t]he right of the people to be secure
in their persons, houses, papers, and effects . . . .” U.S. Const. amend IV.
United States v. Alabi, 943 F. Supp. 2d at 1273 (alteration in original).
b.

Katz v. United States’ Reasonable-Expectation-of-Privacy Test
Remains Good Law.

The Court has noted that, in light of the Supreme Court’s recent decisions in Florida v.
Jardines and United States v. Jones, both of which the Honorable Antonin Scalia, the late Associate
Justice for the Supreme Court, wrote for the majority, and both of which analyze whether
government conduct constituted a Fourth Amendment search using the trespass-based approach,
“the question arises whether the Katz v. United States reasonable-expectation-of-privacy test is
still good law.” United States v. Alabi, 943 F. Supp. 2d at 1242. Justice Scalia has consistently
criticized this “notoriously unhelpful test”:

- 32 Appx. B - 032

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 33 of 97

In my view, the only thing the past three decades have established about the Katz
test (which has come to mean the test enunciated by Justice Harlan’s separate
concurrence in Katz, see id., at 360 . . . ) is that, unsurprisingly, those “actual
(subjective) expectation[s] of privacy” “that society is prepared to recognize as
‘reasonable,’” id., at 361 . . . , bear an uncanny resemblance to those expectations
of privacy that this Court considers reasonable. When that self-indulgent test is
employed (as the dissent would employ it here) to determine whether a “search or
seizure” within the meaning of the Constitution has occurred (as opposed to
whether that “search or seizure” is an “unreasonable” one), it has no plausible
foundation in the text of the Fourth Amendment. That provision did not guarantee
some generalized “right of privacy” and leave it to this Court to determine which
particular manifestations of the value of privacy “society is prepared to recognize
as ‘reasonable.’” Ibid. Rather, it enumerated (“persons, houses, papers, and
effects”) the objects of privacy protection to which the Constitution would extend,
leaving further expansion to the good judgment, not of this Court, but of the people
through their representatives in the legislature.
Minnesota v. Carter, 525 U.S. at 97-98 (Scalia, J., concurring)(emphasis and alteration in original).
In both United States v. Jones and Florida v. Jardines, however, Justice Scalia never stated that the
Supreme Court was substituting the trespass-based analysis for Katz v. United States’ reasonableexpectation-of-privacy analysis. Rather, his majority opinions assert that the Katz v. United States
reasonable-expectation-of-privacy analysis adds to the trespass-based analysis. See Florida v.
Jardines, 569 U.S. at 11 (“The Katz reasonable-expectations test ‘has been added to, not substituted
for,’ the traditional property-based understanding of the Fourth Amendment . . . .” (emphasis in
original)(quoting United States v. Jones, 565 U.S. at 409)). The Court concluded in United States
v. Alabi that, “as the Supreme Court now stands, [the Honorable Samuel Alito, Associate Justice
for the Supreme Court; the Honorable Stephen Breyer, Associate Justice for the Supreme Court;
the Honorable Elena Kagan, Associate Justice for the Supreme Court; the Honorable Ruth
Ginsburg, Associate Justice for the Supreme Court; and the Honorable Sonia Sotomayor,
Associate Justice for the Supreme Court,] still adhere to application of the Katz v. United States

- 33 Appx. B - 033

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 34 of 97

reasonable-expectation-of-privacy Fourth Amendment analysis, at least as a possible approach
alongside of the trespass-based approach.” United States v. Alabi, 943 F. Supp. 2d at 1243.
In June, 2013, Justice Scalia dissented from the Supreme Court’s decision in Maryland v.
King, 569 U.S. 435 (2013), in which the Supreme Court held that “DNA identification of arrestees
is a reasonable search that can be considered part of a routine booking procedure.” 569 U.S. at
465. Justice Scalia criticized the majority opinion for analogizing DNA testing to taking an
arrestee’s photograph by citing to Katz v. United States and pointing out that “we have never held
that merely taking a person’s photograph invades any recognized ‘expectation of privacy.’”
Maryland v. King, 569 U.S. at 477 (Scalia, J., dissenting). Justice Scalia also notes that a person’s
“privacy-related concerns” in his or her body are weighty:
We are told that the “privacy-related concerns” in the search of a home “are weighty
enough that the search may require a warrant, notwithstanding the diminished
expectations of privacy of the arrestee.” But why are the “privacy-related
concerns” not also “weighty” when an intrusion into the body is at stake? (The
Fourth Amendment lists “persons” first among the entities protected against
unreasonable searches and seizures.).
Maryland v. King, 569 U.S. at 469 (Scalia, J., dissenting)(emphasis in original). Justice Scalia
also suggested that the Founders would have shared these privacy-related concerns:
Today’s judgment will, to be sure, have the beneficial effect of solving more
crimes; then again, so would the taking of DNA samples from anyone who flies on
an airplane (surely the Transportation Security Administration needs to know the
“identity” of the flying public), applies for a driver’s license, or attends a public
school. Perhaps the construction of such a genetic panopticon is wise. But I doubt
that the proud men who wrote the charter of our liberties would have been so eager
to open their mouths for royal inspection.
Maryland v. King, 569 U.S. at 482 (Scalia J., dissenting).
The Supreme Court’s recent decision in Carpenter v. United States, 138 S. Ct. 2206 (2018),
underscores that the “reasonable-expectation-of-privacy test has been added to, not substituted for,

- 34 Appx. B - 034

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 35 of 97

the common-law trespassory test.” United States v. Jones, 565 U.S. at 409. In Carpenter v. United
States, the Honorable John Roberts, Chief Justice for the Supreme Court, writing for the majority,
relied on the Katz v. United States test to determine that the United States violated the defendant’s
Fourth Amendment rights by obtaining his cell-site records without a warrant. See Carpenter v.
United States, 138 S. Ct. at 2217-19. Chief Justice Roberts wrote that “what [one] seeks to
preserve as private, even in an area accessible to the public, may be constitutionally protected,”
Carpenter v. United States, 138 S. Ct. at 2217 (internal quotation marks omitted)(quoting Katz v.
United States, 389 U.S. at 351-52), and that “[a] majority of this Court has already recognized that
individuals have a reasonable expectation of privacy in the whole of their physical movements,”
138 S. Ct. at 2217 (citing United States v. Jones, 565 U.S. at 430 (Alito, J., concurring in
judgment); id. at 415 (Sotomayor, J., concurring)).

Chief Justice Roberts concluded that

“historical cell-site records present even greater privacy concerns than the GPS monitoring of a
vehicle we considered in Jones” and allowing the government warrantless access to this
information contravenes individuals’ reasonable expectation of privacy in the whole of their
physical movements. Carpenter v. United States, 138 S. Ct. at 2217-18. The Court, therefore,
concludes that the Supreme Court still relies on a person’s privacy expectation when determining
whether a search is reasonable for Fourth Amendment purposes, although Justice Scalia would not
have turned to the expectations prong until after he ran the facts through the trespass prong.
c.

Katz v. United States’ Reasonable-Expectations-of-Privacy Analysis.

“Fourth Amendment rights are personal rights which, like some other constitutional rights,
may not be vicariously asserted.” Rakas v. Illinois, 439 U.S. at 133-34 (internal quotation marks
omitted)(quoting Alderman v. United States, 394 U.S. 165, 174 (1969)). “A district court cannot

- 35 Appx. B - 035

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 36 of 97

suppress evidence unless the movant proves that a search implicates personal Fourth Amendment
interests.” United States v. Jones, 44 F.3d 860, 871 (10th Cir. 1995)(emphasis in original). “‘[N]o
interest legitimately protected by the Fourth Amendment’ is implicated by governmental
investigative activities unless there is an intrusion into a zone of privacy, into ‘the security a man
relies upon when he places himself or his property within a constitutionally protected area.’”
United States v. Miller, 425 U.S. 435, 440 (1976)(quoting Hoffa v. United States, 385 U.S. 293,
301-02 (1966)). The Tenth Circuit has, thus, noted that “[a]n illegal search or seizure only harms
those with legitimate expectations of privacy in the premises searched.” United States v. Jones,
44 F.3d at 871 (citing United States v. Roper, 918 F.2d 885, 886-87 (10th Cir. 1990)). Thus, “[t]he
proper inquiry” to determine whether a search implicates a defendant’s Fourth Amendment
interests still depends, after conducting a trespass-based analysis, on “whether the defendant had
an expectation of privacy in the place searched and whether that expectation was objectively
reasonable.”

Kerns v. Bd. of Comm’rs of Bernalillo Cty., 888 F. Supp. 2d 1176, 1219

(D.N.M. 2012)(Browning, J.).
“Official conduct that does not ‘compromise any legitimate interest in privacy’ is not a
search subject to the Fourth Amendment.” Illinois v. Caballes, 543 U.S. 405, 409 (2005)(quoting
United States v. Jacobsen, 466 U.S. 109, 123 (1984)). The Supreme Court has, thus, recognized
that, rather than determining whether law enforcement’s conduct was a search, it sometimes proves
easier to “assess . . . when a search is not a search.” Kyllo v. United States, 533 U.S. 27, 32 (2001).
In assessing when a search is not a search, we have applied somewhat in reverse
the principle first enunciated in Katz v. United States. Katz involved eavesdropping
by means of an electronic listening device placed on the outside of a telephone
booth -- a location not within the catalog (“persons, houses, papers, and effects”)
that the Fourth Amendment protects against unreasonable searches. We held that
the Fourth Amendment nonetheless protected Katz from the warrantless

- 36 Appx. B - 036

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 37 of 97

eavesdropping because he “justifiably relied” upon the privacy of the telephone
booth. As Justice Harlan’s oft-quoted concurrence described it, a Fourth
Amendment search occurs when the government violates a subjective expectation
of privacy that society recognizes as reasonable.
Kyllo v. United States, 533 U.S. at 32-33 (citation omitted). The Supreme Court, thus, articulated
the Katz v. United States rule -- which Wayne R. LaFave, professor at the University of Illinois
College of Law, has noted is “somewhat inaccurately stated as the ‘reasonable expectation of
privacy’ test,” Wayne R. LaFave, Search and Seizure: A Treatise on the Fourth Amendment
§ 2.1(b), at 435 (4th ed. 2004) -- which posits: “[A] Fourth Amendment search does not
occur . . . unless ‘the individual manifested a subjective expectation of privacy in the object of the
challenged search,’ and ‘society [is] willing to recognize that expectation as reasonable.’” Kyllo
v. United States, 533 U.S. at 33 (emphasis and second alteration in original)(quoting California v.
Ciraolo, 476 U.S. 207, 211 (1986)).
A “reasonable expectation of privacy” is “said to be an expectation ‘that has a source
outside of the Fourth Amendment, either by reference to concepts of real or personal property law
or to understandings that are recognized and permitted by society.’” United States v. Jones, 565
U.S. at 408 (quoting Minnesota v. Carter, 525 U.S. at 88). See United States v. Harmon, 785 F.
Supp. 2d at 1157 (“To decide whether a reasonable expectation of privacy existed, the court
consider concepts of real or personal property law . . . .”). In analyzing whether an expectation of
privacy is reasonable in the Fourth Amendment context based on property law, “arcane distinctions
developed in property and tort law between guests, licensees, invitees, and the like, ought not to
control.” Rakas v. Illinois, 439 U.S. at 143 & n.12. Although ownership or lawful possession is
not determinative under the Katz v. United States reasonable-expectation-of-privacy test, it is often
a dispositive factor; because the Fourth Amendment provides a personal right, a defendant bears

- 37 Appx. B - 037

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 38 of 97

the burden of demonstrating “that he gained possession [of the area searched] from the owner or
someone with the authority to grant possession.” United States v. Arango, 912 F.2d 441, 445 (10th
Cir. 1990).
i.

Subjective Expectation of Privacy.

A defendant maintains a subjective expectation of privacy when he or she “has shown that
‘he sought to preserve something as private.’” Ysasi v. Brown, 3 F. Supp. 3d at 1132 (internal
alterations omitted)(quoting Bond v. United States, 529 U.S. at 338). Thus, there is no reasonable
expectation of privacy in otherwise private information disclosed to a third party. See United
States v. Miller, 425 U.S. at 443. “[T]he Fourth Amendment protects people, not places. What a
person knowingly exposes to the public . . . is not a subject of Fourth Amendment protection.”
Katz v. United States, 389 U.S. at 351. The Supreme Court has noted:
This Court has held repeatedly that the Fourth Amendment does not prohibit the
obtaining of information revealed to a third party and conveyed by him to
Government authorities, even if the information is revealed on the assumption that
it will be used only for a limited purpose and the confidence placed in the third
party will not be betrayed.
United States v. Miller, 425 U.S. at 443.
The Supreme Court has recognized, however, that subjective expectations of privacy do
not always coincide with the interests that the Fourth Amendment is universally thought to protect.
In Smith v. Maryland, 442 U.S. 735 (1979), for instance, the Supreme Court identified situations
in which it would not follow the subjective approach:
Situations can be imagined, of course, in which Katz’ two-pronged inquiry
would provide an inadequate index of Fourth Amendment protection. For example,
if the Government were suddenly to announce on nationwide television that all
homes henceforth would be subject to warrantless entry, individuals thereafter
might not in fact entertain any actual expectation or [sic] privacy regarding their
homes, papers, and effects. Similarly, if a refugee from a totalitarian country,

- 38 Appx. B - 038

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 39 of 97

unaware of this Nation’s traditions, erroneously assumed that police were
continuously monitoring his telephone conversations, a subjective expectation of
privacy regarding the contents of his calls might be lacking as well. In such
circumstances, where an individual’s subjective expectations had been
“conditioned” by influences alien to well-recognized Fourth Amendment freedoms,
those subjective expectations obviously could play no meaningful role in
ascertaining what the scope of Fourth Amendment protection was. In determining
whether a “legitimate expectation of privacy” existed in such cases, a normative
inquiry would be proper.
Smith v. Maryland, 442 U.S. at 740 n.5. In United States v. Jones, Justice Sotomayor commented
that, given the reality of technology in the twenty-first century, it may no longer be sound to
universally hold to the third-party disclosure rule to determine whether a subjective expectation of
privacy exists:
[I]t may be necessary to reconsider the premise that an individual has no reasonable
expectation of privacy in information voluntarily disclosed to third parties. This
approach is ill suited to the digital age, in which people reveal a great deal of
information about themselves to third parties in the course of carrying out mundane
tasks. People disclose the phone numbers that they dial or text to their cellular
providers; the URLs [(Uniform Resource Locator)] that they visit and the e-mail
addresses with which they correspond to their Internet service providers; and the
books, groceries, and medications they purchase to online retailers. Perhaps, as
Justice Alito notes, some people may find the “tradeoff” of privacy for convenience
“worthwhile,” or come to accept this “diminution of privacy” as “inevitable,” and
perhaps not. I for one doubt that people would accept without complaint the
warrantless disclosure to the Government of a list of every Web site they had visited
in the last week, or month, or year. But whatever the societal expectations, they
can attain constitutionally protected status only if our Fourth Amendment
jurisprudence ceases to treat secrecy as a prerequisite for privacy. I would not
assume that all information voluntarily disclosed to some member of the public for
a limited purpose is, for that reason alone, disentitled to Fourth Amendment
protection.
United States v. Jones, 565 U.S. at 417 (Sotomayor, J., concurring)(citations omitted). Most
recently, in Carpenter v. United States, the Supreme Court recognized the third-party doctrine’s
application to “telephone numbers and bank records,” but declined to extend it to cover cell-site
location records. 138 S. Ct. at 2216-17. Chief Justice Roberts, writing for the majority, wrote:

- 39 Appx. B - 039

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 40 of 97

Given the unique nature of cell phone location records, the fact that the information
is held by a third party does not by itself overcome the user’s claim to Fourth
Amendment protection. Whether the Government employs its own surveillance
technology as in [United States v.] Jones or leverages the technology of a wireless
carrier, we hold that an individual maintains a legitimate expectation of privacy in
the record of his physical movements as captured through the CSLI[6].
Carpenter v. United States, 138 S. Ct. at 2217. The Court notes, however, that, regardless what
the Supreme Court decides to do with social media on the internet, only the most ignorant or
gullible think that what they post on the internet is or remains private. See United States v.
Meregildo, 883 F. Supp. 2d 523, 526 (S.D.N.Y. 2012)(Pauley III, J.)(holding that a person posting
to his Facebook profile had “no justifiable expectation that his ‘friends’ would keep his profile
private”).
ii.

Privacy Expectation That Society Is Prepared to Recognize as
Reasonable.

Under the second step of Katz v. United States’ reasonable-expectation-of-privacy
approach, courts must determine “whether society is prepared to recognize that [subjective
privacy] expectation as objectively reasonable.” United States v. Ruiz, 664 F.3d 833, 838 (10th

The Supreme Court uses “CSLI” as an abbreviation for “cell-site location information.”
See Carpenter v. United States, 138 S. Ct. at 2211. The Supreme Court explains:
6

Cell phones continuously scan their environment looking for the best signal,
which generally comes from the closest cell site. Most modern devices, such as
smartphones, tap into the wireless network several times a minute whenever their
signal is on, even if the owner is not using one of the phone’s features. Each time
the phone connects to a cell site, it generates a time-stamped record known as cellsite location information (CSLI). The precision of this information depends on the
size of the geographic area covered by the cell site. The greater the concentration
of cell sites, the smaller the coverage area.
Carpenter v. United States, 138 S. Ct. at 2211.

- 40 Appx. B - 040

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 41 of 97

Cir. 2012)(internal quotation marks omitted)(quoting United States v. Allen, 235 F.3d 482, 489
(10th Cir. 2000)). The Supreme Court has cautioned: “The concept of an interest in privacy that
society is prepared to recognize as reasonable is, by its very nature, critically different from the
mere expectation, however well justified, that certain facts will not come to the attention of the
authorities.” United States v. Jacobsen, 466 U.S. at 122. “Determining whether society would
view the expectation as objectively reasonable turns on whether the government’s intrusion
infringes on a legitimate interest, based on the values that the Fourth Amendment protects.”
California v. Ciraolo, 476 U.S. at 212 (explaining that “[t]he test of legitimacy is not whether the
individual chooses to conceal assertedly ‘private’ activity,” but instead “whether the government’s
intrusion infringes upon the personal and societal values protected by the Fourth Amendment”
(alteration in original)(internal quotation marks omitted)(quoting Oliver v. United States, 466 U.S.
170, 182-83 (1984))). This second factor of the Katz v. United States reasonable-expectation-ofprivacy analysis developed from the attempt of the Honorable John Marshall Harlan’s, late
Associate Justice for the Supreme Court, “to give content to the word ‘justifiably’ in the majority’s
assertion that eavesdropping on Katz was a search because it ‘violated the privacy upon which he
justifiably relied while using the telephone booth.’” LaFave, supra, at § 2.1(d), at 439 (quoting
Katz v. United States, 389 U.S. at 353). Thus, whether society will recognize a certain expectation
of privacy does not turn on whether the hypothetical reasonable person would hold the same
expectation of privacy, but rather on whether the expectation of privacy is justified or legitimate.
See Smith v. Maryland, 442 U.S. at 739. The Supreme Court has provided that, while no single
factor determines legitimacy, whether society recognizes a privacy interest as reasonable is

- 41 Appx. B - 041

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 42 of 97

determined based on our societal understanding regarding what deserves protection from
government invasion:
No single factor determines whether an individual legitimately may claim
under the Fourth Amendment that a place should be free of government intrusion
not authorized by warrant. In assessing the degree to which a search infringes upon
individual privacy, the Court has given weight to such factors as the intention of
the Framers of the Fourth Amendment, the uses to which the individual has put a
location, and our societal understanding that certain areas deserve the most
scrupulous protection from government invasion.
Oliver v. United States, 466 U.S. at 177-78 (citations omitted).
The Supreme Court has held that “[o]fficial conduct that does not ‘compromise any
legitimate interest in privacy’ is not a search subject to the Fourth Amendment.” Illinois v.
Caballes, 543 U.S. at 408 (quoting United States v. Jacobsen, 466 U.S. at 123). In United States
v. Place, 462 U.S. 696 (1983), the Supreme Court held that the “canine sniff” of a drug-sniffing
dog does “not constitute a ‘search’ within the meaning of the Fourth Amendment.” 462 U.S. at
707. The case arose when law enforcement seized the luggage of an airline passenger and
transported it to another location, where a drug-sniffing dog could sniff it. See 462 U.S. at 699.
The drug-sniffing dog alerted the officers that drugs were in the luggage, the officers obtained a
search warrant, and, upon opening the bags, the officers found over one-thousand grams of
cocaine. See 462 U.S. at 699. While recognizing that a person has a reasonable expectation of
privacy in the contents of his or her luggage, the Supreme Court held that the dog’s sniff test was
not a Fourth Amendment search and emphasized the unique nature of the investigative technique,
which could identify only criminal activity:
We have affirmed that a person possesses a privacy interest in the contents of
personal luggage that is protected by the Fourth Amendment. A “canine sniff” by
a well-trained narcotics detection dog, however, does not require opening the
luggage. It does not expose noncontraband items that otherwise would remain

- 42 Appx. B - 042

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 43 of 97

hidden from public view, as does, for example, an officer’s rummaging through the
contents of the luggage. Thus, the manner in which information is obtained through
this investigative technique is much less intrusive than a typical search. Moreover,
the sniff discloses only the presence or absence of narcotics, a contraband item.
Thus, despite the fact that the sniff tells the authorities something about the contents
of the luggage, the information obtained is limited. This limited disclosure also
ensures that the owner of the property is not subjected to the embarrassment and
inconvenience entailed in less discriminate and more intrusive investigative
methods.
In these respects, the canine sniff is sui generis. We are aware of no other
investigative procedure that is so limited both in the manner in which the
information is obtained and in the content of the information revealed by the
procedure. Therefore, we conclude that the particular course of investigation that
the agents intended to pursue here -- exposure of respondent’s luggage, which was
located in a public place, to a trained canine -- did not constitute a “search” within
the meaning of the Fourth Amendment.
United States v. Place, 462 U.S. at 707 (citation omitted).
In United States v. Jacobsen, the Supreme Court extended this holding to the chemical field
test of a white powdery substance to reveal that the substance was cocaine. See 466 U.S. at 12224. A Federal Express employee and supervisor opened a damaged package, and exposed four
zip-lock plastic bags containing six and one-half ounces of white powder. See 466 U.S. at 111.
The Federal Express employees then called the Drug Enforcement Agency (“DEA”) and repacked
the contents in the original packaging before they provided the package to the DEA officers. See
466 U.S. at 111. When the agents arrived, the agents removed the exposed plastic bags from the
broken package, opened each of the four bags, and field-tested the white powder, identifying the
powder as cocaine. See 466 U.S. at 111-12. The Supreme Court first held that removal of the
plastic bags from the tube and the agent’s visual inspection were not Fourth Amendment searches:
[T]he removal of the plastic bags from the tube and the agent’s visual inspection of
their contents enabled the agent to learn nothing that had not previously been
learned during the private search. It infringed no legitimate expectation of privacy
and hence was not a “search” within the meaning of the Fourth Amendment.

- 43 Appx. B - 043

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 44 of 97

United States v. Jacobsen, 466 U.S. at 120 (footnote omitted). The Supreme Court noted: “The
question remains whether the additional intrusion occasioned by the field test, which had not been
conducted by the Federal Express agents and therefore exceeded the scope of the private search,
was an unlawful ‘search’ or ‘seizure’ within the meaning of the Fourth Amendment.” 466 U.S. at
122. The Supreme Court, relying on United States v. Place, held that the additional digital scan of
the white substance was not a Fourth Amendment search, because the test discloses only whether
the substance is cocaine and “nothing [else] of special interest”:
The field test at issue could disclose only one fact previously unknown to
the agent -- whether or not a suspicious white powder was cocaine. It could tell
him nothing more, not even whether the substance was sugar or talcum powder.
We must first determine whether this can be considered a “search” subject to the
Fourth Amendment -- did it infringe an expectation of privacy that society is
prepared to consider reasonable?
....
A chemical test that merely discloses whether or not a particular substance
is cocaine does not compromise any legitimate interest in privacy. This conclusion
is not dependent on the result of any particular test. It is probably safe to assume
that virtually all of the tests conducted under circumstances comparable to those
disclosed by this record would result in a positive finding; in such cases, no
legitimate interest has been compromised. But even if the results are negative -merely disclosing that the substance is something other than cocaine -- such a result
reveals nothing of special interest. Congress has decided -- and there is no question
about its power to do so -- to treat the interest in “privately” possessing cocaine as
illegitimate; thus governmental conduct that can reveal whether a substance is
cocaine, and no other arguably “private” fact, compromises no legitimate privacy
interest.
....
Here, as in Place, the likelihood that official conduct of the kind disclosed
by the record will actually compromise any legitimate interest in privacy seems
much too remote to characterize the testing as a search subject to the Fourth
Amendment.

- 44 Appx. B - 044

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 45 of 97

United States v. Jacobsen, 466 U.S. at 122-24 (footnote omitted).
Most recently, where a “dog sniff was performed on the exterior of respondent’s car while
he was lawfully seized for a traffic violation,” the Supreme Court, again relying on United States
v. Place and also on United States v. Jacobsen, held that “[a]ny intrusion on respondent’s privacy
expectations does not rise to the level of a constitutionally cognizable infringement.” Illinois v.
Caballes, 543 U.S. at 409.7 The Supreme Court reasoned that the dog sniff in Illinois v. Caballes
fell squarely in line with the series of cases holding “that any interest in possessing contraband
cannot be deemed ‘legitimate,’ and th[at], governmental conduct that only reveals the possession
of contraband ‘compromises no legitimate privacy interest.’” Illinois v. Caballes, 543 U.S. at 408
(emphasis in original)(quoting United States v. Jacobsen, 466 U.S. at 123). The Supreme Court
explained: “This is because the expectation ‘that certain facts will not come to the attention of the
authorities’ is not the same as an interest in ‘privacy that society is prepared to consider
reasonable.’” Illinois v. Caballes, 543 U.S. at 408-09 (quoting United States v. Jacobsen, 466 U.S.
at 122). The Supreme Court in Illinois v. Caballes noted that its decision was consistent with Kyllo
v. United States, as the thermal imaging device in Kyllo v. United States could detect lawful,
“intimate details” in a home:
This conclusion is entirely consistent with our recent decision that the use
of a thermal-imaging device to detect the growth of marijuana in a home constituted
an unlawful search. Kyllo v. United States, 533 U.S. 27 . . . (2001). Critical to that
decision was the fact that the device was capable of detecting lawful activity -- in
that case, intimate details in a home, such as “at what hour each night the lady of
the house takes her daily sauna and bath.” Id., at 38 . . . The legitimate expectation
that information about perfectly lawful activity will remain private is categorically
7

The Honorable John Paul Stevens, former Associate Justice of the Supreme Court, penned
the majority’s opinion in Illinois v. Caballes. Out of the current Supreme Court Justices, the
Honorable Clarence Thomas, Associate Justice of the Supreme Court, and Justice Breyer joined
Justice Stevens’ majority opinion, while Justice Ginsburg dissented. See 543 U.S. at 405.

- 45 Appx. B - 045

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 46 of 97

distinguishable from respondent’s hopes or expectations concerning the
nondetection of contraband in the trunk of his car. A dog sniff conducted during a
concededly lawful traffic stop that reveals no information other than the location of
a substance that no individual has any right to possess does not violate the Fourth
Amendment.
Illinois v. Caballes, 543 U.S. at 409-10.
In United States v. Alabi, the defendants possessed thirty-one credit and debit cards, “many
of them in their own names, several of which had information on the magnetic strips that related
to persons other than the Defendants.” 943 F. Supp. 2d at 1275. The Court reluctantly accepted
the defendants’ assertion that they “subjectively intended not to disclose this information to a third
party -- i.e., intended not to use the cards,” 943 F. Supp. 2d at 1275, but determined that “a privacy
expectation in the account information stored on credit and debit cards’ magnetic strips -- separate
and beyond the credit and debit cards themselves -- is not objectively reasonable,” 943 F. Supp. 2d
at 1280. The Court explained that the Secret Service’s scan of the cards’ magnetic strips “reveals
only the same information revealed in a private search when the card is used as intended,” and,
further, that, even if the cards had never been used, the scan “discloses only information known
by viewing the outside of the card, or information that the cards and account information are
possessed unlawfully.” 943 F. Supp. 2d at 1281. Noting the Supreme Court’s decision in Rakas
v. Illinois, in which the Supreme Court “reasoned that society is not prepared to recognize as
reasonable an expectation of privacy in a burglar robbing a summer cabin during the offseason,”
the Court concluded that society would not recognize “as reasonable a privacy expectation which,
at least in contemporary society, would benefit only criminals.” United States v. Alabi, 943 F.
Supp. 2d at 1287.

- 46 Appx. B - 046

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 47 of 97

3.

Search Warrants Require Probable Cause.

“The Supreme Court requires that a magistrate judge be provided information sufficient to
determine the existence of probable cause before he or she issues a warrant.” United States v.
Romero, 743 F. Supp. 2d at 1302 (citing Illinois v. Gates, 462 U.S. 213, 239 (1983)). Probable
cause requires “more than mere suspicion but less evidence than is necessary to convict.” United
States v. Burns, 624 F.2d 95, 99 (10th Cir. 1980). To establish probable cause to justify a search
of a home, an affidavit in support of a search warrant “must contain facts sufficient to lead a
prudent person to believe that a search would uncover contraband or evidence of criminal activity.”
United States v. Danhauer, 229 F.3d 1002, 1006 (10th Cir. 2000). “Probable cause undoubtedly
requires a nexus between suspected criminal activity and the place to be searched.” United States
v. Corral-Corral, 899 F.2d 927, 937 (10th Cir. 1990). The task of the magistrate judge issuing the
search warrant
is simply to make a practical, common-sense decision whether, given all the
circumstances set forth in the affidavit before him, including the veracity and basis
of knowledge of persons supplying hearsay information, there is a fair probability
that contraband or evidence of a crime will be found in a particular place.
United States v. Reed, 195 F. App’x 815, 821 (10th Cir. 2006)(unpublished)(internal quotation
marks omitted)(quoting Illinois v. Gates, 462 U.S. at 238). See United States v. Glover, 104 F.3d
1570, 1578 (10th Cir. 1997)(concluding that, in determining whether an affidavit supports a
finding of probable cause, the court must review the affidavit as a whole and look to the totality of
the information contained therein). In making his or her determination, the Magistrate Judge “may
draw reasonable inferences from the material provided in the warrant application.” United States
v. Rowland, 145 F.3d at 1205.

- 47 Appx. B - 047

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 48 of 97

“A reviewing court should accord great deference to a magistrate’s determination of
probable cause . . . .” United States v. Reed, 195 F. App’x at 822. The court’s duty is “simply to
ensure that the magistrate had a ‘substantial basis for . . . conclud[ing]’ that probable cause
existed.” Illinois v. Gates, 462 U.S. at 238-39 (alteration in original)(quoting Jones v. United
States, 362 U.S. at 271). This deference is appropriate to further the Fourth Amendment’s strong
preference for warrants. See Massachusetts v. Upton, 466 U.S. 727, 733 (1984); Aguilar v. Texas,
378 U.S. 108, 110-11 (1964)(“An evaluation of the constitutionality of a search warrant should
begin with the rule ‘that the informed and deliberate determinations of magistrates empowered to
issue warrants . . . are to be preferred over the hurried action of officers . . . .’” (quoting United
States v. Lefkowitz, 285 U.S. 452, 464 (1932)). Because of the strong preference for warrants, “in
a doubtful or marginal case a search under a warrant may be sustainable where without one it
would fall.” United States v. Ventresca, 380 U.S. 102, 106 (1965).
“The deference accorded a magistrate judge’s probable cause determination, however, is
not boundless.” United States v. Alabi, 943 F. Supp. 2d at 1253-54 (citing United States v. Leon,
468 U.S. 897, 914 (1984)). “The court should not defer to a magistrate judge’s probable-cause
determination where there is no substantial basis for concluding that the affidavit in support of the
warrant established probable cause.” United States v. Sedillo, 297 F. Supp. 3d 1155, 1180 (D.N.M.
2017)(Browning, J.)(citing United States v. Danhauer, 229 F.3d at 1006). Specifically, the court
should not defer to a Magistrate Judge’s “probable cause determination if it is a mere ratification
of the bare conclusions or ‘hunches’ of others or where it involves an improper analysis of the
totality of the circumstances.” United States v. Reed, 195 F. App’x at 822 (citing United States v.

- 48 Appx. B - 048

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 49 of 97

Leon, 468 U.S. at 915; Massachusetts v. Upton, 466 U.S. at 734; Illinois v. Gates, 462 U.S. at
239).
RELEVANT LAW ON THE EXCLUSIONARY RULE
When evidence is obtained in violation of a person’s rights under the Fourth or Fifth
Amendments to the Constitution of the United States, the government will generally be prohibited
from using that evidence in a criminal prosecution against that person. See Sanchez-Llamas v.
Oregon, 548 U.S. 331, 348 (2006)(“We have applied the exclusionary rule primarily to deter
constitutional violations. In particular, we have ruled that the Constitution requires the exclusion
of evidence obtained by certain violations of the Fourth Amendment, and confessions exacted by
police in violation of the right against compelled self-incrimination or due process.” (citations
omitted)); United States v. Calandra, 414 U.S. at 347 (“Under this rule, evidence obtained in
violation of the Fourth Amendment cannot be used in a criminal proceeding against the victim of
the illegal search and seizure.”). “For the exclusionary rule to apply, the defendant must show, by
a preponderance of the evidence: a constitutional violation, and a causal nexus between the
violation and the evidence sought to be excluded.” United States v. Villaba, No. CR 13-0664,
2013 WL 4782206, at *27 (D.N.M. Aug. 21, 2013)(Browning, J.)(citing United States v. TorresCastro, 470 F.3d 992, 999 (10th Cir. 2006)). Once the defendant makes this showing, if the
prosecutor still desires to proffer the challenged evidence, the burden shifts to the prosecution to
establish that an exception to the exclusionary rule applies. See United States v. Torres-Castro,
470 F.3d at 999.8

8

The Court has previously discussed the exclusionary rule in conjunction with the caselaw
that restricts 42 U.S.C. § 1983 claims:

- 49 Appx. B - 049

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 50 of 97

1.

The Good-Faith Exception.

Recognizing that the “sole purpose” of the exclusionary rule “is to deter future Fourth
Amendment violations,” the Supreme Court has held that evidence will not be excluded where the
officer who obtained the evidence -- through an unlawful search or seizure -- acted in good faith.

It seems ironic that the federal courts would restrict a congressionally mandated
remedy for constitutional violations -- presumably the rights of innocent people -and discourage case law development on the civil side -- and restrict case law
development to motions to suppress, which reward only the guilty and is a judicially
created, rather than legislatively created, remedy. Commentators have noted that,
“[o]ver the past three decades, the Supreme Court has drastically limited the
availability of remedies for constitutional violations in” exclusionary rule litigation
in a criminal case, habeas corpus challenges, and civil litigation under § 1983. J.
Marceau, The Fourth Amendment at a Three-Way Stop, 62 Ala. L. Rev. 687, 687
(2011). Some commentators have also encouraged the courts to drop the
suppression remedy and the legislature to provide more -- not less -- civil remedies
for constitutional violations. See Christopher Slobogin, Why Liberals Should
Chuck the Exclusionary Rule, 1999 U. Ill. L. Rev. 363, 390-91 (1999)(“Behavioral
theory suggests that the exclusionary rule is not very effective in scaring police into
behaving . . . . These theories also suggest that a judicially administered damages
regime . . . would fare significantly better at changing behavior at an officer
level.”); Hon. Malcolm R. Wilkey, Constitutional Alternatives to the Exclusionary
Rule, 23 S. Tex. L.J. 531, 539 (1982)(criticizing the exclusionary rule and
recommending alternatives). In Hudson v. Michigan, 547 U.S. 586 (2006), the
Supreme Court noted that civil remedies were a viable alternative to a motion to
suppress when it held that the exclusionary rule was inapplicable to cases in which
police officers violate the Fourth Amendment when they fail to knock and
announce their presence before entering. See 547 U.S. at 596-97. Rather than
being a poor or discouraged means of developing constitutional law, § 1983 seems
the better and preferable alternative to a motion to suppress. It is interesting that
the current Supreme Court and Tenth Circuit appear more willing to suppress
evidence and let criminal defendants go free, than have police pay damages for
violations of innocent citizens’ civil rights. It is odd that the Supreme Court has
not adopted a clearly established prong for suppression claims; it seems strange to
punish society for police violating unclear law in criminal cases, but protect
municipalities from damages in § 1983 cases.
Kerns v. Bd. of Comm’rs of Bernalillo Cty., 888 F. Supp. 2d at 1224 n.36.

- 50 Appx. B - 050

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 51 of 97

United States v. Davis, 564 U.S. 229, 236-37 (2011). To determine whether the good-faith
exception applies, courts must balance the deterrent effect of excluding the evidence against “the
‘substantial social costs’ generated by the rule.” United States v. Davis, 564 U.S. at 237 (quoting
United States v. Leon, 468 U.S. at 907). The Supreme Court has explained that “[t]he basic insight
of the Leon line of cases is that the deterrence benefits of exclusion ‘var[y] with the culpability of
the law enforcement conduct’ at issue.” United States v. Davis, 564 U.S. at 238 (second alteration
in original)(quoting Herring v. United States, 555 U.S. 135, 143 (2009)). Consequently, “[w]hen
the police exhibit ‘deliberate,’ ‘reckless,’ or ‘grossly negligent’ disregard for Fourth Amendment
rights, the deterrent value of exclusion is strong and tends to outweigh the resulting costs.” United
States v. Davis, 564 U.S. at 238 (quoting Herring v. United States, 555 U.S. at 144). By contrast,
“when the police act with an objectively reasonable good-faith belief that their conduct is lawful,
or when their conduct involves only simple, isolated negligence, the deterrence rationale loses
much of its force, and exclusion cannot pay its way.” United States v. Davis, 564 U.S. at 238
(citations and internal quotation marks omitted).
a.

Warrants Based on Illegally Obtained Information.

“When a search is conducted pursuant to a warrant that is based on illegally obtained
information, a court is not to blindly apply the good-faith exception.” United States v. Alabi, 943
F. Supp. 2d at 1260. “Instead, the court is to consider the warrant with the illegally obtained
information excluded and determine, based on the remaining information, whether probable cause
nevertheless existed.” United States v. Alabi, 943 F. Supp. 2d at 1260. If the remaining content
of the warrant affidavit establishes probable cause, the search pursuant to that warrant was
appropriate, and the evidence need not be excluded:

- 51 Appx. B - 051

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 52 of 97

When a warrant is tainted by some unconstitutionally obtained information,
we nonetheless uphold the warrant if there was probable cause absent that
information. “An affidavit containing erroneous or unconstitutionally obtained
information invalidates a warrant if that information was critical to establishing
probable cause. If, however, the affidavit contained sufficient accurate or untainted
evidence, the warrant is nevertheless valid.” United States v. Snow, 919 F.2d 1458,
1460 (10th Cir. 1990).
United States v. Sims, 428 F.3d 945, 954 (10th Cir. 2005)(citation omitted). See United States v.
Cusumano, 83 F.3d 1247, 1250 (10th Cir. 1996)(“In our review, we may disregard allegedly
tainted material in the affidavit and ask whether sufficient facts remain to establish probable
cause.”). “The apparent rationale for this rule is that one officer cannot execute a warrant ‘in good
faith’ if it contains information that he or a fellow officer obtained illegally.” United States v.
Alabi, 943 F. Supp. 2d at 1260 (quoting United States v. Herrera, 444 F.3d 1238, 1249 (10th Cir.
2006)).
b.

United States v. Leon.

In United States v. Leon, the Supreme Court faced the question whether to apply the goodfaith exception when a police officer mistakenly thought probable cause supported a warrant from
which he obtained evidence. See 468 U.S. at 905. The Supreme Court noted that excluding this
evidence would not deter police misconduct. See 468 U.S. at 918-19. The officer had taken all of
the necessary steps to comply with the Fourth Amendment and reasonably thought his warrant,
and, thus, his search, was valid. See 468 U.S. at 918-19. The Supreme Court explained that, when
a warrant is issued on less than probable cause, the person whose conduct the law wishes to deter
is the issuing judge and that excluding the evidence would not have a significantly deterrent effect
on judicial conduct. See 468 U.S. at 916-17. The Supreme Court, thus, concluded that a court
need not suppress evidence seized pursuant to a facially valid warrant which later turns out to lack

- 52 Appx. B - 052

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 53 of 97

probable cause, as long as police were acting in good-faith reliance on that warrant. See 468 U.S.
at 922-23.
“The Tenth Circuit therefore now applies the rule that, in cases where the police obtained
a warrant but the affidavit supporting the warrant does not establish probable cause, suppression
of the evidence found is generally not warranted, so long as the officers relied in good faith on the
warrant.” United States v. Martinez, 696 F. Supp. 2d at 1244 (citing United States v. Tuter, 240
F.3d 1292, 1300 (10th Cir. 2001); United States v. Danhauer, 229 F.3d at 1007).
“[T]he suppression of evidence obtained pursuant to a warrant should be
ordered . . . only in those unusual cases in which exclusion will further the purposes
of the exclusionary rule,” [United States v. Leon, 468 U.S.] at 918 . . . “Where an
officer acting with objective good faith obtains a search warrant from a detached
and neutral magistrate and the executing officers act within its scope, there is
nothing to deter.” United States v. Nolan, 199 F.3d 1180, 1184 (10th Cir. 1999).
United States v. Tuter, 240 F.3d at 1298-99. Furthermore, the Tenth Circuit has explained that,
“[u]nder Leon, we presume good-faith when an officer acts pursuant to a warrant unless one of
‘four contexts’ appl[ies].” United States v. Barajas, 710 F.3d 1102, 1110 (10th Cir. 2013).
First, evidence should be suppressed if the issuing magistrate was misled by an
affidavit containing false information or information that the affiant would have
known was false if not for his “reckless disregard of the truth.” [United States v.
Leon, 468 U.S.] at 923 . . . . Second, the exception does not apply when the
“issuing magistrate wholly abandon[s her] judicial role.” Id. Third, the good-faith
exception does not apply when the affidavit in support of the warrant is “so lacking
in indicia of probable cause as to render official belief in its existence entirely
unreasonable.” Id. (quotation omitted). Fourth, the exception does not apply when
a warrant is so facially deficient that the executing officer could not reasonably
believe it was valid. See id.
United States v. Danhauer, 229 F.3d at 1007 (quoting United States v. Leon, 468 U.S. at 922-23).
See United States v. Perrine, 518 F.3d 1196, 1206-07 (10th Cir. 2008). “If any of these situations

- 53 Appx. B - 053

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 54 of 97

is present, the good-faith exception should not be applied, and the evidence should be excluded.”
United States v. Romero, 743 F. Supp. 2d at 1316.
c.

Herring v. United States.

In Herring v. United States, officers arrested Herring pursuant to an arrest warrant listed in
the Dale County, Alabama, warrant database. See 555 U.S. at 137. In the search incident to that
arrest, officers found drugs and a gun on Herring’s person. See 555 U.S. at 137. Herring was then
indicted on federal gun- and drug-possession charges. See 555 U.S. at 138. It turned out, however,
that the warrant under which the officers arrested Herring had been recalled, but the database had
not been updated to reflect that recall. See 555 U.S. at 138. Asserting that the evidence found
during the search was fruit of an unlawful arrest, Herring sought to suppress it. See 555 U.S. at
138. The district court denied Herring’s motion to suppress, and the United States Court of
Appeals for the Eleventh Circuit affirmed. See 555 U.S. at 138.
The Supreme Court affirmed the Eleventh Circuit’s affirmation of the district court’s denial
of Herring’s motion to suppress, based primarily on the good-faith exception to the exclusionary
rule. See 555 U.S. at 140-46. The Supreme Court agreed with the Eleventh Circuit that, although
the police’s failure to update the warrant database to reflect that Herring’s warrant was withdrawn
was negligent, it was not reckless or deliberate. See 555 U.S. at 140. The Supreme Court reiterated
its holding in United States v. Leon: “When police act under a warrant that is invalid for lack of
probable cause, the exclusionary rule does not apply if the police acted ‘in objectively reasonable
reliance’ on the subsequently invalidated search warrant.” Herring v. United States, 555 U.S. at
142 (quoting United States v. Leon, 468 U.S. at 922). Tracing the history of cases applying and
declining to apply the exclusionary rule, the Supreme Court distilled a general principle: “To

- 54 Appx. B - 054

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 55 of 97

trigger the exclusionary rule, police conduct must be sufficiently deliberate that exclusion can
meaningfully deter it, and sufficiently culpable that such deterrence is worth the price paid by the
justice system.” Herring v. United States, 555 U.S. at 144. The Supreme Court further explained
that “evidence should be suppressed only if it can be said that the law enforcement officer had
knowledge, or may properly be charged with knowledge, that the search was unconstitutional.”
Herring v. United States, 555 U.S. at 143 (internal quotation marks omitted)(quoting Illinois v.
Krull, 480 U.S. 340, 348-49 (1987)). As long as the “police have [not] been shown to be reckless
in maintaining [the] warrant system, or to have knowingly made false entries to lay the groundwork
for future false arrests,” exclusion of evidence is not warranted when the arrest was made on
objectively reasonable reliance on a warrant that had been subsequently recalled. Herring v.
United States, 555 U.S. at 146.
d.

Davis v. United States.

In Davis v. United States, the Supreme Court confronted the question whether to apply the
exclusionary rule when police conduct a search in objectively reasonable reliance on binding
judicial precedent. See 564 U.S. at 239. At the time of the officer’s search, the Supreme Court
had not yet decided Arizona v. Gant, 556 U.S. 332 (2009) -- which held that the Fourth
Amendment requires officers to demonstrate a continuing threat to their safety posed by the
arrestee or a need to preserve evidence related to the crime of the arrest to justify a warrantless
vehicular search incident to arrest. See Arizona v. Gant, 556 U.S. at 341-48. The Eleventh Circuit
had interpreted the Supreme Court’s decision in New York v. Belton, 453 U.S. 454 (1981), as
establishing a bright-line rule authorizing the search of a vehicle’s passenger compartment incident
to a recent occupant’s arrest. See United States v. Gonzalez, 71 F.3d 819, 825 (11th Cir. 1996).

- 55 Appx. B - 055

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 56 of 97

Although the officers’ search incident to the defendant’s arrest “was in strict compliance with thenbinding Circuit law and was not culpable in any way,” it was unconstitutional under Arizona v.
Gant. United States v. Davis, 564 U.S. at 239-40.
The Supreme Court determined that the “acknowledged absence of police culpability
dooms [the defendant’s] claim.” United States v. Davis, 564 U.S. at 240. The Supreme Court
explained that “[p]olice practices trigger the harsh sanction of exclusion only when they are
deliberate enough to yield meaningful deterrence, and culpable enough to be worth the price paid
by the justice system.” United States v. Davis, 564 U.S. at 240 (citation and internal quotation
marks omitted). The Supreme Court stated: “The conduct of the officers here was neither of these
things. The officers who conducted the search did not violate [the defendant’s] Fourth Amendment
rights deliberately, recklessly, or with gross negligence. Nor does this case involve any recurring
or systemic negligence on the part of law enforcement.” United States v. Davis, 564 U.S. at 240
(citation and internal quotation marks omitted). The Supreme Court concluded that, “[u]nless the
exclusionary rule is to become a strict-liability regime, it can have no application in this case.”
United States v. Davis, 564 U.S. at 240.
2.

The Inevitable-Discovery Exception.

Under the inevitable-discovery exception, “illegally obtained evidence may be admitted if
it ‘ultimately or inevitably would have been discovered by lawful means.’” United States v.
Christy, 739 F.3d 534, 540 (10th Cir. 2014)(quoting Nix v. Williams, 467 U.S. 431, 444 (1984)).
“The government possesses the burden of proving by a preponderance of the evidence that the
evidence at issue would have been discovered without the Fourth Amendment violation.” United
States v. Cunningham, 413 F.3d 1199, 1203 (10th Cir. 2005). In United States v. Owens, 782 F.2d

- 56 Appx. B - 056

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 57 of 97

146 (10th Cir. 1986), the Tenth Circuit noted that, for the inevitable-discovery exception to apply,
there must be a “lawful police investigation [that] inevitably would have discovered” the evidence
in question. 782 F.2d at 152. Relying on this statement from United States v. Owens, the Court
stated in United States v. Christy, 810 F. Supp. 2d 1219 (D.N.M. 2011)(Browning, J.), aff’d, 739
F.3d 534 (10th Cir. 2014), that the inevitable-discovery exception “permits evidence to be admitted
if an independent, lawful police investigation inevitably would have discovered it.” 810 F.
Supp. 2d at 1274 (citations and internal quotation marks omitted). On appeal, however, the Tenth
Circuit clarified that the inevitable-discovery exception does not require an independent
investigation that would have discovered the evidence in question. See United States v. Christy,
739 F.3d at 540. The Tenth Circuit explained:
In Cunningham and [United States v. Souza, 223 F.3d 1197 (10th Cir.
2000,] we applied inevitable discovery to situations like the one here -- where there
was “one line of investigation that would have led inevitably to the obtaining of a
search warrant by independent lawful means but was halted prematurely by a search
subsequently contended to be illegal.” Cunningham, 413 F.3d at 1204 n.1. In
Cunningham, police searched the defendant’s home after getting his consent. Id.
at 1202. The defendant later contested the search, claiming his consent was
coerced. Id. We held that even if the search was illegal, the evidence was
admissible because the officers “would have obtained a search warrant” if the
search had not occurred. Id. at 1205. In Souza, police illegally opened a UPS
package that contained drugs. 223 F.3d at 1200, 1202. We held the evidence
admissible under inevitable discovery because the officers “would have obtained a
warrant” had the illegal search not occurred. Id. at 1206. Thus, our case law does
not require a second investigation when the first (and only) investigation would
inevitably have discovered the contested evidence by lawful means.
....
Thus, lest there be any doubt, we reaffirm the notion that inevitable
discovery requires only that the lawful means of discovery be “independent of the
constitutional violation,” [United States v.] Larsen, 127 F.3d [984,] 987 [(10th Cir.
1997)], and conclude that a second investigation is not required.
United States v. Christy, 739 F.3d at 540-41.

- 57 Appx. B - 057

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 58 of 97

In United States v. Souza, the Tenth Circuit “set forth the standard for considering whether
the inevitable discovery doctrine applies to a warrantless search,” United States v. Cunningham,
413 F.3d at 1203, when “there is no exception to the warrant requirement that could serve as a
basis for the inevitable discovery exception,” United States v. Souza, 223 F.3d at 1203. The Tenth
Circuit stated that “a court may apply the inevitable discovery exception only when it has a high
level of confidence that the warrant in fact would have been issued and that the specific evidence
in question would have been obtained by lawful means.” United States v. Souza, 223 F.3d at 1205.
The Tenth Circuit adopted four factors to determine “how likely it is that a warrant would have
been issued and that the evidence would have been found pursuant to a warrant”:
1) “the extent to which the warrant process has been completed at the time those
seeking the warrant learn of the search”; 2) the strength of the showing of probable
cause at the time the search occurred; 3) whether a warrant ultimately was obtained,
albeit after the illegal entry; and 4) “evidence that law enforcement agents ‘jumped
the gun’ because they lacked confidence in their showing of probable cause and
wanted to force the issue by creating a fait accompli.”
United States v. Souza, 223 F.3d at 1204 (citations omitted)(quoting United States v. Cabassa, 62
F.3d 470, 473-74, 473 n.2 (2d Cir. 1995)). Applying the first factor, the Tenth Circuit stated:
[T]he prerequisite to a consideration of the inevitable discovery exception in these
cases, steps taken to obtain a warrant prior to the unlawful search, is present in this
case. Special Agent Rowden took steps to alert his office that he would be coming
back to prepare a warrant for the package and made sure that the affidavit form
would be ready when he got back to his office. Also, the package was specifically
placed on the floor behind Detective Sloan for the purpose of obtaining a warrant.
United States v. Souza, 223 F.3d at 1205. Regarding the second factor, the Tenth Circuit stated:
[A]t the time the illegal search occurred, probable cause to believe the package
contained contraband was extremely strong. The package itself contained several
suspicious characteristics, including all of the openings on the box being heavily
taped, the box having been sent through third party shipping, the sender having only
used a first name, and the box being solid so that no side of it could be compressed.

- 58 Appx. B - 058

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 59 of 97

Moreover, the box was alerted to by a certified narcotics dog, which is itself
sufficient to create probable cause.
United States v. Souza, 223 F.3d at 1205-06. The Tenth Circuit noted that a sergeant eventually
obtained a search warrant. See United States v. Souza, 223 F.3d at 1206. Regarding the third
factor, the Tenth Circuit stated that, unlike “Cabassa, there is no question . . . concerning the
inevitability of discovery of the evidence if the police had obtained a search warrant because the
package was secured by the officers and there was no chance that it would not still be there when
the warrant actually was issued.” United States v. Souza, 223 F.3d at 1206. The Tenth Circuit did
not reach the fourth factor, but concluded that, although it was
very reluctant to apply the inevitable discovery exception in situations where the
government fails to obtain a search warrant and no exception to the warrant
requirement exists, in this case the inevitability of discovery of the evidence
convince[d] [it] that [the case before it was] one of those occasions when the
doctrine should apply.
United States v. Souza, 223 F.3d at 1206.
In United States v. Owens, the Tenth Circuit emphasized the “danger of admitting
unlawfully obtained evidence on the strength of some judge’s speculation that it would have been
discovered legally anyway.” 782 F.2d at 152-53 (internal quotation marks omitted)(quoting
United States v. Romero, 692 F.2d 699, 704 (10th Cir. 1982)). The Tenth Circuit considered
whether contraband seized without a warrant could still be admitted under the inevitable-discovery
doctrine. See United States v. Owens, 782 F.2d at 152-53. Rejecting the United States’ position
that the motel maids’ routine cleaning of the defendant’s room for the next occupant would have
revealed the contraband and that, therefore, discovery of the evidence was inevitable, the Tenth
Circuit concluded:

- 59 Appx. B - 059

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 60 of 97

Several factors suggest that motel employees performing routine cleaning may not
have inevitably discovered the cocaine. First, if the [motel]’s staff had cleared [the
defendant’s] room, they would not necessarily have opened and searched all his
luggage and closed containers. In fact, such an intrusion would have been a
significant invasion of his privacy. Second, even if the room had been cleared and
the white powder inside the closed bag had been discovered by the motel staff, the
lack of any police involvement in routine room cleanings suggests that police
discovery of the evidence would not have been inevitable. The evidence certainly
does not demonstrate that the [motel]’s staff would necessarily have recognized the
powder as cocaine or have called the police if they had so recognized it. Finally,
absent the unlawful search, [the defendant] might have posted bail on the charge of
receiving stolen property and could have returned to his motel room before either
the cleaning staff or the police discovered the contraband. Alternatively, a friend
could have returned to claim the closed bag.
782 F.2d at 153. “United States v. Owens suggests that courts should be realistic, if not skeptical,
when assessing the probability that law-enforcement officers would inevitably have uncovered the
challenged evidence through an independent investigation.” United States v. Martinez, 696
F. Supp. 2d at 1244.
In United States v. Cunningham, the Tenth Circuit “appl[ied] the inevitable discovery
doctrine . . . because [it was] convinced that without Mr. Cunningham’s disputed consent, the
warrant to search his house would have been issued and the incriminating evidence would have
been discovered.” 413 F.3d at 1205. The Tenth Circuit, in addressing the first factor -- the extent
to which the warrant process had been completed at the time those seeking the warrant learn of the
search -- stated:
Here, the officers took substantial steps to obtain a warrant before the contested
search occurred. The record demonstrates that they had focused their investigation
on 1175 and 1179 East 76th Terrace, and had drafted an affidavit to support a search
warrant for one of these homes. As a result of their conversation with the [assistant
United States attorney], the officers decided that further surveillance on the two
homes was necessary before they specifically selected one to search, and they
proceeded to conduct that surveillance immediately. The officers’ actions clearly
indicate they took steps to obtain a search warrant and that they intended to obtain
the warrant for either 1175 or 1179 East 76th Terrace as soon as possible.

- 60 Appx. B - 060

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 61 of 97

413 F.3d at 1204. Regarding the second factor -- the strength of the showing of probable cause at
the time the search occurred -- the Tenth Circuit stated:
The officers also possessed strong probable cause for their search of 1179
East 76th Terrace by the time Mr. Cunningham arrived at the home. Prior to that
time, they had acquired background information about the alleged check-writing
ring, narrowed their investigation to one residential block, and focused on the two
homes sharing a common driveway. The officers’ surveillance had uncovered the
following additional information: a red car containing two individuals identified
earlier in the investigation arrived, parked briefly, and then pulled out from behind
1179 East 76th Terrace; a black pickup truck previously observed in the
investigation was stopped containing Mr. Cunningham, who said that he lived at
1179 East 76th Terrace; the residents of 1175 East 76th Terrace told officers that
the home next door had been receiving all of the traffic that evening, and the officers
ruled out 1175 East 76th Terrace as the location visited by the alleged check
supplier; and a gray Blazer previously observed in the investigation was seen
parked by 1179 East 76th Terrace. The government thus had sufficient probable
cause for a search of 1179 East 76th Terrace at the time of Mr. Cunningham’s
disputed consent to search his home.
United States v. Cunningham, 413 F.3d at 1204-05. Regarding the third factor -- whether a warrant
ultimately was obtained, albeit after the illegal entry -- the Tenth Circuit stated: “Moreover, the
officers ultimately did obtain a warrant, albeit based in part on information retrieved from inside
Mr. Cunningham’s home.” 413 F.3d at 1205. Regarding the fourth factor -- evidence that the
officers “jumped the gun,” because they lacked confidence in their showing of probable cause and
wanted to force the issue by creating a fait accompli -- the Tenth Circuit stated:
There is also no evidence the officers “jumped the gun” due to a lack of confidence
about probable cause and out of a desire to force the issue. [United States v. Souza,
223 F.3d] at 1204. Instead, the record indicates that the search occurred at the time
it did because of the coincidental arrival of Mrs. Cunningham. Her presence on the
scene led to a series of events that culminated in her son’s release from jail, his
return home, and his consent to search. As a result, we are satisfied the government
has demonstrated that, as in Souza, but for Mrs. Cunningham’s arrival at 1179 East
76th Terrace on the evening of the search, the officers would have obtained a search
warrant and the evidence in question would have been found. Id. at 1205.

- 61 Appx. B - 061

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 62 of 97

United States v. Cunningham, 413 F.3d at 1205 (citations omitted). The Tenth Circuit, therefore,
applied the inevitable-discovery doctrine. See 413 F.3d at 1205.
In United States v. Christy, the Court applied the four United States v. Souza factors and
determined that the inevitable-discovery exception applied. See 810 F. Supp. 2d at 1275-79.
Regarding the first factor -- the extent to which the warrant process had been completed at the time
those seeking the warrant learn of the search -- the Court stated: “The deputies did not take any
steps to obtain a warrant before entering Christy’s residence. The United States concedes that they
did not attempt to obtain a warrant before entering Christy’s residence. . . . This factor thus weighs
against applying the inevitable discovery exception.” 810 F. Supp. 2d at 1275 (citations omitted).
As to the second factor -- the strength of the showing of probable cause at the time the search
occurred -- the Court concluded:
The Court finds that Carvo had strong probable cause that Christy
committed crimes. At the time of the search, Carvo believed he had probable cause
for the California crime of unlawful sexual intercourse, because Christy and K.Y.
exchanged naked pictures through electronic mail transmissions over the internet
and then arranged a meeting in the middle of the night for K.Y. to run away with
Christy.
....
Because Carvo knew that K.Y. and Christy were exchanging naked pictures, “the
belief that there was a sexual relationship or sexual interest between the two was
reasonable.” These circumstances are sufficient to form “a reasonable ground for
belief of [Christy’s] guilt,” for the California crime of unlawful sexual intercourse.
Maryland v. Pringle, 540 U.S. 366, 371 . . . (2003)(citation omitted), for the
California crime of unlawful sexual intercourse.
Carvo also had strong probable cause for the federal crime of coercion or
enticement. Carvo believed that he had probable cause for the federal crime of
enticement or coercion, because of Christy’s and K.Y.’s communications through
the internet and electronic mail transmissions, because Christy sent K.Y. naked
pictures of himself and solicited pictures of K.Y., which showed her breasts, and

- 62 Appx. B - 062

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 63 of 97

because cellular telephone evidence shows that Christy traveled across state lines
to bring K.Y. to New Mexico.
....
Because Carvo knew that Christy and K.Y. communicated through electronic mail
transmissions, that Christy sent K.Y. naked pictures of himself and solicited
pictures of K.Y., because evidence showed that Christy traveled across state lines
with K.Y., and because Carvo had strong probable cause that Christy committed
the California crime of unlawful sexual intercourse, Carvo had “a reasonable
ground for belief of [Christy’s] guilt,” Maryland v. Pringle, 540 U.S. 366,
371 . . . (2003)(citation omitted), for the federal crime of coercion or enticement.
Because Carvo had strong probable cause for the California crime of unlawful
sexual intercourse and for the federal crime of enticement or coercion, this factor
weighs in favor of application of the inevitable discovery doctrine.
United States v. Christy, 810 F. Supp. 2d at 1276-78 (brackets in original)(citations to record and
footnote omitted). Regarding the third factor, -- whether a warrant ultimately was obtained, albeit
after the illegal entry -- the Court held:
The deputies “ultimately did obtain a warrant, albeit based in part on
information retrieved” from Littlefield’s actions of peering through a crack in the
blinds in Christy’s window, and from the deputies’ entry into Christy’s residence
and subsequent interview of Christy. United States v. Cunningham, 413 F.3d at
1205. Although portions of the affidavits supporting the warrants were based on
information the Court has found illegally obtained, the affidavits also included
information from the California investigation. Although the Tenth Circuit appears
to rely on illegally obtained information in its inevitable discovery analysis, the
Court does not believe that it can do so. Carvo had strong probable cause that
Christy committed California and federal crimes, and Carvo’s probable cause was
based on his investigation, and not on any information he learned from the BCSO
or from the Albuquerque FBI. Because Carvo had strong probable cause for a
California crime and a federal crime, based on information that he learned in his
investigation, and not based on information he learned from the BCSO or from the
Albuquerque FBI, Carvo would have obtained search warrants that were not based
on illegally obtained information. Based upon Carvo’s belief that he had probable
cause for both violations of California state law and violations of federal law, he
would “have asked [BCSO] and/or -- either one -- the FBI to obtain a search warrant
for [Christy’s] Albuquerque residence, vehicle, computers, cell phones, things of
that nature.” If the BCSO or Albuquerque FBI were not able to obtain a search
warrant for these locations, Carvo would have written a federal search warrant
himself and come to the District of New Mexico to seek the warrant with himself

- 63 Appx. B - 063

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 64 of 97

as the affiant. Carvo is cross designated to acquire both state and federal search
warrants. This factor thus weighs in favor of application of the inevitable-discovery
doctrine.
United States v. Christy, 810 F. Supp. at 1278-79 (second and third alterations in original)(citations
omitted). As to the fourth factor -- the existence of evidence that the officers jumped the gun,
because they lacked confidence in their showing of probable cause and wanted to force the issue
by creating a fait accompli -- the Court determined:
There is “no evidence that the officers ‘jumped the gun’ due to a lack of
confidence about probable cause and out of a desire to force the issue.” United
States v. Cunningham, 413 F.3d at 1205. The record indicates that the search
occurred when it did because the deputies believed that they had exigent
circumstances to enter Christy’s residence. This factor thus weighs in favor of
application of the inevitable discovery doctrine.
United States v. Christy, 810 F. Supp. 2d at 1279. Consequently, the Court applied the inevitablediscovery doctrine. See 810 F. Supp. 2d at 1279.
On appeal, the Tenth Circuit affirmed the Court’s decision. See 739 F.3d at 539-44.
Addressing the United States v. Souza factors, the Tenth Circuit noted that the defendant
challenged the Court’s ruling only on factors two and four -- the strength of the probable cause
showing when the unlawful search occurred and whether the officers “‘jumped the gun’ to sidestep
the warrant requirement.” United States v. Christy, 739 F.3d at 541 (quoting Opening Brief of
Appellant at 24, United States v. Christy, 739 F.3d 534 (10th Cir. 2014)(No. 12-2127)). Regarding
the second factor -- the strength of the showing of probable cause at the time the unlawful search
occurred -- the Tenth Circuit stated:
The district court found that Officer Carvo knew that K.Y. was a minor,
there was a large age difference between her and Mr. Christy, the two exchanged
sexually explicit pictures, and that Mr. Christy traveled across state lines with K.Y.
Given those factual findings, it is a reasonable inference that a sexual relationship
existed between Mr. Christy and K.Y. Officer Carvo also knew that K.Y. was

- 64 Appx. B - 064

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 65 of 97

potentially suicidal, had left her depression medication behind, and ran away from
home with Mr. Christy. Based on that knowledge, Officer Carvo’s belief that K.Y.
was at risk for sexual victimization and assault was reasonable. Thus, Officer
Carvo had reasonable grounds to believe that Mr. Christy engaged in sexual activity
in violation of California law and coerced or enticed K.Y. to travel across state lines
to engage in criminal sexual activity in violation of federal law. The district court
was correct in weighing this factor in favor of applying inevitable discovery.
United States v. Christy, 739 F.3d at 542 (citations omitted). Analyzing the fourth factor -evidence that the officers jumped the gun because they lacked confidence in their showing of
probable cause and wanted to force the issue by creating a fait accompli -- the Tenth Circuit
explained:
Mr. Christy argues that the deputies “jumped the gun” by forcing entry into his
home due to their lack of confidence about probable cause. Yet as the district court
found, no evidence supports the theory that the deputies forced entry for that reason.
Instead, the deputies forced entry because they believed K.Y. was in danger.
Mr. Christy argues that the search was not in fact justified by exigent circumstances
and points to the district court’s conclusion that it was not. But that is beside the
point. The record fully supports the reasonableness of the deputies’ assessment of
danger. The district court was correct in weighing this factor in favor of the
government.
United States v. Christy, 739 F.3d at 543 (citations omitted). The Tenth Circuit concluded,
therefore, that the Court properly applied the United States v. Souza factors. See 739 F.3d at 542.
3.

The Independent-Source Exception.

If the information found during an “unconstitutional search . . . [is] used to obtain [a]
search warrant,” then “evidence seized during the later search conducted pursuant to [the] warrant
would be inadmissible as fruit of the poisonous tree.” United States v. Hatfield, 333 F.3d at 1194
(citing Murray v. United States, 487 U.S. 533, 542-44 (1988)). When determining whether
evidence is fruit of the poisonous tree, a court is to consider whether the evidence was “come at
by exploitation of [the initial] illegality or instead by means sufficiently distinguishable to be

- 65 Appx. B - 065

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 66 of 97

purged of the primary taint.” Segura v. United States, 468 U.S. 796, 804-05 (1984)(internal
quotation marks omitted)(alteration in original)(quoting Wong Sun v. United States, 371 U.S. at
488). Under the independent-source doctrine, evidence that is obtained based upon information
unrelated to an unlawful search is not fruit of the poisonous tree. See Segura v. United States, 468
U.S. at 799 (citing Silverthorne Lumber Co. v. United States, 251 U.S. 385 (1920)). Evidence
therefore need not be excluded under the fruit-of-the-poisonous-tree doctrine if there is an
independent source for discovery of the challenged evidence. See Segura v. United States, 468
U.S.at 805. “The government bears the burden of showing, by a preponderance of the evidence,
that there is truly an independent source for the challenged evidence.” United States v. Forbes,
528 F.3d 1273, 1279 (10th Cir. 2008)(citing United States v. Lin Lyn Trading, Ltd., 149 F.3d 1112,
1116 (10th Cir. 1998)).
In Segura v. United States and Murray v. United States, the Supreme Court considered the
operation of the independent-source doctrine in situations where a search warrant is obtained
subsequent to an unlawful search. In Segura v. United States, police unlawfully entered an
apartment and spotted drug-trafficking paraphernalia in plain view. See 468 U.S. at 801. A
warrant was later obtained, based upon information that the police had known before the entry and
executed at the apartment. See 468 U.S. at 801. In the meantime, police stayed in the apartment
to preserve the scene. See 468 U.S. at 801. Pursuant to the warrant, they later seized the
paraphernalia, as well as cocaine, cash, ammunition, and records of drug transactions, none of
which had been observed during the unlawful search. See 468 U.S. at 801. Before the Supreme
Court was the question whether the evidence that was not in plain view during the unlawful entry
should be suppressed. See 468 U.S. at 802 & n.4.

- 66 Appx. B - 066

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 67 of 97

The Supreme Court held that, because the warrant was based on information obtained
before the search, the evidence seized was from an independent source and was not fruit of the
poisonous tree. See 468 U.S. at 813-14. Thus, whether the entry and occupation of the apartment
was unlawful was “irrelevant to the admissibility of the challenged evidence,” because of the
independent source for the warrant. 468 U.S. at 813. Finding any connection between the unlawful
entry and the seizure under the warrant to be sufficiently attenuated, the Supreme Court rejected
the argument that the police occupation led to the seizure, because the evidence might otherwise
have been destroyed. See 468 U.S. at 815-16.
Segura v. United States was limited to situations where the challenged evidence was not in
plain view during an unlawful search. Murray v. United States addressed this question that Segura
v. United States left open: whether the independent-source doctrine was available for evidence
observed in plain view during an unlawful search. See 487 U.S. at 535. The Supreme Court held
that the doctrine also applied to evidence in plain view. See 487 U.S. at 540-41.
Murray v. United States dealt with a situation in which federal law enforcement obtained
a warrant for a warehouse after illegally forcing entry to that warehouse. See 487 U.S. at 535-36.
Based upon tips from informants, federal agents began surveillance of several defendants. See 487
U.S. at 535. Agents observed two of the defendants entering and then leaving a warehouse, one
driving a camper and the other driving a truck. See 487 U.S. at 535. When the defendants left the
warehouse, the agents saw two individuals and a tractor-trailer rig with a long container inside.
See 487 U.S. at 535. Several other drivers drove the camper and the truck, and ultimately the
vehicles were lawfully stopped and found to contain marijuana. See 487 U.S. at 535. After hearing
of the marijuana in the vehicles, agents entered the warehouse and saw numerous burlap-wrapped

- 67 Appx. B - 067

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 68 of 97

bales in plain view. See 487 U.S. at 535. The agents left and did not reenter the warehouse until
later. See 487 U.S. at 535. They obtained a warrant, without mentioning the entry or relying upon
any observations from that entry, and seized the bales, which contained marijuana. See 487 U.S.
at 535.
The Supreme Court stated that “reseizure of tangible evidence already seized” could be
allowed in the right circumstances. 487 U.S. at 542. “So long as a later, lawful seizure is genuinely
independent of an earlier, tainted one . . . there is no reason why the independent source doctrine
should not apply.” 487 U.S. at 542. A source for a warrant would not be genuinely independent
“if the agents’ decision to seek the warrant was prompted by what they had seen during the initial
entry, or if information obtained during that entry was presented to the Magistrate and affected his
decision to issue the warrant.” 487 U.S. at 542 (footnote omitted). Although the district court had
made factual findings that the unlawful entry was not revealed to the magistrate judge and that the
agents did not rely on any observations from the entry in applying for a warrant, the record
contained no findings whether the agents would have sought a warrant absent the entry and so the
Supreme Court ultimately remanded for a determination in the district court regarding the
independent-source doctrine’s applicability. See 487 U.S. at 543-44.
“A source is genuinely independent if the government can show that the evidence was
obtained by ‘means sufficiently distinguishable to be purged of the primary taint.’” United States
v. Forbes, 528 F.3d at 1278 (quoting Wong Sun v. United States, 371 U.S. at 488). “By contrast,
a source is not independent if, ‘granting establishment of the primary illegality, [the evidence has]
been come at by the exploitation of the illegality.’” United States v. Forbes, 528 F.3d at 1278
(alteration in original)(quoting Wong Sun v. United States, 371 U.S. at 488). To be an independent

- 68 Appx. B - 068

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 69 of 97

source, the source does not need to be temporally distinct from an unlawful search: “It was of no
moment that [an illegal search and a lawful independent source] all occurred as part of one brief,
uninterrupted sequence of events. Rather, it was enough that a genuinely independent source of
the evidence” justify a search. United States v. Forbes, 528 F.3d at 1279.
In support of this principle, the Tenth Circuit has approvingly discussed United States v.
Moore, 329 F.3d 399 (5th Cir. 2003). In that case, police allegedly unlawfully arrested a motorist
and then conducted a canine search of the vehicle’s exterior, leading to the discovery of drugs in
the trunk. See United States v. Forbes, 528 F.3d at 1279 (discussing United States v. Moore, 329
F.3d at 404-05). Despite the closeness of the events, the United States Court of Appeals for the
Fifth Circuit held that the canine search, which was legal in the circumstances regardless of the
arrest’s legality, was an independent source and thus the drugs found in the trunk were not subject
to suppression. See United States v. Forbes, 528 F.3d at 1279 (discussing United States v. Moore,
329 F.3d at 404-05). Following United States v. Moore, the Tenth Circuit has held that, although
officers may have unlawfully searched the trailer of a tractor-trailer rig, a near-simultaneous lawful
canine search that revealed drugs in the cab of the rig was an independent source. See United
States v. Forbes, 528 F.3d at 1280.
LAW REGARDING EXIGENT CIRCUMSTANCES
Exigent circumstances may overcome “[t]he presumption of unconstitutionality for
warrantless searches.” United States v. Mongold, 528 F. App’x at 948. Exigencies may arise from
threats to a person’s physical safety, the likely destruction of evidence, and the “hot pursuit,”
United States v. Mongold, 528 F. App’x at 948 (quoting Kentucky v. King, 563 U.S. at 460), of
suspects, see United States v. Mongold, 528 F. App’x at 948 (citing Kentucky v. King, 563 U.S.

- 69 Appx. B - 069

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 70 of 97

at 460). In such situations, “the exigencies . . . make the needs of law enforcement so compelling
that [a] warrantless search is objectively reasonable under the Fourth Amendment.” United States
v. Mongold, 528 F. App’x at 948 (internal quotation marks omitted)(alteration in original)(quoting
Kentucky v. King, 563 U.S. at 460, and citing United States v. Martinez, 643 F.3d 1292, 1296
(10th Cir. 2011)).
“The existence of exigent circumstances is a mixed question of law and fact.” United
States v. Martinez, 643 F.3d at 1296 (quoting United States v. Anderson, 981 F.2d 1560, 1567
(10th Cir. 1992)). “The government bears the burden of proving that exigent circumstances
rendered a warrantless search reasonable.” United States v. Martinez, 643 F.3d at 1296 (citing
United States v. Anderson, 154 F.3d at 1233). “[W]hen the exception must justify the warrantless
entry of a home,” the government’s burden is “especially heavy.” United States v. Martinez, 643
F.3d at 1296 (quoting United States v. Najar, 451 F.3d 710, 717 (10th Cir. 2006)).
When an exigency involves a “risk of personal danger,” United States v. Najar, 451 F.3d
710, 718 (10th Cir. 2006), the Tenth Circuit requires that the government satisfy a two-part test:
“(1) the officers have an objectively reasonable basis to believe there is an immediate need to
protect the lives or safety of themselves or others, and (2) the manner and scope of the search is
reasonable,” United States v. Martinez, 643 F.3d at 1296 (internal quotation marks
omitted)(quoting United States v. Najar, 451 F.3d at 718). The Tenth Circuit adopted this test after
the Supreme Court, in Brigham City v. Stuart, 547 U.S. 398, 406-07 (2006), held officers’
subjective motivations irrelevant and probable cause unnecessary for the emergency-aid exception.
See United States v. Najar, 451 F.3d at 718. This holding upturned the Tenth Circuit’s earlier
three-part test, which required that “the search must not be motivated by an intent to arrest or seize

- 70 Appx. B - 070

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 71 of 97

evidence,” and that “there must be some reasonable basis, approaching probable cause, to associate
the emergency with the place to be searched.” United States v. Najar, 451 F.3d at 718 (United
States v. Thomas, 372 F.3d 1173, 1177 (10th Cir. 2004)). Accordingly, now, to satisfy “[t]he
emergency aid exception,” the government must demonstrate “‘an objectively reasonable basis for
believing that a person within the house is in need of immediate aid,’ not on an officer’s subjective
belief.” United States v. Martinez, 643 F.3d at 1296 (quoting Michigan v. Fisher, 558 U.S. 45, 47
(2009)(citations, alteration, and internal quotation marks omitted in United States v. Martinez)).
That the Supreme Court rejected probable cause for the emergency-aid exception has not
affected the Tenth Circuit’s test for the destruction-of-evidence exception. See United States v.
Mongold, 528 F. App’x at 949 (applying United States v. Aquino’s test for the destruction-ofevidence exception, which includes a probable cause requirement). Cf. United States v. Najar, No.
CR 03-0735 JB, 2004 WL 3426123, at *6 (D.N.M. Sept. 3, 2004)(Browning, J.)(“For probable
cause in the usual sense not to be needed, the police must be responding to a true emergency rather
than a crime, and the police must reasonably believe a person inside needs immediate assistance,
and entry is needed to protect or preserve life, or to avoid serious injury.” (emphasis in original)),
aff’d, 451 F.3d 710 (10th Cir. 2006). In the Tenth Circuit, the government must meet a four-part
test for such an exception:
An exception to the warrant requirement that allows police fearing the destruction
of evidence to enter the home of an unknown suspect should be (1) pursuant to clear
evidence of probable cause, (2) available only for serious crimes and in
circumstances where the destruction of the evidence is likely, (3) limited in scope
to the minimum intrusion necessary to prevent the destruction of evidence, and
(4) supported by clearly defined indicators of exigency that are not subject to police
manipulation or abuse.

- 71 Appx. B - 071

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 72 of 97

United States v. Aquino, 836 F.2d at 1272. “The second element includes two components: (a) the
exception is only available for serious crimes; and (b) destruction of evidence must be likely.”
United States v. Mongold, 528 F. App’x at 949.
The Brigham City v. Stuart holding likewise did not affect the hot-pursuit exception. “Hot
pursuit occurs when an officer is in ‘immediate or continuous pursuit’ of a suspect from the scene
of a crime.” United States v. Jackson, 139 F. App’x 83, 86 (10th Cir. 2005)(unpublished)(quoting
Welsh v. Wisconsin, 466 U.S. at 753). “In order for the hot pursuit doctrine to apply, the suspect
must have been in a public place ‘when the police first sought to arrest’ the suspect,” Schinagel v.
City of Albuquerque, No. CIV 07-0481 LH/RLP, 2008 WL 11399547, at *6 (D.N.M. Dec. 18,
2008)(Hansen, J.)(quoting United States v. Santana, 427 U.S. at 42), and the police must have had
probable cause to arrest the suspect in the public place, see Schinagel v. City of Albuquerque, 2008
WL 11399547, at *7 (citing United States v. Santana, 427 U.S. at 43 (“We thus conclude that a
suspect may not defeat an arrest which has been set in motion in a public place, and is therefore
proper under [United States v. Watson, 423 U.S. 411 (1976)], by the expedient of escaping to a
private place.”)). Hot pursuit then requires a chase from that public place. See Garrison v. City
of Cushing, 5 F.3d 545, 1993 WL 332284, at *1, *4 (10th Cir. 1993)(unpublished table
opinion)(declining to apply the hot-pursuit exception where law enforcement officers entered a
home pursuant only to a tip as to a suspect’s location). During the chase, if a defendant “seeks to
avoid arrest by retreating into a home, an officer may enter to complete the arrest when in ‘hot
pursuit.’” Gutierrez v. Cobos, No. CIV 12-0980 JH/GBW, 2015 WL 13239104, at *6 (D.N.M.
Aug. 25, 2015)(Herrera, J.)(quoting United States v. Santana, 427 U.S. at 42).

- 72 Appx. B - 072

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 73 of 97

The hot-pursuit exception is closely related to the destruction-of-evidence exception. See
United States v. Aquino, 836 F.2d at 1271. In United States v. Santana, the Supreme Court
reasoned, in part, that the hot-pursuit exception protects against “the significant risk that the
[evidence] would no longer be in the [suspect’s] possession if the police waited until a warrant
could be obtained.” United States v. Aquino, 836 F.2d at 1271 (alteration in original)(citing United
States v. Santana, 427 U.S. at 44 (Stevens, J., concurring)). Since the Supreme Court has
separately recognized the destruction-of-evidence exception, the hot pursuit exception is grounded
on “the suspect’s flight, which frustrates police efforts to make a legitimate warrantless arrest.”
United States v. Aquino, 836 F.2d at 1271 (citing United States v. Santana, 427 U.S. at 43). “[A]
suspect may not defeat an arrest which has been set in motion in a public place . . . by the expedient
of escaping to a private place.” United States v. Shelton, No. CR 18-2045 KG, 2018 WL 6069160,
at *9 (D.N.M. Nov. 20, 2018)(Gonzales, J.)(quoting United States v. Santana, 427 U.S. at 43).
ANALYSIS
The Court denies the Motion. It will not suppress the evidence obtained pursuant to the
BCSO deputies’ search. The Court agrees with the United States’ contentions that the BCSO
deputies acted reasonably when they entered Cruz’ home without a warrant, because they satisfy
the destruction-of-evidence exception to warrantless entry. Regarding the disputed issues, the
Court concludes that: (i) when Cruz ran from the BCSO deputies and the BCSO deputies had other
evidence of Cruz’ drug trafficking, the BCSO deputies had probable cause that Cruz was engaged
in drug trafficking, or, at least, that Cruz was attempting to traffic drugs; (ii) based on the same
facts, the BCSO deputies had probable cause that Cruz possessed drugs, specifically
methamphetamine; (iii) drug trafficking is a “serious crime” for purposes of a warrantless entry

- 73 Appx. B - 073

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 74 of 97

into a home for the destruction-of-evidence exception to the warrant requirement;
(iv) methamphetamine possession is a “serious crime” for purposes of a warrantless entry into a
home for the destruction-of-evidence exception to the warrant requirement; (v) destruction of
evidence was likely when Cruz ran from the BCSO deputies and into his residence; (vi) Cruz’
running from the BCSO deputies and into his residence indicated an exigency that the BCSO
deputies did not manipulate or abuse; (vii) the BCSO deputies were in hot pursuit of Cruz; and
(viii) because the BCSO deputies lawfully entered Cruz’ residence, no unlawful entry tainted
Cruz’ consent to search and the exclusionary rule does not apply.
I.

THE BCSO DEPUTIES SATISFIED THE DESTRUCTION-OF-EVIDENCE
EXCEPTION.
The United States contends that the BCSO deputies acted lawfully under the destruction-

of-evidence exception to the warrant requirement. See Response at 6-8; id. at 10-12. The Court
agrees with the United States that Cruz’ running from the BCSO deputies created an exigent
situation. The Court applies United States v. Aquino’s four-part test for the destruction-ofevidence exception. For the BCSO deputies to have satisfied the exception, on the facts here, the
exception must be:
(1) pursuant to clear evidence of probable cause, (2) . . . for serious crimes and in
the circumstances where the destruction of the evidence is likely, (3) limited in
scope to the minimum intrusion necessary to prevent the destruction of evidence,
and (4) supported by clearly defined indicators of exigency that are not subject to
police manipulation or abuse.
United States v. Aquino, 836 F.2d at 1272. Following United States v. Mongold, the Court
discusses the second element in two-parts: “(a) the exception is only available for serious crimes;
and (b) destruction of evidence must be likely.” United States v. Mongold, 528 F. App’x at 949.
The Court concludes that the United States has satisfied the elements and that the exception

- 74 Appx. B - 074

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 75 of 97

applies. Accordingly, the BCSO deputies did not act unreasonably when they entered Cruz’ home
without a warrant.
A.

THE BCSO DEPUTIES HAD PROBABLE CAUSE THAT CRUZ WAS
ENGAGED IN DRUG TRAFFICKING, OR ATTEMPTING TO TRAFFIC
DRUGS, AND EVEN IF THE BCSO DEPUTIES DID NOT HAVE
PROBABLE CAUSE THAT CRUZ WAS ENGAGED IN DRUG
TRAFFICKING, OR ATTEMPTING TO TRAFFIC DRUGS, THE BCSO
DEPUTIES HAD PROBABLE CAUSE THAT CRUZ POSSESSED
METHAMPHETAMINE.

First, the BCSO deputies must have acted pursuant to probable cause. See United States
v. Aquino, 836 F.2d at 1272. The Court concludes that, given the BCSO deputies’ information
about Cruz before they encountered him outside his residence, after Cruz started running from the
BCSO deputies, they had probable cause that Cruz was trafficking drugs, or, at least attempting to
traffic drugs. Moreover, even if the BCSO deputies did not have probable cause that Cruz was
trafficking drugs, after Cruz began running, the BCSO deputies had probable cause that Cruz
possessed methamphetamine.
Probable cause exists where “the facts and the circumstances within their [(the
officers’)] knowledge and of which they had reasonably trustworthy information
[are] sufficient in themselves to warrant a man of reasonable caution in the belief
that” an offense has been or is being committed [by the person to be arrested],
Dunaway v. New York, 442 U.S. 200, 208, (1979)(alterations in original)(quoting Brinegar v.
United States, 338 U.S. 160, 175-176 (1949)), or that “contraband or evidence of a crime will be
found in a particular place,” United States v. Rey, 663 F. Supp. 2d at 1111-12 (internal quotation
marks omitted)(quoting United States v. Cooper, 654 F.3d 1104, 1124 (10th Cir. 2011)). “A
finding of probable cause rests not on whether particular conduct is ‘innocent’ or ‘guilty,’ but on
the ‘degree of suspicion that attaches’ to the Government’s evidence.” United States v. Biglow,
562 F.3d 1272, 1281 (10th Cir. 2009)(quoting Illinois v. Wardlow, 528 U.S. 119, 128 (2000)).

- 75 Appx. B - 075

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 76 of 97

“One of the Supreme Court’s central teaching[s] on the Fourth Amendment is that probable cause
is a practical, nontechnical conception, designed to operate in conjunction with the commonsense,
practical considerations of everyday life, rather than the elaborate rules employed by legal
technicians.”

United States v. Rey, 663 F. Supp. 2d at 1111-12 (internal quotation marks

omitted)(quoting United States v. Biglow, 562 F.3d at 1281). “Probable cause ‘requires only a
probability or substantial chance of criminal activity,’ rather than ‘an actual showing of such
activity.’” United States v. Rey, 663 F. Supp. 2d at 1112 (quoting United States v. Biglow, 562
F.3d at 1281).
Preliminarily, the Court looks at all relevant facts when determining probable cause, see
United States v. Cantu, 405 F.3d 1173, 1177 (10th Cir. 2005)(“While one fact alone may not
support a finding of probable cause, a cumulative assessment may indeed lead to that
conclusion.”), and the Court will not narrow its analysis as Cruz proposes, see Tr. at 42:1-8
(Bhalla); id. at 42:9-14 (Bhalla). The Court will not focus on whether BCSO deputies had probable
cause that Cruz had drugs in his home.9 See Tr. at 42:1-8 (Bhalla). The BCSO deputies did not
need probable cause that Cruz stored or had drugs in his home to develop suspicions of criminal
activity after he ran from the drug transaction’s location. Likewise, the analysis requires a broader
view than a snapshot when Cruz left his residence, see Tr. at 42:9-14 (Bhalla), because “the degree
of suspicion” began developing before that moment, United States v. Biglow, 562 F.3d at 1281

9

The Court notes that, before Cruz entered his home, the BCSO deputies did not have
probable cause that they would find drugs in the residence. The BCSO deputies had no evidence
suggesting that Cruz stored drugs in his home and Koppman did not believe that Cruz would store
drugs in his home. See Response ¶ 7, at 3; Tr. at 8:19-9:3 (Koppman). When Cruz ran into the
home, the BCSO deputies could reasonably believe that Cruz had transported drugs into the
building.

- 76 Appx. B - 076

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 77 of 97

(quoting Illinois v. Wardlow, 528 U.S. at 128), and Cruz’ running from the BCSO deputies after
that moment increased the suspicion.
The CI’s and the CS’ tips alerted the BCSO deputies to that suspicion. Probable cause,
therefore, turns “on the totality of the circumstances, including the informant’s veracity, reliability,
and basis of knowledge.” United States v. Hendrix, 664 F.3d 1334, 1338 (10th Cir. 2011)(“Where,
as here, probable cause is based on an informant’s tip, the court makes a probable cause
determination based on the totality of the circumstances, including the informant’s veracity,
reliability, and basis of knowledge.” (citing Illinois v. Gates, 462 U.S. at 230-31; United States v.
Quezada-Enriquez, 567 F.3d 1228, 1233 (10th Cir. 2009)). “Veracity concerns the informant’s
truthfulness; reliability ‘entail[s] inquiry into whether the informant has provided accurate
information in the past,’ and, for basis of knowledge, ‘firsthand observation is entitled to greater
weight than secondhand information.’” United States v. Streett, No. CR 14-3609 JB, 2018 WL
6182439, at *69 (D.N.M. Nov. 27, 2018)(Browning, J.)(quoting United States v. QuezadaEnriquez, 567 F.3d at 1233). These characteristics “are not absolute, independent requirements
that must be satisfied in order for probable cause to exist.” United States v. Streett, 2018 WL
6182439, at *69 (internal quotation marks omitted)(quoting United States v. Quezada-Enriquez,
567 F.3d at 1233).
“An informant’s tip which provides ‘highly specific or personal details from which
one could reasonably infer that the informant had firsthand knowledge about the
claimed criminal activity’ is more likely to be found sufficient to support probable
cause.” [United States v. Quezada-Enriquez, 567 F.3d at 1233 (citation omitted).]
“Further, an informant’s tip is more reliable if it is confirmed by officers’
independent observations.” See United States v. Artez, 389 F.3d 1106, 1111 (10th
Cir. 2004)(informant’s tip that narcotics are being distributed at a particular
location can be corroborated through “controlled buy” at that location).
United States v. Hendrix, 664 F.3d at 1338.

- 77 Appx. B - 077

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 78 of 97

Cruz’ attacks on the CI’s and the CS’ accounts have force when the CI’s and the CS’ stories
are taken in isolation. See Motion at 9-10. Cruz, however, ignores the sources corroborating both
the CI’s and the CS’ information. Probable cause depends on several facts, and “[a] low showing
of veracity and reliability alone . . . is not fatal to the probable cause determination, because
‘[w]hen there is sufficient corroboration of an informant’s information there is no need to establish
the veracity of the informant.’” United States v. Streett, 2018 WL 6182439, at *69 (quoting United
States v. Danhauer, 229 F.3d at 1006).
The Court will not, as Cruz would have it do, deem the CI’s information “stale,” unreliable,
and insufficient for probable cause. Motion at 10 (quoting United States v. Shomo, 786 F.2d at
983). Cruz argues that the CI spoke to Koppman in August -- around a month before Koppman
encountered Cruz, offered “only vague references” to Cruz’ drug-dealing, and provided “no dates,
amounts or other indications the [sic] demonstrated that Cruz was engaged in ongoing illegal drug
activity.” Motion at 9-10 (citing United States v. Brown, 828 F.3d at 383). The CI’s information
about Cruz, however, matched Koppman’s prior knowledge. See Response ¶1, at 1; Tr. at 7:1517 (Koppman); Detective Supplemental Report at 2. Koppman recognized as Cruz’ the residence
and cars that the CI described, and the CI identified Koppman’s photograph of Cruz as an image
of the “Chino” who was trafficking drugs. Response ¶ 2, at 2. See Response ¶1, at 1; Tr. at 7:1517 (Koppman); Detective Supplemental Report at 2. See also United States v. Beltran-Lopez, No.
CR 10-2309 LH, 2010 WL 11618908, at *4 (D.N.M. Dec. 6, 2010)(Hansen, J.)(stating that an
informant’s facts were corroborated where evidence linked suspects to a particular residence and
specific cars). Moreover, “[o]ngoing and continuous activity,” like drug trafficking, “makes the
passage of time less critical,” United States v. Mathis, 357 F.3d at 1207 (quoting United States v.

- 78 Appx. B - 078

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 79 of 97

Snow, 919 F.2d 1458, 1460 (10th Cir. 1990); and citing United States v. Le, 173 F.3d 1258, 1267
(10th Cir. 1999); United States v. Myers, 106 F.3d 936, 939 (10th Cir. 1997)), and Koppman knew
of Cruz’ past trafficking activities and the CS’ information a month later, see United States v.
Artez, 389 F.3d at 1112 (“[C]riminal history, combined with other factors, can support a finding
of reasonable suspicion or probable cause[.]” (citing United States v. West, 219 F.3d 1171, 1179
(10th Cir. 2000); United States v. Myers, 106 F.3d at 939; United States v. McCranie, 703 F.2d
1213, 1218 (10th Cir. 1983))); United States v. Mathis, 357 F.3d at 1207 (holding that evidence of
drug trafficking spanning two years was not stale).
Cruz’ attack on the CS’ evidence likewise does not convince the Court. According to Cruz,
Koppman recorded no specifics that the CS provided, see Motion at 10, and the CS “had a motive
to implicate someone else,” because the BCSO deputies had just discovered the CS with “a large
amount of methamphetamine,” Motion at 10. Koppman tested the CS’ veracity, however, “by
quizzing the CS about other known drug traffickers, and other information to which Koppman
already knew the answers.” Response ¶ 5, at 2. Further, the CS identified a picture of Cruz,
revealed texting conversations about drug transactions with Cruz, and noted facts that Koppman
recognized, such as the identity of the intersection near Cruz’ home, descriptions of Cruz’ cars,
and that Cruz was on probation. See Response ¶ 4, at 2; Response ¶ 5, at 2-3; Tr. at 7:18-23
(Koppman); id. at 8:3-7 (Koppman); id. at 10:20-23 (Koppman); Detective Supplemental Report
at 2-3.
Other factors further bolstered the CI’s and the CS’ accounts. That the CI and the CS spoke
from personal knowledge deserves weight, because such a source is a strong basis of knowledge.
See United States v. Streett, 2018 WL 6182439, at *69 (quoting United States v. Quezada-

- 79 Appx. B - 079

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 80 of 97

Enriquez, 567 F.3d at 1233); United States v. Mathis, 357 F.3d at 1206 (noting that informants’
narratives were strengthened when “each personally knew Mathis and his residence,” and that “the
information provided by the informants was internally corroborated in several respects”). The CI
and the CS also corroborated each other. See United States v. Artez, 389 F.3d at 1111 (“A tip
from a second informant can also help corroborate information from a confidential informant.”
(citing United States v. Sturmoski, 971 F.2d 452, 455-56, 457-58 (10th Cir. 1992))).
Moreover, Cruz’ actions on September 5, 2017, significantly increased the “probability”
that Cruz was trafficking drugs -- particularly methamphetamine -- and corroborated the accounts.
United States v. Rey, 663 F. Supp. 2d at 1112 (quoting United States v. Biglow, 562 F.3d at 1281).
Koppman and the other BCSO deputies overheard Cruz agreeing on the telephone to sell the CS
several ounces of methamphetamine. See Response ¶ 6, at 3; Tr. at 8:12-14 (Koppman); id. at
13:12-13 (Koppman); id. at 17:9-12 (Stanford, Koppman); id. at 20:25-21:6 (Stanford, Koppman);
Detective Supplemental Report at 3. Not only did Cruz agree to the sale in the first telephone
conversation, in the second telephone conversation, Cruz confirmed the transaction, his
residence’s location, and the meeting’s timing, and, at the designated time, Cruz left his home at
the described location and walked from his residence with the appearance of an individual about
to engage in a drug sale. See Response ¶ 8, at 3; Tr. at 13:6-9 (Koppman); id. at 15:10-11
(Koppman); id. at 15:14-17 (Koppman); Detective Supplemental Report at 3. That Cruz then ran
when the BCSO deputies approached him at that drug sale location corroborates the CI’s and the
CS’ stories, and indicates his involvement in drug transactions and specifically the planned drug
sale. Because a home contains means to destroy or conceal evidence of drugs, a reasonable
presumption arises that a suspect running toward a home from a drug sale location possesses a

- 80 Appx. B - 080

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 81 of 97

substance that he or she desires to destroy or hide. As Cruz ran toward his residence, a high
probability arose that he possessed such a substance -- the methamphetamine that he had agreed
to sell.
Cruz’ flight, therefore, gave the BCSO deputies probable cause. See United States v.
Hendrix, 664 F.3d 1334, 1338-39 (10th Cir. 2011)(holding that officers’ observations of signs that
a defendant attempted to hide evidence -- “considerable movement, opening and closing of doors,
and a toilet flushing” -- contributed to probable cause). With Cruz’ history, the CI’s and the CS’
information, and the CS’ texts and telephone calls, that Cruz ran from the planned drug sale site
establishes probable cause that Cruz was engaged in drug trafficking, or, at least attempting to
traffic drugs. Even if Cruz’ flight does not give probable cause that Cruz was trafficking drugs
regularly, it at least establishes probable cause that Cruz possessed methamphetamine at the time.10
The authority that Cruz cites does not convince the Court to reach a different conclusion.
In United States v. Brown, little evidence corroborated the informant’s statements. See 828 F.3d
at 382-83. In that case,
[t]he affidavit did not suggest that a reliable confidential informant had purchased
drugs [at Brown’s home], that the police had ever conducted surveillance at
Brown’s home, or that the recorded telephone conversations linked drug trafficking
to Brown’s residence. The Government note[d] [only] that Brown’s car, which was
registered to his residence, was parked outside Middleton’s home and tested
positively for narcotics during a canine search.

10

Although the BCSO deputies recovered heroin as well as methamphetamine from Cruz,
see Response ¶ 10, at 4; Detective Supplemental Report at 3, the BCSO deputies had no reason to
think that Cruz would have heroin on him. The CS agreed to purchase methamphetamine from
Cruz, see Tr. at 13:12-13 (Koppman); id. at 17:9-12 (Stanford, Koppman), and the BCSO deputies
knew about only that agreement when approaching Cruz, see Response ¶ 6, at 3; Tr. at 8:12-13
(Koppman); Detective Supplemental Report at 3. Accordingly, probable cause for Cruz’
possession of heroin plays no role in this analysis.

- 81 Appx. B - 081

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 82 of 97

828 F.3d at 382-83. Here, on the other hand, outside evidence, as discussed above, corroborates
the CI’s and the CS’ information. Similarly, in United States v. Aquino, the police had little to no
evidence that Aquino was the individual dealing cocaine until they located the specific apartment
from which the cocaine was sold and observed the cocaine being sold. See 836 F.2d at 1269-70.
Further, although Cruz cites several cases for the proposition that a controlled buy, surveillance,
or an investigation must corroborate probable cause, see Tr. at 44:13-45:1 (Bhalla), these cases
say that such evidence can corroborate probable cause and not that these specific events must
occur, see United States v. Cook, 2016 WL 9488763, at *3; United States v. Brown, 828 F.3d at
383; United States v. Aranda-Daiz, 2013 WL 4446801, at *27-28; United States v. Aquino, 836
F.2d at 1272-73. Sufficient evidence here existed to establish probable cause. “A man of
reasonable caution” could believe that Cruz was engaging in drug trafficking and possessed
methamphetamine. Dunaway v. New York, 442 U.S. at 208 (quoting Brinegar v. United States,
338 U.S. at 175-176).
B.

DRUG TRAFFICKING IS A SERIOUS CRIME, AND, EVEN IF THE BCSO
DEPUTIES DID NOT HAVE PROBABLE CAUSE THAT CRUZ WAS
ENGAGED IN DRUG TRAFFICKING, METHAMPHETAMINE
POSSESSION IS A SERIOUS CRIME.

The Court next addresses the first part of United States v. Aquino’s second factor. The
Court concludes that, under Tenth Circuit precedent, drug trafficking is a serious crime for
purposes of a warrantless entry into a home under the destruction-of-evidence exception.
Although no Tenth Circuit caselaw addresses whether methamphetamine possession is a serious
crime for such purposes, the Court concludes that such possession is a serious crime for the
purposes of a warrantless entry.

- 82 Appx. B - 082

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 83 of 97

No question exists that the Tenth Circuit considers drug trafficking a serious crime for
purposes of a warrantless entry into a home under the destruction-of-evidence exception. See
United States v. Aquino, 836 F.2d at 1273 (“Our cases indicate that the sale of illegal drugs is a
sufficiently severe offense to justify a warrantless entry when police ‘have reason to believe that
criminal evidence’ will be destroyed if they do not immediately enter the premises. (quoting United
States v. Cuaron, 700 F.2d at 586)); United States v. Wicks, 995 F.2d 964, 970-71 (10th Cir.
1993)(treating drug trafficking as a serious crime). Accordingly, the Court confidently deems
Cruz’ drug trafficking a serious crime for purposes of the warrantless entry.
The Court could not find a Tenth Circuit case deciding whether methamphetamine
possession is a serious crime for such purposes. See United States v. Famiglietta, 164 F. App’x
695, 698 (10th Cir. 2006)(unpublished)(assuming, “without deciding, that possession of
methamphetamine is a sufficiently ‘serious crime.’”). If the BCSO deputies did not have probable
cause that Cruz was trafficking drugs or attempting to traffic drugs, the Court’s analysis must focus
on Cruz’ crime of possession.

The Court, therefore, addresses whether methamphetamine

possession is a serious crime.
In arguing that drug possession is not a serious crime, Cruz expands United States v.
Mongold’s holding to all drug possession. See Tr. at 46:20-47:9 (Bhalla). United States v.
Mongold addresses only marijuana possession. See United States v. Mongold, 528 F. App’x at
949. The Tenth Circuit had previously refused to hold marijuana possession a serious crime, see
United States v. Carter, 360 F.3d 1235, 1242 (10th Cir. 2004)(“[T]he only crime for which there
was probable cause was possession of a small quantity of marijuana, in all likelihood a

- 83 Appx. B - 083

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 84 of 97

misdemeanor, a crime that does not reach the level of ‘serious crime’ required by Aquino.”), and,
in United States v. Mongold, the Tenth Circuit did not address other drugs.
“Although a ‘serious crime’ is not well defined, the Supreme Court has explained that
penalties are the best indication of whether a crime is ‘serious.’” United States v. Betche, 540
F. App’x 838, 842 (10th Cir. 2013). Jailable offenses and felonies constitute sufficiently serious
crimes to merit warrantless entries. See Illinois v. McArthur, 531 U.S. 326, 336 (2001)(upholding
a warrantless entry where the offenses were punishable by up to thirty days and up to one year in
jail, and law enforcement temporarily restricted the defendant’s access to his home); Welsh v.
Wisconsin, 466 U.S. at 752 (noting that, of the courts addressing a crime’s seriousness when
analyzing warrantless entry, “most [courts] have refused to permit warrantless home arrests for
nonfelonious crimes”). Non-jailable misdemeanors, including misdemeanors for drug possession,
are often not serious crimes. See, e.g., United States v. Race, No. 11-CR-6157G, 2015 WL
576171, at *19 (W.D.N.Y. Feb. 11, 2015)(Payson, M.J.)(“Several courts have held that the
suspected destruction of evidence of a minor crime or violation punishable by a fine, particularly
possession of marijuana, is insufficient to justify a warrantless entry into a residence.”), report and
recommendation adopted, No. 11-CR-6157-FPG, 2015 WL 4678624 (W.D.N.Y. Aug. 6,
2015)(Geraci, C.J.).11 In United States v. Mongold, for instance, the Tenth Circuit highlighted

11

In United States v. Race, the Honorable Marian Payson, United States Magistrate Judge
for the Western District of New York, gave a string cite to support this statement:
Welsh[v. Wisconsin], 466 U.S. [740,] 754 [(1984)] (“[t]he [s]tate . . . has chosen to
classify the first offense for driving while intoxicated as a noncriminal, civil
forfeiture offense for which no prison is possible[;] . . . [g]iven this expression of
the [s]tate’s interest, a warrantless [home entry] cannot be upheld simply because
evidence of the petitioner’s blood-alcohol level might have dissipated while the

- 84 Appx. B - 084

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 85 of 97

United States v. Carter’s language that “possession of a small quantity of marijuana [was] in all
likelihood a misdemeanor.” United States v. Mongold, 528 F. App’x at 949 (quoting United States
v. Carter, 360 F.3d at 1242). The Tenth Circuit reasoned that, because Oklahoma made marijuana
possession a misdemeanor, on the facts at issue, marijuana possession was not a serious crime.
See United States v. Mongold, 528 F. App’x at 949-50.
As both federal statutes and State of New Mexico statutes punish methamphetamine
possession as a felony, the Court concludes that methamphetamine possession is a serious crime.
In New Mexico, methamphetamine possession is a fourth-degree felony, punishable by “eighteen
months imprisonment.” N.M. Stat. Ann. § 31.18.15(A)(13). See N.M. Stat. Ann. § 30-31-23(E).
At the federal level, 21 U.S.C. § 841 makes first-time possession of fifty grams or more of

police obtained a warrant”); United States v. Mongold, 528 F. App’x at 949 (“if
marijuana possession is the only crime for which the officers in this case had
probable cause, the exigency exception for destruction of evidence should not apply
because marijuana possession is not a serious crime”); White v. Stanley, 745 F.3d
237, 241 (7th Cir. 2014)(“[t]he possession of a small amount of marijuana is far
from that rare case [;] . . . police who simply smell burning marijuana generally
face no exigency and must get a warrant to enter the home”); United States v. Shook,
[No.
1:12-CR-74-BLW,]
2013
WL
2354085,
*3
(D.
Idaho
2013)[(Winmill, C.J.)](“[s]melling marijuana signals only that someone is smoking
pot, a minor misdemeanor that cannot justify a warrantless home entry”); [United
States v. ]Fareed, No. 01-CR-19E2001,] WL 1432285[,] at *4 [(W.D.N.Y. Nov. 6,
2001)(Eflvin, J.)](“[t]he government has not presented any authority which would
justify the forcible warrantless entry into an individual’s home based upon
[possession of marijuana,] conduct that amounted only to a non-criminal
violation”); Polson v. City of Lee’s Summit, 535 F. Supp. 555, 569 (W.D. Miss.
1982)(“[i]t would seem that Fourth Amendment privacy interests have been given
priority over the law enforcement interest in rooting out, arresting and punishing
marijuana smokers[;][i]n any event, the cases do not allow the odor of burning
marijuana to serve in place of a search warrant”).
2015 WL 576171, at *19 (alterations to citations added).

- 85 Appx. B - 085

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 86 of 97

methamphetamine a felony punishable by at least ten years in prison, and the statute increases the
punishment for subsequent offenses or offenses that violent actions accompany.
21 U.S.C. § 841(b)(1)(A)(viii).

See

Section 841 punishes possession of five grams or more of

methamphetamine with at least five years imprisonment. See 21 U.S.C. § 841(b)(1)(B)(viii).
Accordingly, because methamphetamine possession is a jailable felony, methamphetamine
possession is a serious crime for the purposes of exceptions to the presumption against warrantless
entries.12
C.

THE DESTRUCTION OF EVIDENCE WAS LIKELY WHEN CRUZ RAN
FROM THE BCSO DEPUTIES AT THE TRANSACTION LOCATION AND
INTO HIS RESIDENCE.

The Court turns to the second factor’s second part. For this part to be satisfied, Cruz had
to have been likely to destroy evidence. See United States v. Aquino, 836 F.2d at 1272. The Court
concludes that, when Cruz ran from the BCSO deputies and into his home, the destruction of
evidence was likely.

12

Were the Court writing on a clean slate, it would not deem possession of personal-use
amounts of methamphetamine to be a serious crime. By looking to penalties to identify “serious
crimes,” the courts are writing out the “serious crime” element from the Fourth Amendment
analysis. Legislatures prescribe imprisonment for numerous offenses. If the Supreme Court and
Tenth Circuit desire to minimize this element of the Fourth Amendment test, they may. The Court
believes, however, that the Constitutional realm here diverges from the Legislative realm. The
Fourth Amendment enshrines protection for our homes. Courts and the common law system can
sort out which crimes are sufficiently serious to merit warrantless entries. The Court does not
believe that crimes like possession of methamphetamine for personal use, which hurt none but the
user, rise to that level.
Here, Cruz possessed methamphetamine with the intent to distribute. The Court
differentiates this offense from possession of methamphetamine for personal use. Because
possession with the intent to distribute harms society more broadly, the Court is willing to conclude
that it is a sufficiently serious offense to justify a warrantless entry.

- 86 Appx. B - 086

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 87 of 97

A reasonable officer could read Cruz’ actions to signify that he would destroy evidence.
Both law enforcement and courts recognize that defendants can easily destroy or rid themselves of
drugs by, for instance, flushing the drugs in the toilet, throwing them over a fence, or throwing
them on a roof, and that defendants frequently try to destroy such evidence through these and other
means. See Tr. at 17:3-8 (Koppman); United States v. Famiglietta, 164 F. App’x 695, 699 (10th
Cir. 2006)(considering “the reality that a small bag of drugs could be quickly and easily
destroyed”); United States v. Radka, 904 F.2d at 361 (“[N]arcotics can be easily destroyed while
a search is progressing[.]”); Thomas v. Vaughn, 2006 WL 2375657, at *8 (differentiating the
evidence in the case -- the weapon used in and the money obtained from a robbery -- from drug
evidence, which “is easily destroyed,” and considering the evidence’s nature in determining the
likelihood that the defendants would destroy it). Cruz knew that the BCSO deputies had an interest
in his activities, because they identified themselves at the drug sale location. See United States v.
Aquino, 836 F.2d at 1273 (considering a defendant’s suspicions when upholding that evidence’s
destruction was likely); United States v. Socey, 846 F.2d 1439, 1442, 1458 (D.C. Cir.
1988)(treating the defendants’ awareness of law enforcement’s presence as an indication that the
defendant would destroy evidence); United States v. Elkins, 732 F.2d 1280, 1285 (6th Cir.
1984)(same). Cruz’ home likely contained a toilet or other means through which he could destroy
or hide the methamphetamine, and Cruz unlikely planned to run into his home to prevent his arrest
if the BCSO deputies sought to arrest him. That Cruz ran from the BCSO deputies and into his
home, therefore, signaled that he likely planned to destroy evidence -- the methamphetamine from
the planned drug sale. See, e.g., United States v. Canas, 462 F. App’x 836, 837-39 (10th Cir.
2012)(unpublished)(upholding that running around and not addressing the law enforcement

- 87 Appx. B - 087

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 88 of 97

officers at the door established that destruction of evidence was likely); United States v. RamirezFragozo, 490 F. App’x 125, 126-27 (10th Cir. 2012)(unpublished)(upholding that destruction of
evidence was likely on similar facts to United States v. Canas). The BCSO deputies’ “experience
in prior narcotics investigations provided foundation for the officers’ belief that [the
methamphetamine] could be concealed or destroyed within a short period of time,” United States
v. Chavez, 812 F.2d 1295, 300 (10th Cir. 1987), and such experience reasonably counseled that
Cruz would attempt such destruction.
The Court disagrees with Cruz that, to meet this element, the BCSO deputies must have
seen or heard Cruz destroying evidence. See Tr. at 48:15-22 (Bhalla). Courts frequently uphold
the likelihood of evidence’s destruction when law enforcement officers do not observe the
destruction, but the officers know that a defendant has become aware of law enforcement officers’
interests in his or her activities or of their presence near the evidence. See, e.g., United States v.
Aquino, 836 F.2d at 1273 (noting that Aquino was likely to destroy evidence before law
enforcement officers arrived at his apartment, because he likely grew suspicious of police activity
after the officers released from custody other individuals who were involved in the cocaine trade
and a telephone call to the informant’s apartment indicated another individual’s suspicions);
United States v. Socey, 846 F.2d at 1442, 1458 (indicating that defendants may destroy evidence
when a “commotion would alert those in the house to the police presence”); United States v.
Chavez, 812 F.2d at 1297-300 (concluding that “[t]he extinguishment of lights and the closing of
the doors of the garage, as well as the departure of one of the employees, provided reasonable
grounds for the officers to become concerned that the occupants were aware of the officers’
surveillance,” and that the officers could reasonably conclude that the defendants would likely

- 88 Appx. B - 088

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 89 of 97

destroy evidence); United States v. Elkins, 732 F.2d 1280, 1285 (6th Cir. 1984)(stating that
destruction of evidence was likely where law enforcement vehicles would have alerted people
within a house of the law enforcement officers’ presence).

Moreover, requiring that law

enforcement see or hear indications that a suspect was concurrently destroying evidence would
defeat the exception’s purpose.

The exception should permit law enforcement officers to

effectively perform their duties -- including safeguarding evidence -- when they lack the time or
the opportunity to obtain a warrant. If judges were to mandate the partial destruction of evidence
before finding the exception applicable, such judges would substantially hobble -- if not wholly
impede -- efforts to preserve complete evidence.
Cruz also ignores the similarities between his actions and those of individuals actively or
imminently destroying evidence. If, after law enforcement officers announce their presence, signs
of running, slamming doors, and avoiding the police within a house indicate evidence’s
destruction, similar actions -- like running and avoiding the police -- outside and leading inside the
home, in which evidence may be destroyed, should likewise be capable of carrying such
implications. See, e.g., United States v. Canas, 462 F. App’x at 837-39 (holding that destruction
of evidence was likely, when, after an informant gave officers an address from which individuals
distributed heroin, and the officers who knocked on the residence’s door “heard running, loud
talking, and the sounds of doors or cabinets slamming”); United States v. Ramirez-Fragozo, 490
F. App’x at 126-27 (upholding that destruction of evidence was likely on similar facts to United
States v. Canas). The BCSO deputies could reasonably believe that a defendant running into a
house from the location of a planned drug sale, like the people running inside a house, hoped to
reach a room in which he could hide his participation in drug crimes. The Court, therefore,

- 89 Appx. B - 089

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 90 of 97

concludes that the BCSO deputies confronted more than “the mere possibility that . . . evidence
could be destroyed.” Tr. at 48:5-8 (Bhalla)(internal quotation marks omitted)(quoting Thomas v.
Vaughn, 2006 WL 2375657, at *8). The United States satisfies this part of the second element.
D.

THE BCSO DEPUTIES LIMITED THEIR SEARCH TO THE EXTENT
NECESSARY TO PREVENT THE DESTRUCTION OF EVIDENCE.

Third, the Court considers whether the BCSO deputies limited their search to the extent
necessary to prevent the destruction of evidence. See United States v. Aquino, 836 F.2d at 1272.
Cruz devotes little to no time debating the third factor. He states only that, because the United
States cannot establish the other elements, he need not discuss this factor. See Tr. at 48:22-49:3
(Bhalla). As the Court concludes that the United States can establish the other elements, the Court
must consider whether the United States can also satisfy this factor. The Court concludes that the
BCSO deputies narrowed their search to the extent necessary to avoid the destruction of evidence.
The BCSO deputies limited their search as the third element requires. The BCSO deputies
entered Cruz’ home initially only so far as required to arrest him outside the bathroom. See
Response ¶ 10, at 4; Tr. at 23:2-4 (Koppman); Detective Supplemental Report at 3-4. The BCSO
deputies proceeded to search no further in the house until Cruz gave his consent. See Tr. at 24:1825 (Stanford, Koppman). See also United States v. Scroger, 98 F.3d 1256, 1260 (10th Cir.
1996)(upholding a search when “the warrantless entry and protective sweep were limited in scope
to ensure the safety of the officers and the residence,” and the officers waited for further authority
to commit a search before conducting a “full search of the residence”). As obtaining custody over
Cruz was necessary to prevent him from destroying evidence, the BCSO deputies entered Cruz’
home only to the extent necessary. The United States, therefore, has shown this element satisfied.

- 90 Appx. B - 090

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 91 of 97

E.

CRUZ’ RUNNING FROM THE BCSO DEPUTIES AND INTO HIS
RESIDENCE INDICATES AN EXIGENCY NOT SUBJECT TO POLICE
MANIPULATION OR ABUSE.

Last, the United States must show that the destruction-of-evidence exception is “supported
by clearly defined indicators of exigency that are not subject to police manipulation or abuse.”
United States v. Aquino, 836 F.2d at 1272. The Court discusses two parts to this element:
(i) whether an exigency arose; and (ii) law enforcement’s role in creating the exigency. See United
States v. Hendrix, 664 F.3d 1334, 1339 (10th Cir. 2011)(discussing, first, whether exigent
circumstances existed and, second, law enforcement officers’ roles in creating the exigency). The
Court concludes that the United States meets this element. First, an exigency existed, because
Cruz would likely imminently destroy evidence if the BCSO deputies did not intervene. Second,
under Kentucky v. King, the BCSO deputies acted lawfully and did not a warrant.
First, the circumstances indicated that the BCSO deputies faced an exigency. Much of the
Court’s analysis of this element’s first part overlaps with the discussion in the Analysis’ Section
I(C) about the likelihood that Cruz would destroy the evidence.13 “When officers have reason to

13

The Court analyzes separately the likelihood that evidence would be destroyed and the
indicators that an exigency exits. Other courts, however, conflate the two considerations. See
United States v. Famiglietta, 164 F. App’x at 698-99 (“[T]he likelihood that the evidence would
be destroyed created sufficient exigent circumstances for Officer Wadley to enter the apartment.”);
United States v. Anderson, 154 F.3d 1225, 1233-34 (10th Cir. 1998)(discussing in one analysis
“the government’s failure to demonstrate the presence of any ‘circumstances where the destruction
of evidence is likely’ or any ‘clearly defined indications of exigency’”); United States v. Estrada,
No. 1:11-CR-101 TS, 2012 WL 2367992, at *3-4 (D. Utah June 21,
2012)(Stewart, J.)(summarizing the test for the destruction-of-evidence exception as requiring
probable cause and exigent circumstances); United States v. Macias-Treviso, 42 F. Supp. 2d 1206,
1216 (D.N.M. 1999)(Parker, J.)(addressing the crime’s seriousness as the second element, and the
indications of exigency and concerns about the evidence’s destruction as the fourth element). The
Court cannot discern a pattern signaling under which element it should address the likelihood of
evidence’s destruction and the exigency’s existence. The Court chooses to discuss each factor
separately, because the Tenth Circuit listed them as distinct in United States v. Aquino.

- 91 Appx. B - 091

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 92 of 97

believe that criminal evidence may be destroyed . . . or removed, . . . before a warrant can be
obtained, the circumstances are considered sufficiently critical to permit officers to enter a private
residence in order to secure the evidence while a warrant is sought.” United States v. Cuaron, 700
F.2d at 586 (citations omitted). Cruz knew that the BCSO deputies suspected him, and once in his
home, Cruz could quickly destroy evidence. See Kentucky v. King, 563 U.S. at 455-57 (upholding
an exigency exception when law enforcement heard noises implying the destruction of evidence);
United States v. Aquino, 836 F.2d at 1273-74 (upholding application of the destruction-ofevidence exception when the defendant suspected the police’s attention). The facts suggest no
time in which the BCSO deputies could have obtained a warrant. Cf. United States v. Mongold,
528 F. App’x at 948 (explaining that “the exigencies . . . make the needs of law enforcement so
compelling that [a] warrantless search is objectively reasonable under the Fourth Amendment”
(internal quotation marks omitted)(alteration in original)(quoting Kentucky v. King, 563 U.S. at
460)). The Court, therefore, concludes that indicators of an exigency existed.
Second, Cruz’ argument that the Court should not apply the destruction-of-evidence
exception, because the BCSO deputies created an exigency or because the BCSO deputies should
have obtained a warrant, does not convince the Court. Kentucky v. King governs here. In
Kentucky v. King, the Supreme Court held:
[T]he answer to the question before us is that the exigent circumstances rule
justifies a warrantless search when the conduct of the police preceding the exigency
is reasonable in the same sense. Where, as here, the police did not create the
exigency by engaging or threatening to engage in conduct that violates the Fourth
Amendment, warrantless entry to prevent the destruction of evidence is reasonable
and thus allowed
Kentucky v. King, 563 U.S. at 462. The Supreme Court directly rejected the argument that law
enforcement officers must seek a warrant immediately on obtaining probable cause or in situations

- 92 Appx. B - 092

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 93 of 97

in which exigencies might arise. See Kentucky v. King, 563 U.S. at 466 (describing that such an
“approach unjustifiably interferes with legitimate law enforcement strategies. There are many
entirely proper reasons why police may not want to seek a search warrant as soon as the bare
minimum of evidence needed to establish probable cause is acquired.”). Kentucky v. King leaves
narrow the circumstances in which law enforcement actions will impermissibly create exigencies.
In United States v. Hendrix, for instance, the Tenth Circuit held that, under Kentucky v. King, a
warrantless entry was lawful, although law enforcement officers went “directly to the motel room
at night without first seeking a warrant or further corroboration of the informant’s tip, [gave] a
false name, and continually [demanded] entry after initially being refused.” United States v.
Hendrix, 664 F.3d at 1339-40. Here, Cruz, like Hendrix, presents no evidence that the BCSO
deputies “threatened to enter [his residence] without permission unless admitted.” United States
v. Hendrix, 664 F.3d at 1340. The BCSO deputies did not “engag[e] or threaten . . . to engage in
conduct that violates the Fourth Amendment.” Kentucky v. King, 563 U.S. at 462. They did not
even go to Cruz’ residence intending to or expecting to need to enter his home. Accordingly, the
Court concludes that United States v. Aquino’s fourth element is satisfied and that the BCSO
deputies met the destruction-of-evidence exception to warrantless entries. The BCSO deputies,
therefore, acted constitutionally when they entered Cruz’ home without a warrant.
II.

THE BERNALILLO OFFICERS ENTERED CRUZ’ HOME LAWFULLY IN A
HOT PURSUIT OF CRUZ.
The United States also argues that the BCSO deputies acted pursuant to the hot-pursuit

exception to the warrant requirement. See Response at 6; id. at 8-9. The Court concludes that the
BCSO deputies entered Cruz’ home lawfully under this exception. To satisfy the hot-pursuit
exception, the United States must establish that the BCSO deputies had probable cause to arrest

- 93 Appx. B - 093

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 94 of 97

Cruz in a public place, and that the BCSO deputies chased Cruz immediately and continuously
from that public place into the home to complete the arrest. See Schinagel v. City of Albuquerque,
2008 WL 11399547, at *6-7; United States v. Jackson, 139 F. App’x at 86 (quoting Welsh v.
Wisconsin, 466 U.S. at 753). As discussed in the Analysis’ Section I(A), the Court concludes that
the BCSO deputies had probable cause that Cruz was trafficking drugs, or attempting to traffic
drugs, and that he possessed methamphetamine. The BCSO deputies developed this probable
cause when Cruz began running in a public place, outside his home. See Response ¶ 8, at 3; id.
¶ 10, at 4; Tr. at 15:14-17 (Koppman); id. at 16:20 (Koppman); Detective Supplemental Report at
3-4. The BCSO deputies were attempting to take Cruz into custody as they chased him and ordered
him to stop. See Response ¶ 10, at 4; Tr. at 16:20 (Koppman); id. at 37:10-16 (Bhalla, Koppman);
Detective Supplemental Report at 3-4. They followed Cruz from the planned drug sale’s location
into his home. See Response ¶ 10, at 4; Tr. at 22:25-23-1 (Koppman); id. at 27:8-10 (Koppman).
See also Garrison v. City of Cushing, 5 F.3d 545 (10th Cir. 1993)(“[H]ot pursuit generally requires
some sort of a chase, however short it may be.” (citing United States v. Santana, 427 U.S. at 43)).
Only once within Cruz’ home did the BCSO deputies take Cruz into custody. See Tr. at 23:3
(Koppman). The hot-pursuit exception hence applies.
Cruz’ distinction between his circumstances and the facts in United States v. Santana does
not sway the Court. Cruz distinguishes his situation by noting that, in United States v. Santana, a
complete drug buy occurred. See Reply at 4-5. This fact, however, speaks to whether officers had
probable cause and not to whether an exigency arose. See United States v. Santana, 427 U.S. at
42-43 (addressing whether the attempt to arrest began in a public place and whether the pursuit
permitted entry into Santana’s house, and not analyzing the drug transaction or probable cause).

- 94 Appx. B - 094

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 95 of 97

The Court has already addressed whether the BCSO deputies had probable cause that Cruz was
engaging in or attempting to engage in drug trafficking, and whether he possessed
methamphetamine. Accordingly, the Court concludes that the United States has met its burden to
establish that a hot pursuit occurred.
III.

BECAUSE THE BCSO DEPUTIES DID NOT UNLAWFULLY ENTER CRUZ’
HOME, THE EXCLUSIONARY RULE DOES NOT REQUIRE THAT THE
COURT EXCLUDE EVIDENCE OBTAINED PURSUANT TO THE SEARCH.
Cruz asks that, after the Court deems the BCSO deputies’ warrantless entry unlawful, the

Court suppress the evidence obtained pursuant to the entry -- the methamphetamine, heroin,
firearms, and Cruz’ statements. See Motion at 5. As the BCSO deputies did not unlawfully enter
Cruz’ home, however, the exclusionary rule does not require that the Court exclude the evidence.14

14

Cruz is correct that, if the BCSO deputies unlawfully entered his home, the Court would
suppress the evidence obtained pursuant to the search. No exceptions to the exclusionary rule
permit the evidence here. First, the Court declines to apply here the good-faith exception. The
Supreme Court has held that evidence will not be excluded where the officer who obtained the
evidence -- through an unlawful search or seizure -- acted in good faith. See United States v.
Davis, 564 U.S. at 236-37. No evidence here reveals such good faith errors. The entirety of the
occurrence here boils down to the BCSO deputies learning information from the CI and CS and
then chasing Cruz into his home.
Second, the Court deems the inevitable-discovery doctrine inapplicable. “The inevitable
discovery doctrine provides an exception to the exclusionary rule, and permits evidence to be
admitted ‘if an independent, lawful police investigation inevitably would have discovered it.’”
United States v. Cunningham, 413 F.3d at 1203 (citations omitted)(quoting United States v.
Owens, 782 F.2d at 152; and citing Nix v. Williams, 467 U.S. at 444, 448; United States v. Romero,
692 F.2d at 704)). The Tenth Circuit adopted four factors to determine “how likely it is that a
warrant would have been issued and that the evidence would have been found pursuant to a
warrant”:
1) “the extent to which the warrant process has been completed at the time those
seeking the warrant learn of the search”; 2) the strength of the showing of probable
cause at the time the search occurred; 3) whether a warrant ultimately was obtained,
albeit after the illegal entry; and 4) “evidence that law enforcement agents ‘jumped

- 95 Appx. B - 095

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 96 of 97

See Sanchez-Llamas v. Oregon, 548 U.S. at 348; Wong Sun v. United States, 371 U.S. at 484.
The Court, accordingly, will admit the evidence and denies the Motion.

the gun’ because they lacked confidence in their showing of probable cause and
wanted to force the issue by creating a fait accompli.”
United States v. Souza, 223 F.3d at 1204 (citations omitted)(quoting United States v. Cabassa, 62
F.3d at 473-74, 473 n.2). Here, the Court cannot say soundly that the BCSO deputies would have
obtained the evidence with a warrant: (i) the BCSO deputies had not begun the warrant process
before the search; (ii) although the BCSO deputies had evidence implicating Cruz, the BCSO
deputies lacked probable cause until Cruz ran immediately before the search; (iii) the BCSO
deputies did not ultimately obtain a warrant; and (iv) the BCSO deputies did not jump for the
search before getting their warrant. See United States v. Souza, 223 F.3d at 1204. The Court
confronts an inherent intellectual tension between saying that the BCSO deputies had to enter the
home to protect imminent destruction of the drugs and saying that, if the BCSO deputies had
waited and obtained a warrant, the drugs would have still been there; the Court cannot and will not
try to have it both ways. The BCSO deputies obtained some evidence, because they interrupted
Cruz’ attempt to destroy the evidence. Had the BCSO deputies returned later with a warrant, Cruz
likely would have destroyed or hidden evidence, and/or not have uttered the statements that he
admitted when the BCSO deputies caught him in the act of destroying evidence. See United States
v. Martinez, 696 F. Supp. 2d at 1244 (“[C]ourts should be realistic, if not skeptical, when assessing
the probability that law-enforcement officers would inevitably have uncovered the challenged
evidence through an independent investigation.”). Likewise, had the BCSO deputies waited for
more evidence and had the BCSO deputies not interrupted Cruz, they may have unearthed drugs
and firearms on Cruz and in his home, and may even have recovered the same firearms discovered
on September 5, 2017. The BCSO deputies, however, likely would not have recovered the same
drugs discovered on September 5, 2017, as those drugs’ locations -- Cruz’ pockets, the purse, and
the vehicles -- suggest that Cruz would likely have moved those substances. The BCSO deputies,
therefore, would not have inevitably discovered this evidence.
Third, the independent-source doctrine does not apply. Under the independent-source
doctrine, evidence that is obtained based upon information unrelated to an unlawful search is not
fruit of the poisonous tree. See Segura v. United States, 468 U.S. at 799 (citing Silverthorne
Lumber Co. v. United States, 251 U.S. 385 (1920)). “A source is genuinely independent if the
government can show that the evidence was obtained by ‘means sufficiently distinguishable to be
purged of the primary taint.’” United States v. Forbes, 528 F.3d at 1278 (quoting Wong Sun v.
United States, 371 U.S. at 488). As with the inevitable-discovery doctrine, a subsequent search
pursuant to a warrant can make admissible evidence otherwise tainted by an initial warrantless
search. See Murray v. United States, 487 U.S. at 535. The BCSO deputies did not otherwise
obtain the evidence from Cruz. Accordingly, this doctrine does not apply.

- 96 Appx. B - 096

Case 1:18-cr-01105-JB Document 52 Filed 02/27/19 Page 97 of 97

IT IS ORDERED that the Defendant Jose Jesus Cruz’s Motion to Suppress Evidence and
Statements, filed October 22, 2018 (Doc. 25), is denied.

________________________________
UNITED STATES DISTRICT JUDGE

Counsel:
John C. Anderson
United States Attorney
Jon K. Stanford
Assistant United States Attorney
United States Attorney’s Office
Albuquerque, New Mexico
Attorneys for the Plaintiff
Carey Corlew Bhalla
Carey C. Bhalla, LLC
Albuquerque, New Mexico
Attorney for the Defendant

- 97 Appx. B - 097

